<html>
<title> - AN OVERVIEW OF TRANSPORTATION R&D</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   AN OVERVIEW OF TRANSPORTATION R&D

=======================================================================

                                HEARINGS

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           FEBRUARY 12, 2009
                                  and
                             MARCH 31, 2009

                               ----------                              

                            Serial No. 111-2
                                  and
                           Serial No. 111-16

                               ----------                              

     Printed for the use of the Committee on Science and Technology



                   AN OVERVIEW OF TRANSPORTATION R&D

=======================================================================

                                HEARINGS

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009
                                  and
                             MARCH 31, 2009

                               __________

                            Serial No. 111-2
                                  and
                           Serial No. 111-16

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
47-544                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
DANIEL LIPINSKI, Illinois            PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona               
GARY C. PETERS, Michigan                 
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
        MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
         TIND SHEPPER RYEN Republican Professional Staff Member
           PIPER LARGENT Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant


                            C O N T E N T S

   An Overview of Transportation R&D: Priorities for Reauthorization

                           February 12, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chair, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................    10

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

                               Witnesses:

The Honorable Paul R. Brubaker, Former Administrator, Research 
  and Innovative Technology Administration, U.S. Department of 
  Transportation
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    16

Dr. Elizabeth Deakin, Professor of City and Regional Planning; 
  Director, University of California Transportation Center, 
  University of California, Berkeley
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    23

Mr. Amadeo Saenz, Jr., Executive Director, Texas Department of 
  Transportation
    Oral Statement...............................................    23
    Written Statement............................................    26
    Biography....................................................    30

Mr. Robert E. Skinner, Jr., Executive Director, Transportation 
  Research Board of the National Academies
    Oral Statement...............................................    30
    Written Statement............................................    32
    Biography....................................................    43

Mr. David J. Wise, Acting Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    44
    Written Statement............................................    45
    Biography....................................................    50

Discussion.......................................................    50

             Appendix 1: Answers to Post-Hearing Questions

The Honorable Paul R. Brubaker, Former Administrator, Research 
  and Innovative Technology Administration, U.S. Department of 
  Transportation.................................................    82

Dr. Elizabeth Deakin, Professor of City and Regional Planning; 
  Director, University of California Transportation Center, 
  University of California, Berkeley.............................    85

Mr. Amadeo Saenz, Jr., Executive Director, Texas Department of 
  Transportation.................................................    91

Mr. Robert E. Skinner, Jr., Executive Director, Transportation 
  Research Board of the National Academies.......................    95

Mr. David J. Wise, Acting Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................   113

             Appendix 2: Additional Material for the Record

Statement of Lawrence H. Orcutt, Chief, Division of Research and 
  Innovation, California Department of Transportation............   116

Statement of the American Society of Civil Engineers.............   132



                            C O N T E N T S

     The Role of Research in Addressing Climate in Transportation 
                             Infrastructure

                             March 31, 2009

                                                                   Page
Hearing Charter..................................................   136

                           Opening Statements

Statement by Representative David Wu, Chair, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................   139
    Written Statement............................................   139

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........   140
    Written Statement............................................   141

                               Witnesses:

Mr. David T. Matsuda, Acting Assistant Secretary for 
  Transportation Policy, U.S. Department of Transportation
    Oral Statement...............................................   143
    Written Statement............................................   144
    Biography....................................................   150

Ms. Catherine Ciarlo, Transportation Director, Office of Mayor 
  Sam Adams, City of Portland, Oregon
    Oral Statement...............................................   150
    Written Statement............................................   152
    Biography....................................................   155

Dr. Laurence R. Rilett, Keith W. Klaasmeyer Chair in Engineering 
  and Technology; Director, Mid-America Transportation Center; 
  Director, Nebraska Transportation Center, University of 
  Nebraska-Lincoln
    Oral Statement...............................................   156
    Written Statement............................................   157
    Biography....................................................   161

Mr. Steven Winkelman, Director of Transportation and Adaptation 
  Programs, Center for Clean Air Policy (CCAP)
    Oral Statement...............................................   162
    Written Statement............................................   164
    Biography....................................................   178

Mr. Mike Acott, President, National Pavement Association
    Oral Statement...............................................   179
    Written Statement............................................   181
    Biography....................................................   188

Discussion.......................................................   188

              Appendix: Answers to Post-Hearing Questions

Mr. David T. Matsuda, Acting Assistant Secretary for 
  Transportation Policy, U.S. Department of Transportation.......   206

Ms. Catherine Ciarlo, Transportation Director, Office of Mayor 
  Sam Adams, City of Portland, Oregon............................   214

Dr. Laurence R. Rilett, Keith W. Klaasmeyer Chair in Engineering 
  and Technology; Director, Mid-America Transportation Center; 
  Director, Nebraska Transportation Center, University of 
  Nebraska-Lincoln...............................................   218

Mr. Steven Winkelman, Director of Transportation and Adaptation 
  Programs, Center for Clean Air Policy (CCAP)...................   223

Mr. Mike Acott, President, National Pavement Association.........   229


   AN OVERVIEW OF TRANSPORTATION R&D: PRIORITIES FOR REAUTHORIZATION

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                             An Overview of

                          Transportation R&D:

                     Priorities for Reauthorization

                      thursday, february 12, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Thursday, February 12, 2009, the Subcommittee on Technology and 
Innovation will convene a hearing to review the research, development, 
and deployment activities of the Department of Transportation. The 
hearing will focus on issues related to the funding, planning, and 
execution of current research initiatives and how these efforts fulfill 
the strategic goals of both federal and State Departments of 
Transportation, metropolitan transportation organizations, and 
industry. With the expiration of SAFETEA-LU in FY 2009, this hearing 
will also examine possible ways to improve the current federal 
transportation effort.

II. Witnesses

The Honorable Paul Brubaker is a former Administrator of the Research 
and Innovative Technology Administration of the U.S. Department of 
Transportation.

Dr. Elizabeth Deakin is the Director of the University of California 
Transportation Center at the University of California, Berkeley.

Mr. Robert E. Skinner, Jr. is the Executive Director of the 
Transportation Research Board.

Mr. David Wise is the Acting Director of Physical Infrastructure Issues 
at the Government Accountability Office.

Mr. Amadeo Saenz, Jr. is the Executive Director of Texas Department of 
Transportation.

III. Overview

    Signed in 2005, the Safe, Accountable, Flexible, Efficient, 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU) (P.L. 109-
59) authorized a total of $2.227 billion through FY 2009 for research 
and related programs under Title V of the bill. This Title authorizes 
surface transportation research by the Federal Highway Administration 
(FHWA), training and education programs, the Bureau of Transportation 
Statistics, the University Transportation Centers (UTCs), and 
Intelligent Transportation Systems (ITS) Research. The Science and 
Technology Committee's jurisdiction over surface transportation 
research and development is based on House rules which grant the 
Committee jurisdiction over, ``Scientific research, development, and 
demonstration, and projects therefore'' and legislative precedent. 
Jurisdiction over these programs is shared with the Transportation and 
Infrastructure Committee. The Science and Technology Committee has a 
long referral history regarding surface transportation research and 
development (R&D) bills, including H.R. 860 in the 105th Congress and 
H.R. 242, and H.R. 243 in the 109th Congress. Elements of each of these 
bills were incorporated in the highway reauthorization bills for the 
respective Congresses.

IV. Issues and Concerns

Planning, Coordination, and Evaluation of Research, Development, and 
        Technology (RD&T)
    Despite the creation of a specific RD&T coordinating agency within 
Department of Transportation (DOT) by the Mineta Act of 2004 (P.L. 108-
426), and requirements in the Transportation Equity Act for the 21st 
Century (TEA-21) (P.L. 105-178) and SAFETEA-LU that DOT evaluate and 
coordinate its research programs, efforts in this regard continue to 
fall short. In 2003, the Government Accountability Office (GAO) 
evaluated the coordination and review efforts by the Research and 
Special Programs Administration (RSPA).\1\ RSPA had been created by the 
Secretary of Transportation to coordinate and review RD&T activity 
across the modal agencies. It was dissolved when the Mineta Act created 
the Research and Innovative Technology Administration (RITA) to fulfill 
largely the same functions. In the 2003 report, GAO found that efforts 
to locate duplicative programs and opportunities for cross-
collaboration between the modal agencies were hampered by a lack of 
information on the RD&T activities being pursued across the modal 
agencies. GAO also found that DOT did not have a systematic method for 
measuring the results of federal transportation research activities, or 
a method to show how their research impacted the performance of surface 
transportation in the U.S. RSPA cited a lack of resources to perform 
these types of evaluations, and they also stated that each modal agency 
undertook its own evaluation of its research programs. GAO recommended 
that RSPA define metrics to evaluate the outcomes of its DOT-wide RD&T 
coordination efforts. In 2006, GAO did a follow-up evaluation of RD&T 
coordination and evaluation.\2\ They again offered similar 
recommendations, noting the continuing lack of common performance 
measures for DOT RD&T activities. However, at the time of that 
evaluation, RITA had just recently been established. GAO commended the 
initiative in RITA's FY 2007 budget request to devote $2.5 million to 
RD&T coordinating activities (an increase of nearly $2 million over the 
$536,000 spent by RSPA in FY06 on coordination).
---------------------------------------------------------------------------
    \1\ GAO-03-500, Transportation Research: Actions Needed to Improve 
Coordination and Evaluation of Research.
    \2\ GAO-06-917, Transportation Research: Opportunities for 
Improving the Oversight of DOT's Research Programs and User 
Satisfaction with Transportation Statistics.
---------------------------------------------------------------------------
    In November of 2006, RITA submitted the Transportation Research, 
Development and Technology Strategic Plan for 2006-2010 to Congress. 
The Transportation Research Board (TRB), of the National Research 
Council, evaluated this plan and noted, ``The strategic RD&T plan for 
2006-2010 is a reasonable first effort. It offers useful descriptions 
of the many RD&T programs within the Department. At the same time, it 
is more a compendium of individual RD&T activities than a strategic 
plan that articulates department wide priorities and justifications for 
RD&T programs and budgets.'' \3\ According to TRB, the plan lacked 
stakeholder input and also failed to identify how stakeholder input 
would be sought for strategic planning in research topic areas. It 
further failed to articulate the role and value of DOT's RD&T 
activities; describe the process used for selecting research topics to 
ensure their relevance, quality, or performance; describe the expected 
outcomes from RD&T; and describe the process for monitoring 
performance. In TRB's view, the plan, at a minimum should have 
explained the extent to which quantifiable goals, timetables, and 
performance measures would be part of RD&T programs.
---------------------------------------------------------------------------
    \3\ RITA, Transportation Research, Development and Technology 
Strategic Plan: 2006-2010, Nov. 2006, Appendix A.
---------------------------------------------------------------------------
    The major surface transportation RD&T program of the FHWA has 
received similar criticisms regarding coordination and evaluation as 
DOT's overall RD&T program. The program is highly decentralized, with 
research activities taking place in five out of the thirteen offices 
within the agency. In 2002, GAO reviewed FHWA's R&D approach and urged 
that the agency ``develop a systematic process for evaluating 
significant ongoing and completed research that incorporates peer-
review or other best practices in use at Federal agencies that conduct 
research.'' \4\ FHWA subsequently developed its Corporate Master Plan 
for Research and Deployment of Technology and Innovation, released in 
2003. This document contains many overarching principles, such as 
measuring the performance of RD&T activities, but does not provide 
specific mechanisms through which FHWA will implement all of them. It 
is also unclear from FHWA's RD&T Performance Plan for 2006/2007 if the 
many research projects listed have been evaluated for their use by the 
transportation community. Without such analysis, the information 
portrayed in these documents establishes outputs, but does not offer 
any outcomes.
---------------------------------------------------------------------------
    \4\ GAO-02-573, Highway Research: Systematic Selection and 
Evaluation Processes Needed for Research Program, pg. 19.

Tech-Transfer
    There is general agreement that the transfer of technology and new 
ideas from the R&D stage to deployment and adoption is slow. In 
testimony before this committee in September of 2007, FHWA identified 
some of the contributing factors that slow the State and local adoption 
of new transportation technology, including insufficient information on 
the benefits versus the costs of new technologies; lack of confidence 
in new technologies or a lack of performance data; and a lack of 
incentive mechanisms to encourage the deployment of new technology.\5\ 
TRB Special Report 295, The Federal Investment in Highway Research, 
2006-2009: Strengths and Weaknesses, notes the important role FHWA 
plays in educating State DOTs about new technologies and encouraging 
their adoption, noting such efforts as FHWA's activities to identify, 
market, and track the deployment of market-ready technologies and 
incorporate a strategic plan for the deployment of pavement research 
activities. However, the funding for technology transfer activities at 
FHWA has suffered in recent years, falling from $100 million to $40 
million after the passage of TEA-21. The report further notes, ``The 
missing element among all of FHWA's deployment activities appears to be 
the resources within the agency with explicit expertise in technology 
transfer and deployment that could provide guidance to the various 
efforts agency wide [sic].'' \6\
---------------------------------------------------------------------------
    \5\ House Science and Technology Committee, Bridge Safety: Next 
Steps to Protect the Nation's Critical Infrastructure, September 19, 
2007.
    \6\ TRB Special Report 295, page 68.
---------------------------------------------------------------------------
    The Intelligent Transportation Systems program is a well studied 
example of transfer and deployment of R&D efforts. In 2005, GAO 
identified broad issues with DOT's deployment goals for traffic 
management ITS, finding that the goals did not take into account the 
level of ITS needed to accomplish local objectives and priorities; did 
not reflect whether localities were operating the ITS as intended; and 
did not adequately capture the cost-effectiveness of ITS.\7\ Additional 
studies of ITS deployment have found that local officials are aware of 
ITS technologies but feel that the benefits are not adequately 
described.\8\
---------------------------------------------------------------------------
    \7\ GAO-05-943, Highway Congestion: Intelligent Transportation 
Systems' Promise for Managing Congestion Falls Short, and DOT Could 
Better Facilitate Their Strategic Use.
    \8\ Deakin, B. Mainstreaming Intelligent Transportation Systems: 
Findings from a Survey of California Leaders, 2004.

Recommendations from TRB
    With support from FHWA, TRB's Research and Technology Coordinating 
Committee (RTCC) has periodically assessed the state of highway 
research and made recommendations to policy-makers. In its recent 
report, TRB Special Report 295, The Federal Investment in Highway 
Research, 2006-2009: Strengths and Weaknesses, the RTCC evaluated the 
investments in highway R&D made under SAFETEA-LU. According to the 
report, transportation R&D is significantly under funded when compared 
with the R&D investments made in other industrial sectors. Also, the 
report recommended that the matching requirement for UTCs be adjusted 
from 50 percent to 20 percent. According to the RTCC, if UTCs relied 
less on State DOTs and others for matching funds, they would be free to 
pursue longer-term advanced research topics and move away from applied 
research that could be handled elsewhere. The RTCC recommended that 
FHWA's Exploratory Advanced Research Program continue as well, and that 
a larger percentage of the agency's research budget go toward advanced 
research. Additionally, the report states that all research grants, 
including those to UTCs, should be made on a competitive, merit-
reviewed basis. The RTCC recommended that FHWA be given more resources 
to engage stakeholders and carry out technology transfer activities. 
FHWA should be given the resources to take the lead in establishing an 
ongoing process whereby the highway community can set these priorities. 
Finally, the RTCC noted that the Strategic Highway Research Program 2 
(SHRP 2) was funded significantly less than stakeholders had requested, 
and recommended that it continue to receive funding for another two 
years. TRB states many recommendations but does not provide specific 
mechanisms to accomplish them.

V. Background

Federal Highway Administration (FHWA)
    The Federal Highway Administration oversees surface transportation 
infrastructure planning, construction, and maintenance; develops 
educational and training programs for transportation workers; and funds 
research efforts in surface transportation fields. Within FHWA, the 
Office of Research, Development, and Technology directs the 
Administration's transportation research efforts.

            Office of Research, Development, and Technology
    The Office of Research, Development, and Technology funds research 
into pavements, structures, safety initiatives, highway operations, and 
environmental interests. The Office of Research, Development, and 
Technology directs most of the research funds for DOT and operates the 
Turner-Fairbank Highway Research Center.

        <bullet>  Turner-Fairbank Highway Research Center (TFHRC)
           TFHRC operates as the hub for highway research by developing 
        research plans in support of FHWA strategic goals; managing 
        policy, budget, and administrative services for its research 
        customers; and initiating strategic marketing plans to ensure 
        the utilization of highway research.

        <bullet>  Exploratory Advanced Research Program (EARP)
           EARP manages longer-term, higher-risk research aimed at 
        addressing mission-oriented technology and knowledge gaps as 
        mandated in SAFETEA-LU. Intending to react to the call for more 
        long-term research, this program seeks out projects not 
        directed to solve specific current problems, but to enable 
        approaches to future transportation questions.

Research and Innovative Technology Administration (RITA)
    RITA is mandated to coordinate, facilitate and review the DOT's 
research and development activities, including those funded through 
FHWA.

        <bullet>  Intelligent Transportation Systems Joint Program 
        Office (ITS JPO)
           ITS JPO was created in the Mineta Act of 2004 to take over 
        coordination of the Intelligent Transportation Systems program. 
        ITS JPO focuses on developing transportation infrastructure and 
        vehicles with integrated communication systems intended to 
        deliver up-to-date information to both drivers and decision-
        makers. This information could be used to coordinate State 
        department of transportation emergency efforts, relieve 
        congestion through metropolitan signal coordination and enable 
        on-the-go planning of efficient driving routes with up-to-date 
        traffic information.

        <bullet>  University Transportation Research
           University Transportation Center (UTC) programs support 
        almost 60 university-based centers that conduct transportation 
        research in all disciplines and support educational activities 
        for the next generation of transportation professionals. The 
        centers are funded on a 50/50 matching funds agreement. 
        Generally, the states provide the matching funds, and while the 
        UTCs are intended to jointly operate as a multi-modal system 
        focused on the DOT's strategic objectives, these matching funds 
        often provide opportunities for State departments of 
        transportation to channel efforts towards specific regional 
        transportation issues.

        <bullet>  Bureau of Transportation Statistics (BTS)
           BTS is a component of the Research and Innovative Technology 
        Administration (RITA) that collects, compiles, analyzes, and 
        publishes transportation statistics in freight, travel and 
        aviation; transportation economics; and geospatial issues. BTS 
        is utilized by Federal, State, and local governments; 
        universities; and the private sector. Data sets made available 
        to customers can include air carrier traffic, border crossing, 
        and national freight movement.

        <bullet>  John A. Volpe National Transportation Systems Center
           A fee-for-service organization, the Volpe Center is a center 
        designed to respond to issues brought forth to them by Federal, 
        State, and local governments; industry; and academia. The 
        Center assists these clients in a number of areas including 
        human factors research; system design, implementation, and 
        assessment; environmental preservation; and organizational 
        effectiveness. DOT makes up about two-thirds of the Volpe 
        Center's contracted funding.

        <bullet>  Transportation Safety Institute (TSI)
           TSI is also a fee-for-service organization utilized by 
        Federal, State, and local governments; industry; and the 
        international community; that develops and conducts worldwide 
        safety, security, and environmental training. TSI focuses on 
        education programs developed in collaboration with the client 
        organizations to meet specific situation needs. Training and 
        educational information is disseminated through publications, 
        websites, seminars, and classes.

The Transportation Research Board
    TRB is one of five major divisions of the National Research 
Council; the principal operating agency of the National Research 
Council. TRB receives federal funding to manage cooperative research 
efforts and issue published analyses of transportation policy and 
research strategy. Two of the research efforts managed by TRB are the 
National Cooperative Highway Research Program and the Strategic Highway 
Research Program 2.

        <bullet>  National Cooperative Highway Research Program (NCHRP)
           NCHRP is a program aimed providing solutions to near-term 
        problems in the transportation industry by tackling an annual 
        list of research topics developed by State departments of 
        transportation. NCHRO is administered by TRB and sponsored by 
        the State departments of transportation in the American 
        Association of State Highway and Transportation Officials.

        <bullet>  Strategic Highway Research Program 2
           SHRP 2 is a highway research program designed to advance 
        highway performance and safety for the U.S. highway system. 
        This program focuses on four areas of research that were 
        identified by a TRB-established committee of leaders from the 
        highway community: safety, infrastructure renewal, reliability, 
        and transportation capacity. Funding is transferred through 
        FHWA for execution by TRB with an expected program completion 
        date of FY 2009.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chair Wu. Good morning. This hearing will come to order. 
Welcome to today's hearing entitled An Overview of 
Transportation Research and Development: Priorities for 
Reauthorization.
    I want to welcome everyone to the Technology and Innovation 
Subcommittee's first hearing of the 111th Congress. This 
subcommittee was very productive in the 110th, moving the Small 
Business Innovative Research Program Reauthorization, Green 
Transportation Legislation, the 10,000 Trained by 2010, Health 
Information Technology Education Reauthorization--I am sorry--
Legislation, and the U.S. Fire Administration Reauthorization 
and the National Institute of Standards and Technology portions 
of the COMPETES Act. I am certain that we can maintain this 
quick pace in the 111th Congress, and it is my intention to do 
so on a basis where both sides of the aisle will be 
participating vigorously in these processes.
    And first up on our agenda and the subject of this first 
hearing is Surface Transportation Research and Development in 
preparation for the Surface Transportation Reauthorization 
Bill. I can think of a no more appropriate topic for this 
subcommittee to begin with as Congress concludes debate on an 
economic stimulus package that includes multi-billions of 
dollars for surface transportation projects.
    As we start these and other major infrastructure 
initiatives, we all agree that we should deploy the most 
recent, efficient, proven surface transportation technologies 
to ensure that we are building the highways of the past--I am 
sorry--the highways of the future and not of the past. Today's 
hearing is an overview, an assessment of our current R&D 
investments, their coordination, and their focus. This will be 
the first in a series of hearings as this subcommittee develops 
a surface transportation title that will later be incorporated 
into the comprehensive Surface Transportation Bill.
    In reviewing some of the Transportation Research Board's 
recent assessments of our surface transportation investments, I 
am somewhat concerned that the recommendations focus on 
increased funding as the sole means to overcome the challenges 
identified, including slow technology transfer and a lack of 
clear national priorities in DOT's (Department of 
Transportation's) R&D spending. More money is sometimes 
necessary. It is difficult in our current environment, and 
sometimes it is not a solution to a lack of coordination or a 
lack of focus.
    What I hope to learn today, and in this series of hearings, 
is how to make our federal investments in surface 
transportation research and development as effective and as 
efficient as possible in overcoming the challenges of 
congestion mitigation and its impact on our lives and on the 
external environment.
    I want to thank our panel of witnesses for taking the time 
from their busy schedules to be with us today.
    Now I would like to recognize my colleague from Nebraska, 
Representative Smith, for his opening statement.
    [The prepared statement of Chair Wu follows:]

                  Prepared Statement of Chair David Wu

    Welcome to today's hearing entitled ``An Overview of Transportation 
R&D: Priorities for Reauthorization.''
    I want to welcome everyone to the Technology and Innovation 
Subcommittee's first hearing of the 111th Congress. This subcommittee 
was very productive in the 110th, moving the Small Business Innovation 
Research program reauthorization, green transportation legislation, the 
10,000 Trained by 2010 health information technology education 
legislation, the U.S. Fire Administration reauthorization, and the 
National Institute of Standards and Technology portion of the COMPETES 
Act. I am certain we can maintain this pace in the 111th Congress.
    Our first hearing focuses on surface transportation research and 
development programs, in preparation for the surface transportation 
reauthorization bill. I can think of no more appropriate topic for this 
subcommittee to begin with, as Congress debates an economic stimulus 
package that contains $30 billion for surface transportation projects. 
As we commence this major infrastructure initiative, we all agree that 
we should deploy the most recent and proven surface transportation 
technologies to ensure we're building the highways of the future, not 
the highways of the past.
    Today's hearing is an overview and assessment of our current R&D 
investments. This will be the first in a series of hearings as the 
Subcommittee develops a surface transportation title that will later be 
incorporated into the comprehensive surface transportation bill.
    In reviewing some of the Transportation Research Board's recent 
assessments of our surface transportation investments, I have been 
disappointed by their recommendations that focus on increased funding 
as the means to overcome the challenges they identify, including slow 
technology transfer and a lack of clear national priorities in DOT's 
R&D spending. I don't think more money is a practical or realistic 
recommendation in our current economic environment.
    What I hope to learn today, and in this series of hearings, is how 
to make our federal investments in surface transportation R&D as 
effective and efficient as possible in overcoming the challenges of 
congestion mitigation and its impact on the environment.
    I want to thank our panel of witnesses for taking the time from 
their busy schedules to appear for us today.
    And now I would like to recognize Representative Smith for his 
opening statement.

    Mr. Smith. Thank you, Mr. Chair. It is a pleasure to return 
to business today, and I look forward to a productive and 
collaborative 111th Congress on this subcommittee.
    The economic challenges facing our nation are of utmost 
importance to us all. We must ensure our nation's citizens have 
the opportunity to create and innovate. We must support 
entrepreneurship and see that businesses are allowed to become 
more nimble, more efficient, and more competitive. I believe 
the Subcommittee on Technology and Innovation will take an 
active role in shaping our economic recovery and certainly 
competitiveness.
    I look forward to working closely with you, Mr. Chair, and 
the rest of my colleagues on the Subcommittee in accomplishing 
this task.
    The agencies we oversee on this subcommittee are vital to 
the Nation's health and well-being. The National Institute of 
Standards and Technology performs cutting-edge research which 
supports the next generation of computers and electronics, the 
next generation of fuel-efficient vehicles, and the next 
generation of health care technologies. The Department of 
Homeland Security continues to perform lifesaving work to 
ensure our safety and security, and the Department of 
Transportation supports the highways and railways vital to our 
commerce and way of life.
    Chair Wu, we have a lot of work ahead of us certainly, and 
all of these agencies may see funding increases due to a 
stimulus plan and all will need to have close oversight to 
ensure we are spending taxpayer dollars wisely. I am happy our 
first hearing of the year addresses one of the major challenges 
facing our nation in Congress this year; infrastructure 
research and development.
    We are currently contemplating spending billions of dollars 
on highway and railway infrastructure improvements. We will 
need to ask important questions in order to address the issues 
facing our nation's aging infrastructure. How will these 
projects incorporate science and technology to extend the life 
of and improve the quality of our transportation networks? How 
have our R&D programs performed over the past several years, 
and what can we do to improve them?
    We expect most R&D to be relevant to the problems at hand 
and expect research agencies to focus on the real-world 
outcomes of such research. The witnesses before us today all 
have expertise in translating results from the lab to the road. 
I would like to thank you all for coming today and sharing your 
thoughts on how to improve our transportation networks and our 
research activities. I look forward to starting a dialogue with 
you during the question and answer portion of today's hearing 
and hope you will continue to work with us as we craft a new 
highway bill.
    Thank you, Mr. Chair. Again, it is a pleasure to serve as 
Ranking Member of this subcommittee, and I look forward to 
continuing this bipartisan and productive relationship. I yield 
back.
    [The prepared statement of Mr. Smith follows:]

           Prepared Statement of Representative Adrian Smith

    It is a pleasure to return to business today and I look forward to 
a productive and collaborative 111th Congress on this subcommittee. The 
economic challenges facing our nation are of utmost importance to us 
all. We must ensure our nation's citizens have the opportunity to 
create and innovate. We must support entrepreneurship and help our 
businesses become more nimble, more efficient, and more competitive. I 
believe the Subcommittee on Technology and Innovation will take an 
active role in shaping our economic recovery and competitiveness. I 
look forward to working closely with you, Chairman Wu, and the rest of 
my colleagues on the Subcommittee in accomplishing this task.
    The agencies we oversee on this subcommittee are vital to the 
Nation's health and well-being. The National Institute of Standards and 
Technology performs cutting edge research which supports the next 
generation of computers and electronics, the next generation of fuel-
efficient cars, and the next generation of health care technologies. 
The Department of Homeland Security continues to perform life-saving 
work to ensure our safety and security. And the Department of 
Transportation supports the highways and railways vital to our commerce 
and way of life. Chairman Wu, we have a lot of work ahead of us. All of 
these agencies may see funding increases due to a stimulus plan and all 
will need close oversight to ensure we are spending taxpayer dollars 
wisely.
    I am happy our first hearing of the year addresses one of the major 
challenges facing our nation and Congress this year--infrastructure 
research and development. We are currently contemplating spending 
billions of dollars on highway and railway infrastructure improvements. 
We will need to ask important questions in order to address the issues 
facing our nation's aging infrastructure. How will these projects 
incorporate science and technology to extend the life of and improve 
the quality of our transportation networks? How have our R&D programs 
performed over the past several years and what can we do to improve 
them? We expect most R&D to be relevant to the problems at hand and 
expect research agencies to focus on the real-world outcomes of such 
research.
    The witnesses before us today all have expertise in translating 
results from the lab to the road. 1'd like to thank you all for coming 
today and sharing your thoughts on how to improve our transportation 
networks and our research activities. I look forward to starting a 
dialogue with you during the question and answer portion of today's 
hearing and hope you will continue to work with us as we craft a new 
highway bill.
    Thank you Mr. Chairman. Again, it is a pleasure to serve as Ranking 
Member of this subcommittee and I look forward to continuing this 
bipartisan and productive relationship. I yield back the balance of my 
time.

    Chair Wu. Thank you very much, Mr. Smith. If there are 
other Members who wish to submit additional opening statements, 
your statements will be added to the record at this point.
    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Today we will discuss surface transportation research and 
development funding, planning, and execution.
    Surface transportation research and development is critical as the 
population continues to grow and congestion continues to increase.
    Take Arizona, for example, which is one of the fastest growing 
states in the Nation. Since 1970, our population has more than tripled. 
The Phoenix metropolitan area, long the largest in our state, is now 
one of the largest in the Nation.
    Not surprisingly, all this growth has created an urgent need for 
new transportation infrastructure and congestion mitigation efforts.
    The Arizona Department of Transportation (ADOT) has been a leader 
in transportation research and technology and has engaged in several 
research efforts to improve infrastructure problems such as monitoring 
and managing congestion and experimenting with pavement materials.
    I look forward to hearing from our witnesses about how we can 
encourage the development of new technologies and materials.
    I yield back.

    Chair Wu. It is now my pleasure to introduce our witnesses. 
Mr. Paul Brubaker is the Former Administrator of the Research 
and Innovative Technology Administration of the U.S. Department 
of Transportation. Dr. Elizabeth Deakin is the Director of the 
University of California Transportation Center at the 
University of California, Berkeley. Mr. Amadeo Saenz is the 
Executive Director of the Texas Department of Transportation. 
Mr. Robert Skinner is the Executive Director of the 
Transportation Research Board. And our final witness is Mr. 
David Wise, the Acting Director of Physical Infrastructure 
Issues at the Government Accountability Office.
    You will each have five minutes for your spoken testimony. 
Your written testimony will be included in the record for this 
hearing, and when you complete all of your testimony, we will 
begin with questions, and each Member will have five minutes to 
question the panel. We will go as many rounds as there are 
questions or we have time for, whichever arrives first.
    Mr. Brubaker, please begin.

      STATEMENT OF THE HONORABLE PAUL R. BRUBAKER, FORMER 
       ADMINISTRATOR, RESEARCH AND INNOVATIVE TECHNOLOGY 
       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Brubaker. Thank you, Mr. Chair, Ranking Member Smith, 
Vice Chair Lujan, distinguished Members of the Subcommittee. My 
name is Paul Brubaker, and I had the honor of serving as the 
Administrator of the Research and Innovative Technology 
Administration (RITA) at the U.S. Department of Transportation 
(DOT) from August, 2007, until January 20 of this year.
    Oh, I am sorry.
    I am pleased to be here today to testify on what I think is 
the real tipping point in the transportation infrastructure; 
how we leverage research going forward to transform our 
transportation infrastructure.
    I have submitted written testimony as you know for the 
record, but I would like to highlight some key points in my 
oral testimony.
    During my tenure at RITA we attempted to establish a 
process by which research funding decisions were made, 
executed, and evaluated, as well as develop a construct to 
actually manage research, in portfolios based on multi-modal 
communities of interest. We weren't entirely successful.
    However, we did make significant progress in at least 
establishing a degree of transparency into the research spent 
which hadn't been reached before. The transparency is only the 
beginning. Decisions where to spend the 1.2 billion in research 
dollars must be based on strategic research objectives 
established in a holistic, multi-modal, and focused national 
transportation research agenda that covers all aspects of the 
transportation picture and drives innovation into the system.
    For all research funded by the Department or through the 
Highway Trust Fund, outcome expectations and performance 
measures should be agreed upon in advance, progress should be 
monitored, and performance should be measured after the 
projects are complete. The Surface Transportation Authorization 
provides us an opportunity to redefine how we approach and 
conduct transportation research in a way that better serves our 
nation.
    Before asking for additional transportation research 
dollars, I strongly believe we must ensure that current dollars 
are being spent wisely. As it stands right now nobody, and I 
mean nobody, can say with reasonable assurance or authority 
that funds are being spent wisely or in a manner that best 
reflects the overall national transportation priorities. We 
have an opportunity to fix this optimal situation by creating a 
new transportation research paradigm.
    One good place to start is to ensure that RITA, and you 
might naturally expect me to say this, is both sufficiently 
resourced and allowed to perform its role that was created 
under the Mineta Act to coordinate the research spend for the 
Department, but more importantly, to develop that holistic 
process where the Secretary can select, control, and evaluate 
research in a strategic context based on a to-be-developed 
national transportation research agenda that reflects a broad 
group of stakeholders, ranging from states and localities to 
personal and commercial uses of our national transportation 
system, to accident victims, police and first responders, even 
economic development officials from states and localities.
    I have made other recommendations including the 
establishment of the Transportation Advanced Research Projects 
Agency, the consolidation of research functions under RITA, and 
funds set aside for innovative research projects that can be 
carried out by a variety of institutions and individuals. Those 
are included in my written testimony.
    I look forward to a constructive discussion today on ways 
to improve our transportation research to better leverage our 
existing investments and better serve the American public.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Brubaker follows:]

                 Prepared Statement of Paul R. Brubaker

    Chairman Wu, Ranking Member Smith, Vice Chairman Lujan, 
distinguished Members of the Subcommittee. My name is Paul Brubaker and 
I had the honor of serving as the Administrator of the Research and 
Innovative Technology Administration (RITA) at the U.S. Department of 
Transportation from August 2007 until January 20th of this year and I 
am pleased to be before you this morning to discuss lessons learned 
during my tenure; suggestions on how to improve transportation 
research; ways in which we can deploy the results of that research; and 
some thinking as it relates to the new surface transportation 
legislation.
    Based on my recent experience, I believe we have a tremendous 
opportunity to shape a National Transportation Research program that 
has the potential to transform how we move people and goods across the 
Nation and indeed re-establish our global position as leaders of a new, 
innovative and efficient transportation paradigm. In order to achieve 
this lofty goal, we will need to rethink our approach to transportation 
research; build on a couple of innovations that I attempted to 
implement during my brief term; and establish structural improvements 
that can ensure the level of innovation that is often promised but 
rarely realized.
    In your invitation you laid out a series of questions that I will 
attempt to answer in my testimony but with some additional information 
that I hope will provide a more complete narrative.
    The current transportation research and development investment 
structure is improving--but what it really needs is a complete 
overhaul.
    Early in my tenure it was clear that the fundamental legislative 
requirements of the Mineta Act, which created my office and called on 
RITA to coordinate the Department's transportation research, were not 
being met. While the Department established a Research Planning Council 
and a Research Planning Team--it could best be described as a loose 
governance process that was only meant to ``rubber stamp'' the 
Department's $1.2 billion in transportation research money was spent--
with no enterprise level coordination as the law--as I read it--
required.
    After conducting a pretty quick assessment of the situation I asked 
RITA's RD&T staff to establish a framework by which we could prioritize 
transportation research investments to better reflect and align to the 
strategic goals of the Department and the Administration. I further 
requested that this framework be based on the Capital Planning and 
Investment Control (CPIC) processes mandated by OMB circular A-11 for 
the government's capital investments because there were a number of 
similarities and the GAO had established a nice corresponding maturity 
model for organizations to use in developing and using CPIC for 
technology investments.
    The framework that was initially conceived, originally known as 
Research Planning and Investment Control (RPIC), cannot only prioritize 
investments, but was designed to monitor and track research outcomes 
over the life of the project and manage the research in portfolios. 
However, due to cultural resistance to change, the word ``control'' in 
RPIC was changed to ``coordination,'' the investment prioritization 
activities, the research monitoring plans, and the concept of portfolio 
management were all scrapped. The RPIC project was relegated to a 
``pilot'' program and today is essentially a data base of existing 
research programs that can be viewed by multi-modal communities of 
interest (e.g., human factors; materials; safety systems) and across 
the modes. While this transparency is good and desirable, RPIC was 
originally conceived to do considerably more--it was to serve as a 
decision support, program management and program evaluation tool so 
that we could select, evaluate and control the underlying research 
spending in a manner consistent with research investment criteria.
    The current incarnation of the RPIC process ``buckets'' existing 
spending to communities of interest but the actual decisions to invest 
in particular research activity are made almost exclusively by the 
modes. Consequently, the current spending of the Department's research 
resources is not subject to a systematic Department-wide 
prioritization. This spending is most often aligned with the wishes of 
a number of key stakeholders in each of the modes, or in some cases is 
the result of a Congressional earmark but the Department's portfolio of 
transportation research does not represent a comprehensive, holistic 
program that supports an overall National Transportation Research 
Agenda.
    The University Transportation Centers represent approximately $70M 
of research spending each year. It is the one program where RITA has 
complete visibility over the research spending and reviews the 
strategic plans for consistency with the Department's overall strategic 
plan. Given the mission of the UTC program--to train the next 
generation of transportation leadership--there is strong evidence that 
the program is meeting that goal.
    Clearly, we need to improve the current transportation R&D 
investment structure. My suggestion would be to start over. Begin with 
the development of a National Transportation Research Agenda. This 
agenda should take a comprehensive, holistic, multi-modal view of our 
transportation system and receive input from the Congress, 
Administration, transportation system user communities and all 
stakeholders--not just the ones with the deepest pockets--and establish 
and outline the key objectives and desired outcomes of our 
transportation system. It should then clearly map research programs and 
spending to the outcomes and goals outlined in the plan and clearly 
describe how these projects will help us achieve our goals and achieve 
our desired outcomes.
    Once that agenda is established, a governance process--much like 
that originally conceived for the RPIC--explicitly supported by the 
Secretary and managed on behalf of the Secretary by RITA, should 
examine all of the research programs and proposals that receive any 
direct or indirect federal dollars, and only those that are consistent 
with the goals of the National Transportation Research Agenda should be 
funded. Those that are funded should be monitored and evaluated. A 
dedicated office of technology transfer, perhaps within RITA, could 
help ensure that the relevant, valuable knowledge (for both successful 
and unsuccessful projects) is shared and when appropriate, that 
successful innovations are commercialized and/or generate new levels of 
research.
    The Department, through RITA, should also act as a facilitator of 
knowledge through the use of advanced collaboration capabilities that 
would allow researchers to self-organize around communities of 
interest. During my tenure, we attempted the creation of such an 
environment--think Facebook for the transportation research community--
that would make knowledge sharing and technology transfer much more 
convenient and effective as collaboration and reporting could be 
accomplished virtually. Those not wishing to share results until the 
research projects are completed could create password protected work 
spaces that would restrict access only to those working on the project. 
While at RITA, we built the first generation of this collaborative 
capability at www.transportationresearch.gov. It is only the beginning 
of what could become an interesting new paradigm in research 
collaboration and ironically may bring the Internet back to its roots.
    Our ability in the transportation research community to 
successfully transfer, commercialize and deploy new methods, 
innovations, and technology must be refocused. Currently, there is no 
systematic or focused program, process or set of activities that are 
driving innovations out of the laboratory and onto our Nation's roads, 
rails, runways or waterways. Most in the community believe that 
effective technology transfer only involves having researchers share 
their research by publishing peer reviewed articles in transportation 
research journals or presenting papers at conferences. Researchers 
communicating with other researchers is a valuable way to share 
knowledge--it is also a sure fire way to ensure that these advances or 
ideas rarely get commercialized.
    We must focus on a new model and process to achieve technology 
transfer that leads to commercialization and deployment of new 
transportation-related technologies. Unfortunately, we may miss a prime 
opportunity to drive innovation into the transportation infrastructure 
through the stimulus spending but it may be an order too difficult to 
fill in short order.
    Only a new approach to technology transfer and commercialization 
that is focused on transparency, openness, and a systematic way to 
communicate with a broader set of industry, entrepreneurs, investors 
and other interested parties will succeed in fostering innovation and 
ensuring wider-spread deployment of these innovations. For years, this 
has largely been an ``inside game'' managed by a relatively small 
group--an example of that President Eisenhower foresaw in his farewell 
speech in January, 1961--which virtually ensures that an innovator 
tinkering in the garage has no chance of getting his or her ideas 
vetted.
    We need to look beyond the universe of traditional gatekeepers and 
work to facilitate the timely testing and standards development that 
would allow rapid prototyping, piloting and deployment of these new 
technologies. In short, we must move closer to technology development 
times versus industrial age development cycles. I have witnessed a 
great number of good ideas that are available today--but may not be 
deployed for decades to come because of a variety of cultural, 
structural and systemic obstacles--mostly related to intolerance of 
risk and processes that have the effect of stifling innovation. This 
can change. But it will require a collective commitment and leadership 
that is willing to deploy a systematic way of improving technology 
transfer and commercialization.
    As the Congress begins drafting the next surface transportation 
legislation, it will have a unique opportunity to change the focus from 
strictly ``highways'' and direct spending and programs that better 
reflect the way we actually travel. While highways are indeed an 
integral part of this equation, the view must be significantly expanded 
to include or at least accommodate alternative modes for people and 
freight to include rail, high speed passenger rail and transit, and 
water transportation. We even must integrate air as we consider this 
holistic picture.
    The next surface transportation authorization must ensure that the 
transportation research budget and that of the Bureau of Transportation 
Statistics is directly aligned with the National Transportation 
Research Agenda which should be updated and published every two years 
by the Research and Innovative Technology Administration in 
coordination with the Administration, the Departmental leadership, the 
users of the systems and key stakeholders.
    The budget should be aligned and adjusted based on changing 
priorities and the portfolio of projects should be balanced according 
to the priorities reflected in the agenda. This portfolio should be 
transparent both within and outside of the department and the final 
annual budget and program plan should be public. This way, citizens 
from anywhere in the county can examine the portfolio and its 
anticipated outcomes and compare actual results to anticipated results. 
Such increased transparency may actually improve achieve deployment of 
these technologies and methods as more people and entrepreneurs will 
have access to the new ideas being explored by the Department and its 
research community.
    There is also a clear role for the Bureau of Transportation 
Statistics but it should be much focused and adequately resourced to 
monitor the performance of the Nation's transportation system. It must 
also expand its role and develop forecasting models and simulations 
that can help us drive research proposals as it will help us better 
understand the potential impact of alternative investments and research 
results as well as ensure that it has the capability to further our 
understanding of external events that impact our transportation system. 
For example, with this capability BTS could have been able to model the 
impact of fluctuating fuel prices on our national logistics system and 
passenger movement system.
    Perhaps not surprisingly, I believe that RITA should remain the 
Department's focal point for transportation research--but it must be 
significantly strengthened--this will require a significant and 
substantial investment in people and money. RITA's first order of 
business should be to coordinate the formulation of the National 
Transportation Research Agenda--one that represents a cross-modal and 
holistic view of our national transportation system. This can only be 
developed with significant input from the user community and from 
stakeholders. The research agenda must also be multi- or intermodal in 
nature and not be primarily or disproportionately focused on highways 
to the exclusion of other modes--the only way to accomplish this is to 
provide direct funding.
    Then, RITA should establish and manage a governance process that 
can align and direct transportation research resources in a manner that 
is consistent with the National Transportation Research Agenda. RITA 
could build on the RPIC process to achieve this goal but most 
importantly, the research portfolio should be managed and evaluated for 
its outcomes, results and effectiveness by developing transparent 
program and project evaluations and lessons learned that can be used to 
determine appropriate follow on research and serve as a basis for 
technology transfer and commercialization of the promising research.
    RITA should also continue to play an active role in overseeing the 
University Transportation Research as well as house appropriate multi-
modal research activity--such as the Intelligent Transportation System 
and Alternative Fuels program--and should expand its oversight role to 
include the approval and oversight of any Department or indirect 
federal dollars going to any University or not-for-profit research 
entity for transportation-related research. This includes the 
coordination, review and approval of any projects directly or 
indirectly receiving federal funds that are managed by the 
Transportation Research Board of the National Academies.
    Although controversial, the Committee should examine the 
feasibility of consolidating all of the research laboratories within 
the Department. These could be centrally managed by RITA or at a 
minimum be subject to strict oversight by RITA to ensure that their 
activities are consistent with and achieving the objectives of the 
National Transportation Research agenda. Currently, a number of the 
modes have research labs dedicated toward performing transportation 
research. For example, the Turner-Fairbank Highway Research Center in 
Virginia currently performs a great deal of highway related materials 
and systems research. In many cases, similar if not identical research 
is also being conducted at a number of universities--some of which is 
funded by the Federal Highway Administration. While it may be 
appropriate in some cases to validate research results, I believe the 
resistance to visibility and oversight as well as the failure of the 
Department to drive toward better management of the research portfolio 
continues to encourage research redundancy and waste.
    Finally, I would like to suggest that a certain portion of the 
Department's Transportation Research funding--at least half--go toward 
advanced systems research--and directed by RITA consistent with the 
National Transportation Research Agenda. I would propose that the 
majority of the funding be used to establish a Transportation Advanced 
Research Projects Agency. The balance of the funds should be used for 
worthy projects proposed by the Volpe National Transportation Systems 
Center, Turner-Fairbank, The Transportation Research Board, 
Universities and other potential worthy and qualified grantees 
including those who tinker in their garages.
    Thank you for the opportunity to present the ideas to you this 
morning and I look forward to answering any questions you may have.

                     Biography for Paul R. Brubaker

    Paul Brubaker recently joined Cisco Systems, Inc. as leader of its 
North American public sector team in the Internet Business Solutions 
Group (IBSG).
    Paul has an unusual blend of public and private sector experience. 
He has served in both the legislative and executive branches of the 
U.S. Federal Government. During his service in legislative branch, Paul 
worked for the General Accounting Office and eventually became Minority 
Staff Director of the Senate Subcommittee on Oversight of Government 
Management where he worked on a number of reform efforts including 
leading the effort that resulted in passage of the Information 
Technology Management Reform Act linking federal investment in 
technology to measurable improvements in mission performance and 
establishing CIO positions in major federal agencies.
    In 1998, Paul was appointed by President Clinton to serve as Deputy 
Assistant Secretary of Defense and Deputy Chief Information Officer and 
in 2007 he was appointed by President Bush and confirmed by the Senate 
to serve as the Administrator for Research, Innovation and Technology 
at the U.S. Department of Transportation.
    In the private sector, Paul founded two successful small businesses 
and has worked in a number of senior strategy positions with government 
contractors including: Litton PRC; Commerce One; and SI International. 
At SI international, he served as Executive Vice President and led the 
government and investor relations activities while serving as Chief 
Marketing Officer where he also re-engineered and automated a number of 
sales and proposal processes. While at Commerce One, Paul led a 
management buy-out of the firm's public sector professional services 
unit which he took private.
    In his spare time, he has served as the Chairman of the Virginia 
Innovative Technology Authority, Chairman of the Technology Committee 
of the International Armed Forces Communications and Electronics 
Association, and as a board member of the Churchill Centre.
    For his work in government Paul has received numerous awards 
including the Department of Defense Distinguished Public Service Medal 
(with palm device); The Gold Medal from the Department of 
Transportation; the Association for Federal Information Resource 
Management Federal Executive of the Year in 2000; and was a two-time 
winner of the Federal 100 Award from Federal Computer Week.

    Chair Wu. Thank you, Mr. Brubaker.
    Next, Dr. Deakin, please proceed.

   STATEMENT OF DR. ELIZABETH DEAKIN, PROFESSOR OF CITY AND 
     REGIONAL PLANNING; DIRECTOR, UNIVERSITY OF CALIFORNIA 
   TRANSPORTATION CENTER, UNIVERSITY OF CALIFORNIA, BERKELEY

    Dr. Deakin. Thank you, Mr. Chair. I was asked today to 
speak about some research that we did at the University of 
California on Intelligent Transportation Systems (ITS), and let 
me start with----
    Chair Wu. Dr. Deakin, is your microphone on?
    Dr. Deakin. It seems to be.
    Chair Wu. Okay. Pull it a little bit closer.
    Dr. Deakin. Let me pull it closer.
    Chair Wu. There we go.
    Dr. Deakin. Is that working?
    Chair Wu. Yes.
    Dr. Deakin. Okay. I would like to talk to you about the 
research findings from our study of Intelligent Transportation 
Systems and how to get them into the mainstream in 
transportation. This is a study that was funded by CalTrans, 
who had spent a good deal of its own money, as well as federal 
funds, to invest in intelligent transportation and was 
concerned about whether they were getting their dollars' worth 
from the projects.
    What we found in a series of interviews with decision-
makers, as well as with technology experts and the decision-
makers both in the public and in the private sector, was that 
while there were some valuable gains in such things as traffic 
signal timing, road tolling, better data collection, cheaper 
methods for gathering data and assembling it, monitoring the 
systems, and managing them, there also is a concern among the 
decision-makers that there really was a need for a tougher, 
more arms-length evaluation of the cost effectiveness of these 
investments, and there also was a need for a business plan for 
these investments that hadn't yet been developed.
    And one of the reasons for that was a lack of real focus on 
institutions and business budgets and costs and effectiveness. 
This is social science research. There is a lot of interest in 
what kind of institutions it would take to implement these 
kinds of strategies.
    One of the problems is that we have tried to include 
deployment in ITS projects, but it has been done by the 
technology experts, who are not necessarily the experts in 
institutions and planning and policy. And so we have concluded 
that we need to create a different framework and a different 
set of research foci that would compliment the technology 
development, really help it move into implementation. And that 
might extend to new kinds of partnerships and oversight that 
involves the private sector as well as government to really do 
a tough business plan for these technologies as they are being 
developed.
    I was also asked to address the question of University 
Transportation Centers (UTCs), something that I have some 
experience with, having directed the center in Region Nine for 
ten years. University Transportation Centers do research, they 
do tech transfer, and they produce graduates. The graduates are 
a form of technology transfer in some ways because they go out 
into the agencies and the consulting firms and the private 
sector with the latest knowledge and learn on the job how to 
deploy that knowledge. So we look at them as an important 
product.
    The Transportation Centers Program expanded greatly under 
the last Transportation Bill from the original ten to a total 
of 60 centers now, 20 of which competed for their funds and 40 
of which were selected by Congress. My own view is the 
competition is a very good way to choose transportation centers 
because it assures that the best ideas are able to compete and 
win in a kind of marketplace. I also have to acknowledge, 
though, that some of the earmarked centers have used that 
opportunity as a chance to really show that they could develop 
and have developed and become successful.
    A big issue on both the UTCs and ITS is measuring 
performance, and I think performance has to be measured on 
outcomes, not on inputs, not just on the number of counts of 
papers produced or dollars spent, but actually what has been 
accomplished that has changed things, that has made the 
transportation system better, cheaper, faster, more equitable, 
and more environmentally sound. And we need to move in that 
direction quickly.
    One way to do that is to increase coordination in research, 
which is the third topic I was asked to address. I think that 
can be, and is being, done much better than it was even a few 
years ago because of investments that the Transportation 
Research Board, that RITA, and that others have made in 
creating really good websites where we can coordinate the 
research and see what everybody else is doing. There really is 
no excuse for duplication with the kind of information that is 
now being made available.
    On the other hand, I don't think that all projects that are 
doing the same thing are duplications. Sometimes we learn by 
doing multiple cases, and we really need to be able to do that. 
So replication has to be distinguished from duplication, and we 
will go ahead faster and gain better if we do that.
    I do think that the strategic plan that Mr. Brubaker just 
described is a critical element in being able to manage 
research. We have to have a new strategic plan that really 
represents the new directions in policy that the country is 
pursuing under this Administration and under the changing 
information about science and technology that comes along. We 
need to keep that plan up to date and renew it, and I think the 
partnerships have to go beyond just DOT. They have to go to 
other agencies in a much stronger way than they have, to 
agriculture, to energy, to environmental agencies, and further, 
they have to go to the private sector in a stronger way than 
they have because we can't do this alone. And we need some new 
models on how to deliver our transportation systems so they 
will be cost effective.
    And so I really think that plan has to be the starting 
point. It has to be outcome-focused. It has to be across the 
board integrating all the ideas and issues that we have to 
address in the next few years. We need to develop the plan 
quickly so that we will be able to have a framework for making 
decisions on what is a good investment in research and 
technology.
    Thank you.
    [The prepared statement of Dr. Deakin follows:]

                 Prepared Statement of Elizabeth Deakin

    Millions of dollars are spent each year on transportation research. 
How can we be sure that these investments are effective and that the 
research findings are reflected in transportation decision-making? Here 
I briefly consider investments in Intelligent Transportation Systems, 
in University Transportation Centers, and in USDOT-led research, and 
recommend three strategies that could improve research and its utility: 
more emphasis on social science research to frame and complement 
technology-focused R&D; investing in long-term and exploratory research 
as well as in short-term, problem-solving studies, and framing research 
and investment in a strategic planning and evaluation context focused 
on outcomes rather than project categories.

A Bigger Role for Social Science Research: Evidence from Studies of the 
                    Implementation of Intelligent Transportation 
                    Systems

    In a study conducted in 2003, researchers at the University of 
California investigated factors affecting ITS implementation as a 
``mainstream'' transportation planning activity (Deakin et al., 2002; 
Deakin, 2006). We conducted a detailed literature review, interviewed 
fifty-one leaders from a cross-section of California jurisdictions and 
agencies, surveyed 228 California transportation engineers, planners, 
and transit staff members, and had follow-up interviews with 52 of the 
staff members and 20 national transportation leaders with expertise in 
ITS.
    ITS experts felt that ITS implementation has been slow, and 
attributed this to a lack of knowledge about ITS among elected 
officials and the public, as well as a lack of funding specifically for 
ITS. In contrast, our interviews with California leaders--elected 
officials and agency heads--revealed widespread familiarity with ITS 
concepts and applications (though many were irritated by ITS jargon and 
were unwilling to use it). Policy-makers cited freight applications, 
electronic toll tags, improved traffic signal systems, bus rapid 
transit projects, and traveler information signage as examples of ITS 
success. From the policy-makers' perspective, ITS elements that are not 
proceeding well suffer from institutional and political problems (e.g., 
efforts to route additional traffic on local arterials when the freeway 
is congested) or market weaknesses (e.g., efforts to sell traffic 
information to third party providers). Overall, most elected officials 
and senior policy staff members felt that ITS innovations are being 
implemented at a reasonable pace.
    Elected officials were concerned, however, about a lack of good 
information on ITS benefits and costs, and some expressed concern that 
ITS evaluations have been less than arms-length. A number of leaders 
also commented that ITS proposals have focused too heavily on 
transportation system management benefits rather than traveler 
benefits. Some also argued that the private sector should be left to 
implement ITS applications such as traveler information systems.
    Respondents suggested that the state DOT should lead by example, 
implementing ready-to-go technologies on its own facilities and within 
its own agency. Stronger partnerships with local government and other 
State agencies, developing mutually beneficial, multi-purpose 
applications, were recommended. Finally, respondents urged that future 
ITS work should pay more attention to legal and institutional issues 
and provide a clearer sense of ``next steps.''
    Interviews with national experts identified additional issues. 
There was near-unanimous agreement that DOTs are having difficulty with 
ITS implementation because partnerships are needed to implement and 
partnerships necessitate a change in agency culture, including less 
hierarchical decision-making. In the experts' view, separate ITS units 
and ITS implementation plans can foster strategic thinking about ITS 
technology development but may hinder ITS incorporation into ongoing 
plans, programs, and funding streams. Earmarked funding for ITS was 
seen as appropriate for demonstration projects, to test concepts and 
provide examples, and when ideas are accepted but resources are low; 
traffic signal timing, which produces valuable cumulative benefits but 
is low-visibility and typically a low priority for local governments, 
was given as a case where earmarked funds may be needed to induce 
action.
    Based on these findings, we recommended a refocusing of applied ITS 
research across a wider range of applications, as well as greater 
attention to research on implementation, including market studies and 
work on strategies to foster consensus building and partnerships for 
ITS.
    A follow-up study currently underway suggests that many findings of 
our earlier work still hold true (Deakin, Frick, and Skabardonis, 
forthcoming). While efforts have been made to increase deployment of 
ITS, these efforts have continued to focus primarily on technology 
details rather than evaluating the broader questions of costs and 
benefits, markets and institutions that are also needed. Agencies have 
tried to address the latter issues and bring greater attention to 
implementation by requiring ``technology transfer'' elements in every 
project, but we find that this has been less successful than the 
agencies had hoped. One reason is that the assessments are often done 
as an add-on to a technology development or field test, often by the 
same staff members who developed the technology or test. But experts in 
science, engineering and technology are not necessarily expert in 
economics, policy design, planning, public support, and implementation, 
which are all social science fields of inquiry. We should not expect 
that our technical experts will excel at market studies, policy 
analyses, or social, economic, and environmental assessments any more 
than the marketing and public policy department of a technology firm 
would be expected to do engineering and technology development. 
Investments in social science research are what are needed, especially 
in the form of independent assessments conducted in consultation with 
technology developers. Such efforts could help us match technologies to 
markets, improve the research selection process, and speed up 
implementation of research findings when such implementation is 
warranted.

University Transportation Centers: Research and Human Resources

    Since the late 1980s the Federal Government has devoted a portion 
of its funding for transportation to university transportation research 
centers. Originally the federal program funded ten centers, one per 
federal region, with center designation determined through a 
competitive process involving peer review of proposals. In the ensuing 
years, Congress has expanded the program several times, naming 
additional centers but also requiring that after an initial funding 
period, most centers must compete for continued designation. Currently 
there are sixty centers, with 20 selected through competitive reviews 
and 40 named in SAFETEA-LU. Centers fall under several classifications 
with differing funding levels. Most centers are required to secure a 
dollar-for-dollar ``match'' for federal funds, and state DOTs and other 
local transportation agencies are commonly called upon to provide this 
match. USDOT's Research and Innovative Technology Administration (RITA) 
manages the program with a small but highly effective staff.
    All of the UTCs conduct research. The UTCs also support university 
transportation degree programs and offer continuing education, 
conferences, and symposia to help practitioners stay abreast of new 
methods and findings. However, the UTCs are a varied group, ranging 
from top-ranked research universities to smaller regional or local 
universities oriented principally toward education and training. The 
UTCs' emphases and work products likewise vary.
    Most UTCs carry out a mixed portfolio of research projects, ranging 
from basic, exploratory research to highly applied projects. Each 
center has a strategic plan that outlines the areas in which it will 
concentrate. Most centers also refer researchers to the USDOT strategic 
plan and similar documents that identify research needs and project 
ideas. For most UTCs, however, the required ``match'' has a strong 
influence on the projects selected, since State and local agencies 
often will fund only those projects that they view as meeting their 
pressing, short-term information and training needs.
    California UTCs have been somewhat of an exception. California UTCs 
have had the benefit of a generous match guarantee since the start of 
the UTC program, with Caltrans staff participating in peer review of 
research proposals but not directing research selection. Most other 
centers have had less flexible arrangements and as a result do a higher 
share of short-term, applied projects than the California UTCs.
    California has had the ability to provide the UTCs this match and 
allow them this flexibility because of the size of its transportation 
program. However, with five UTCs now designated in the state and an 
increasingly constrained transportation budget, the UTCs have become a 
significant part of Caltrans' research expenditures and Caltrans is 
feeling the squeeze on its funding. Smaller states are even harder 
pressed for research funds and UTC match can eat up a large chunk of 
available funds. Under these circumstances, the states understandably 
want to see their funds used to meet their current need and are less 
interested in longer-term, riskier research. Some are also concerned 
that the growth of the UTC program amounts to de facto ``earmarking'' 
of State research funds that the they would otherwise use at their own 
discretion.
    The pressure for UTCs to show short-term payoffs in ways that are 
relevant to current agency problems is substantial. Yet long-term, 
researcher-initiated studies can pay off immensely. Since the start of 
the UTC program, California UTC researchers have carried out 
investigations on such topics as strategies for greenhouse gas 
reduction, new fuels and new vehicle technologies, measurement and 
control of particulate emissions from trucks, freight logistics, 
management of traffic to and from ports, congestion pricing, parking 
pricing, land use-transportation coordination, outcome-oriented 
performance measures, and collaborative strategic planning processes 
(to name just a few of the topics studied). Much of this work was 
initiated well before there were federal or State transportation 
policies or research programs on such matters. One result of this 
investment in long-term, exploratory research--research that was NOT 
clearly tied to existing public policies and programs--is that the 
research itself has helped identify new ideas and directions. It has 
given California a strong evidentiary basis for action and has inspired 
new State legislation and new agency programs. As a result, California 
is now positioned to lead implementation efforts in key policy arenas 
that now are attracting national attention. The research might have 
been risky, but it has given us a distinct advantage in information and 
know-how.
    At the same time, the UTC program has produced literally thousands 
of graduates in transportation, at least some of whom would not have 
entered the field had UTC-funded fellowships and research appointments 
not been available. Many of the graduates from early days are now in 
positions of leadership and are helping to reshape transportation 
policy and practice. This cadre of young transportation professionals 
is an important product of every UTC program and their accomplishments 
are a key measure of the program's productivity.
    Indeed, a major way that UTCs disseminate research results--their 
own, and others'--is to train graduate students, who then enter the 
field armed with the latest methods and findings which they then 
introduce into their workplaces.
    The consequences of the proposal to change the UTC match ratio from 
50-50 to 80-20 will depend on the specifics of implementation. If the 
lowered match requirement is combined with a cap on federal funding for 
the UTC program at or near existing levels, and the number of UTCs 
stays the same or expands, both graduate student support and UTC 
research output is likely to decline. The UTC projects that do get 
funded are likely to be framed in longer-term, bigger picture terms, 
and while riskier, more of these projects may be of lasting 
consequence. In other words, less State funding may mean less pressure 
for short-term applications. However, there will of necessity be fewer 
projects, fewer graduate students supported, and as a result, a lower 
level of infusion of new knowledge into the profession. Not all UTCs 
will suffer, of course; the UTCs most successful at attracting funds 
from the private sector and foundations will refocus their efforts. 
Other UTCs will have to contract, and issues of public rather than 
private interest might receive less attention than they do today.
    Of course, states could choose to continue a research program much 
as the one they are now funding through the UTCs, with consultants as 
well as universities able to compete for the available funds. Competing 
for these funds would allow UTCs to offset some of the reduced match 
``hit'' on UTC funding levels.
    If on the other hand Congress boosts the program funding to 
maintain or increase the funds available to the UTC program, while 
reducing non-federal match, a greater focus on national objectives and 
on longer-term innovation in research could be possible.
    Congressional decisions on whether to designate more UTCs or 
endorse competition and peer review also will affect the quality and 
the scope of the UTC program. Research universities have concluded, 
based on the evidence, that competition and peer review are the best 
ways to produce quality results. However, in the UTC program it also is 
evident that earmarks have allowed some universities to develop 
transportation programs that have successfully competed for funds in 
later rounds. Building in an expectation of competition for all centers 
after an initial period of designated support appears to work 
reasonably well.
    Finally, multiple year grants are important because they provide 
the predictability that enables graduate programs and research programs 
to mesh well. Sudden shifts in funding levels and expectations for 
match could cause significant disruptions to graduate programs, as 
could delays in reauthorization. Continuing the program as it stands 
for at least a year (rather than shorter periods that don't match grant 
cycles) is a preferable option to the difficult short-term 
continuations we experienced before SAFETEA-LU was enacted.

Coordination of Research Initiatives

    Practitioners and policy-makers often ask how we coordinate 
research programs funded variously by the USDOT, other federal 
agencies, the states, foundations and other nonprofits, and the private 
sector. The USDOT's Research and Innovative Technology Administration 
(RITA) has provided leadership in this regard. The USDOT's strategic 
plan provides a framework for priority-setting in research, and USDOT 
and RITA help insure that there is a basic level of information on DOT 
activities both by making information on the department's research 
initiatives available on the web and by organizing and by reporting on 
collaborations with other departments of the Federal Government (http:/
/www.rita.dot.gov/about<INF>-</INF>rita/). On-line publication of 
research results and abstracts in journals and on university websites 
and academic/practitioner conferences such as the annual Transportation 
Research Board meeting are also important ways to share information.
    However, there is more to be done. Compared to the EU and other 
economically advanced countries, the USDOT's strategic plan is narrowly 
framed; for example, there is no clear mention of global warming or 
many other environmental issues, and such matters as transportation's 
role in economic development, in social equity, and in quality of life 
are not given much attention. Further, the scope of the USDOT's 
collaborations with other federal agencies is quite limited and appears 
to be narrower in some cases than Congress apparently contemplated 
(e.g., in the Congressionally-requested Transportation Environmental 
Research Program, which was recommended as a collaboration with other 
agencies, states, and the private sector, but was instead instituted as 
a program within FHWA). U.S. research, development, and implementation 
practices also are narrower than those of other countries such as 
Canada, Australia, or the UK, where strong linkages have been forged 
among transportation, housing, and economic development planning, and 
among water, waste disposal, communications and transportation 
infrastructure investments.
    A big worry for many public agencies is that research will be 
duplicative. However, a distinction needs to be made between 
intentional replication and unintentional duplication. Research is 
often replicated intentionally, or conducted with a series of test 
conditions, to determine whether the results are robust and 
generalizable, and not just a fluke or limited to a specific case. Such 
replication is highly desirable because it reduces risk and builds 
confidence in research findings. On the other hand, research is 
published in journals so that other researchers can discover and 
evaluate what has been found in previous studies, and avoid 
unintentional duplication. If the latter occurs, the researcher has not 
done his or her job well--it is this sort of uninformed duplication 
that should be avoided.
    University researchers are evaluated by their peers not only on the 
quantity they produce but also on the intellectual content of the 
products, asking what's new and innovative, what new insights were 
generated, what linkages were identified that were previously 
overlooked, what changed in research directions or in theory, method, 
policy, or practice as a result of the work. These are outcome 
measures.
    In contrast, many transportation agencies evaluate the research 
they fund only on output measures (e.g., the main evaluation criteria 
are whether required products were produced on time and on budget, not 
whether the projects produced new knowledge, altered practice, or 
improved conditions). The same is true, of course, for most on-the-
ground transportation projects: they are evaluated on design compliance 
and whether they are on time or on budget much more often than they are 
graded on whether they actually improved services, the economy, or 
quality of life. Changing evaluation expectations from output-focused 
to outcome-focused could significantly improve the results for all of 
us, in both spheres of activity.
    One of the problems with evaluating based on outcomes is that if 
negative outcomes automatically mean failure, embarrassment, and 
potential job loss, no one will want to admit to a negative outcome. 
Yet we know that most new products never reach market and only a 
fraction of those that do are true successes. The private sector knows 
this, and so does academia: ideas that are proven wrong and proposals 
that fail are nevertheless valuable products for researchers. 
``Failed'' research efforts can lay the foundation for future research, 
push it in new directions, suggest alternative applications for the 
failed product, and highlight challenges to innovation. These are 
valuable lessons, not embarrassments (Zhang and Sternberg, 2006).
    Creating an environment where risks can be taken, failures assessed 
fairly, and rewards given when due has been hard for the public sector. 
This may be a reason to rely more on private sector organizations and 
to give academics more independence, and more responsibility, for R&D. 
Risks and responsibilities are also reasons to promote competition and 
peer review; it shares the risk and responsibility for both research 
initiation and research evaluation among a number of experts.

Implications: Improving Technology Transfer and Incorporating Research 
                    Findings into Transportation Investment Policy

    Our research speaks to the need to complement technological R&D 
with research and development in the fields of economics and finance, 
markets and consumers, law and institutions, planning and policy-
making. This is true with regard not only to the latest ITS 
technologies but more generally to all investments in transportation 
and other infrastructure.
    A new USDOT strategic plan may be a way to organize these efforts. 
Work conducted last year as part of a study on how to respond more 
effectively to California's growth proposed the establishment of a new 
strategic planning process whose goals would be faster and more cost-
effective delivery of infrastructure, better management of existing 
facilities and services, better value for money invested, greater 
accountability to customers, and the possibility of attracting private 
capital for infrastructure projects (Dowall and Reid, 2008). The 
strategic planning process would be focused on outcome-oriented 
measures such as quality of service and how they are valued by 
customers rather than on inputs, e.g., how to allocate categories of 
funds. The process would involve creating a vision of the future and 
the investments needed to attain that future; evaluating a broad set of 
alternatives including both capital projects and ``soft'' investments 
such as regulation or pricing in deciding what infrastructure is 
needed; determining the best way to deliver needed projects--direct 
public or private provision, contracting, partnerships; and providing 
technical assistance to State agencies and local governments ranging 
from opportunities for bundling demand to information on best 
practices. Linkages modes (air, rail, highway . . .) and across fields 
(transportation, energy, housing, agricultural lands, environmental 
quality . . .) would be made explicit and tradeoffs examined. 
Priorities for investment would be identified.
    Such a process, which is being pioneered in several Canadian 
provinces as well as in a few U.S. states, could not only improve 
transportation investments but could help governments determine how to 
allocate scarce resources more effectively. State plans of similar 
scope are being developed and could greatly improve State and local 
priority setting, investment decision-making, and partnership 
opportunities.

References

E. Deakin et al. Mainstreaming Intelligent Transportation Systems, 
        Final Report to the California Dept. of Transportation, Nov. 
        2002; also see E. Deakin, Mainstreaming Intelligent 
        Transportation Systems, UCTC Report 790, Fall 2006 (book 
        chapter reprint).

E. Deakin, K. Frick, and A. Skabardonis, The Role of Technology in 
        Future Transportation. ACCESS 34: Spring 2009 (forthcoming).

D. Dowall and R. Reid, A Strategy for Infrastructure: The California 
        Infrastructure Initiative. ACCESS 32: Spring 2008.

Zhang, Li-Fang and Robert J. Sternberg (2006). The Nature of 
        Intellectual Styles. Mahwah, NJ: Lawrence Erlbaum Associates 
        Publishers.

                     Biography for Elizabeth Deakin

    Elizabeth Deakin is Professor of City and Regional Planning at UC-
Berkeley, where she also is an affiliated faculty member of the Energy 
and Resources Group and the Master of Urban Design group. She is 
completing her second five-year term as Director of the UC 
Transportation Center this spring. She formerly served as Co-Director 
of UC-Berkeley's new Global Metropolitan Studies Initiative, which 
involves nearly 70 faculty members from 12 departments. Before heading 
up UCTC, she was Acting Director of the UC Institute of Urban and 
Regional Development.
    Deakin's research focuses on transportation and land use policy, 
the environmental impacts of transportation, and equity in 
transportation. She has published over 200 articles, book chapters, and 
reports on topics ranging from environmental justice to transportation 
pricing to development exactions and impact fees. She currently is 
carrying out research on sustainable development policy in China, Latin 
America, the EU, and the U.S., with funding from the China Energy 
Foundation, the World Bank, the World Resources Institute, the USDOT, 
and Caltrans.
    Deakin has been appointed to a number of government posts including 
city and county commissions and State advisory boards. She has taught 
courses at universities in Australia, Germany, Sweden, France, and 
China and has served as an adviser to the Organization for Economic 
Cooperation and Development, the European Council of Ministers of 
Transport, the World Bank, and MISTRA (the Swedish sustainable 
development foundation). She chaired the NAS/TRB committee mandated by 
Congress on transportation environmental research.
    Deakin holds degrees in political science and transportation 
systems analysis from MIT as well as a law degree from Boston College.

    Chair Wu. Thank you very much, Dr. Deakin.
    Mr. Saenz, please proceed.

 STATEMENT OF MR. AMADEO SAENZ, JR., EXECUTIVE DIRECTOR, TEXAS 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Saenz. Good morning. Chair Wu, Members of the Science 
and Technology Committee, thank you very much for the 
opportunity to participate in this hearing. My name is Amadeo 
Saenz. I am the Executive Director of the Texas Department of 
Transportation (TxDOT). Today I would like to accomplish 
several things with my testimony.
    First, I would like to give you a State perspective on 
federal research investment. I would also like to talk about 
the barriers that we face, some of the stakeholder involvement 
in transportation research and development, and finally, I 
would like to list some possible improvements that could make 
research and development more helpful.
    Federal investment in transportation research and 
development is invaluable to the State DOTs. Because of the 
federal research we now have high-performance concrete, high-
performance steel, and accelerated bridge construction methods. 
In Texas our highways are based on design criteria developed 
through the national--through national research.
    We now use cable barrier systems developed through the 
National Cooperative Highway Research Program. These barriers 
have reduced crash severity in our highways, and this 
translates to countless lives saved. We installed, as part of a 
safety program, over 400 miles of cable barrier two years ago. 
We went back to evaluate those particular highways, and we saw 
that we were able to save 18 lives over that one year and 26 
serious accidents from what it was prior. So measuring what you 
do and what you put in place is very important.
    The Strategic Highway Research Program Concrete and 
Structures Initiative is another federal program we found to be 
very beneficial. The Texas Loretta Road Overpass in Houston was 
the first project in the country to use high-performance 
concrete throughout the bridge. The use of high-performance 
concrete has allowed us to realize tremendous savings and 
efficiency in the construction of our bridge structures across 
the state. So far we think we estimate and we save about $10 to 
$20 million a year in bridge construction.
    In 2002, to demonstrate the impact of that research and 
development has on Texas, on the Texas transportation system 
safety and cost effectiveness, Texas DOT performed an analysis 
of 21 of over 200 improved technologies that had been developed 
through our research program. A benefit period of ten years was 
used to determine what kind of returns we were going to get, 
and the findings showed that the products provided a net return 
of our investment of over five to one. We currently have the 
Texas Transportation Institute updating our report because we 
now have more data on it, and preliminary indications are that 
the original five to one investment is still a good number.
    These are just a few samples of the benefits that we have 
been able to realize from the transportation research and 
development, but like with every other government program there 
are some barriers. The competing challenges of relentless 
congestion, lack of adequate funds, and the need to move people 
and goods across towns, across the--and across the country with 
really--I am sorry. Excuse me. The competing challenges of 
relentless congestion, lack of adequate funds, and the need to 
move people and goods across town and across the country demand 
that we generate answers very quickly. We need to anticipate 
future needs and begin research today to address those needs.
    One of the largest barriers to overcome in research and 
development is to overcome the institutional inertia and 
resistance to change. When we entered these new specifications, 
new standards, or construction techniques, we saw that there is 
contractor resistance, and there are also cost increases 
because of the unknown. There are implementing--therefore, 
implementing research becomes difficult due to staffing and 
funding shortages. And with the uncertain economy that we have 
today, the State resources are stretched just by maintaining 
our existing systems, and sometimes research has to take a back 
seat.
    At TxDOT all levels of employees are involved in the 
research and development program. For example, we have set in 
place research management committees. These committees are made 
up of key administrative and key lead people, district 
engineers, that work hand in hand with researchers who have the 
technical expertise in the different areas. This committee has 
established the priorities and selects the research that is to 
be conducted. We have more employees involved in each of the 
projects from within the Department to ensure that they work 
hand in hand with the researchers, to ensure that everything 
stays on track and will result in information that TxDOT can 
use as part of the research program.
    In addition, the Department has also seen very important to 
set aside money to be able to implement some of the research 
findings that come out of our research program, and we put in 
place a $5 million a year budget amount to be able to address, 
to implement these new technologies that come out of our 
research program.
    The Federal Government can help states, counties, and 
cities with the use of the newest technologies in several ways. 
One, first you need to understand what the needs of our states 
are and what the needs of our local communities are. 
Information, guidance requirements developed at the national 
level should be provided in a ready-to-use format and in an 
understandable language.
    And we must also form partnerships between the federal, 
State--federal and State DOTs to maximize and share all of our 
information, our assets, and expertise. We need to all work 
together instead of all working separately and independently 
and reinventing the wheel every time.
    Partnership is a major focus for us in Texas. We believe 
that only through partnership and coordination we will be able 
to meet our mission, and the same level of coordination and 
focus would be helpful in all federal research programs.
    As Congress looks to reauthorize the Nation's Surface 
Transportation Program and the research that underpins it, 
there are some simple but important changes that would 
reenergize the research and would cost little or nothing, 
little or very little to put in place. Not since President 
Eisenhower have we had a national plan for infrastructure, and 
if I have to guess, Congress is starting to think that we need 
to have a new national plan. Our national plan should not only 
be for highways, it should also include all modes of 
transportation, whether it is mass transit, high-speed rail, 
freight rail, aviation, and ports. We have to measure how well 
we succeed or how much--by how much we have missed our goals. 
We will need to move into measuring real congestion relief, 
lasting cleaner impacts, safety improvements, and sustainable 
maintenance programs. That way we know whether we got what we 
expected from our research program.
    If Congress is serious about making us perform, then a 
well-organized research program can get us there. Congress 
should set our goals and then the states and the Federal 
Government should work in partnership to define what and how we 
measure our success. We need to avoid developing systems 
independent of each other as I mentioned because this leads to 
additional cost. A nationally-coordinated approach worked well 
for mapping the Genome Project, and it can certainly help us in 
advancing our research program and the development of 
transportation systems.
    Mr. Chair, thank you for allowing me to provide this 
testimony. I look forward to your questions and will be happy 
to answer them.
    [The prepared statement of Mr. Saenz follows:]

                Prepared Statement of Amadeo Saenz, Jr.

Introduction

    This testimony will provide the Committee on Science and Technology 
with the State of Texas perspective on the federal research investment, 
barriers we face, and stakeholder involvement in transportation 
research and development. It will also address the impact to states and 
possible improvements that might make the entire R&D endeavor more 
useful.
    At TxDOT we strive to be a progressive State transportation agency 
that provides safe, cost-effective, efficient, environmentally 
sensitive and aesthetically appealing transportation systems to the 
citizens of Texas.

Federal Investment

    The federal investment in research and development has impacted 
transportation practices and investments in many positive ways. First, 
the federally funded national programs are the basis for the 
development of national, State and local operating processes, standards 
and specifications. These programs consolidate information and 
experience from around the United States and produce usable 
documentations for new methods. They also obtain results that might 
otherwise take individual states decades to complete. Federal research 
and development has brought the transportation industry high 
performance concrete, high performance steel and accelerated bridge 
construction, which have significantly improved the efficiency and the 
durability of bridges. These, of course, are not the only examples.
    In Texas, the safety devices along all of our highways are based on 
design criteria developed through national research. For example, the 
National Cooperative Highway Research Program (NCHRP) Report 350, 
``Recommended Procedures for the Safety Performance Evaluation of 
Highway Features,'' has been used for selecting cable barrier systems. 
The installation of these barriers on Texas highways has dramatically 
reduced crash severity and saved several lives. NCHRP projects have 
helped TxDOT in other programs as well, like the repair of prematurely 
failing modular joints on bridges. If these systems are poorly 
designed, specified or installed, which had happened previously due to 
a lack of national specifications, they can under-perform and result in 
costly bridge damage and premature replacement.
    NCHRP has assisted Texas in many ways. It helps us provide secure 
highway and bridge infrastructure by presenting the results and 
findings that enable transportation professionals to deal with 
emergency preparedness functions. The NCHRP reports also help TxDOT 
identify and quantify environmental impacts in the earliest phases of 
project planning, making that complex process more effective and 
avoiding costly changes later. The research associated with new 
regulatory requirements can address lawsuit findings and help 
facilitate more efficient and effective environmental clearance and 
improve project delivery.
    Another great federal program example is the Strategic Highway 
Research Program (SHRP) Concrete and Structures initiative, which 
promoted the interchange of ideas and information among representatives 
of Federal, State and local government agencies; the construction 
industry; and the academic community, an effort which provided High 
Performance Concrete (HPC). The Texas Louetta Road Overpass in Houston 
was underway and was the first highway bridge construction project in 
the United States to use HPC throughout the bridge.
    Additional benefits from SHRP continue today. The current Superpave 
asphalt binder specifications that the Nation uses today were developed 
through the initial SHRP. For example, Expert Task Groups, or ETGs, for 
binders and mixtures that were originally organized for implementing 
Superpave still function to research changes needed in testing and 
specifications that were not adequately addressed during the original 
funding for SHRP. The FHWA formed a working group for the 
implementation of the Mechanistic Empirical Pavement Design Guide that 
is being developed to replace the existing American Association of 
State Highway and Transportation Officials (AASHTO) design guides. The 
end product should improve the accuracy and reliability of pavement 
design in the United States. An ETG for pavement models was organized 
to evaluate prediction models including fundamental properties to 
predict pavement performance. This Long-Term Pavement Performance 
project was used to develop the new pavement design guide and provided 
several valuable lessons from the Special Pavement Sections. FHWA also 
uses ETGs to evaluate the measurement of pavement performance 
characteristics such as smoothness, rutting and cracking with goals to 
standardize the practices of calibration and data collection.
    TxDOT has built a very robust research program funded through the 
federal State Planning and Research Program involving many of the Texas 
universities. We perform research in areas such as pavements, 
materials, construction, planning, environment, right of way, public 
transportation, operations, safety, hydraulics and structures. Some of 
our recently completed research projects are:

        <bullet>  The Role of Preferential Treatment for Carpools in 
        Managed Lane Facilities, which involved a review of carpool 
        preferences on managed and tolled lanes; a stated-preference 
        survey of HOV lane users with respect to carpool preferences 
        relative to price; development of a predictive demand model; 
        and an assessment of mobility, revenue and environmental 
        impacts.

        <bullet>  Impacts of Current and Future Demographic Trends on 
        Transportation Planning in Texas. One of the deliverables from 
        this project was a One-Stop Demographic Data Analysis Tool, 
        which will provide a starting point for reporting and comparing 
        demographic characteristics of selected areas for 
        transportation professionals.

        <bullet>  Synthesis Study of Programs Used to Reduce the Need 
        for Inspection Personnel. TxDOT is looking for more effective 
        ways to manage the workload involved in construction project 
        testing and inspection. This project identified strategies that 
        could help TxDOT do this while maintaining quality.

        <bullet>  Development of An Advanced Overlay Design System 
        Incorporating Both Rutting and Reflection Cracking 
        Requirements. TxDOT spends millions of dollars each year 
        designing and placing overlay on its existing highways. The 
        tools developed in this study will assist TxDOT engineers in 
        designing and implementing longer lasting overlays. The 
        software can address issues such as where to use high-
        performance mixes and optimal thicknesses, particularly in the 
        area of jointed concrete pavements where joints must be 
        repaired prior to placing any overlay.

    A January 2003 TxDOT report titled ``The Value of Texas 
Transportation Research'' stated the following:

         ``To demonstrate the impact that research has on 
        transportation system safety and cost effectiveness, 21 
        improved technologies and methods produced by TxDOT's research 
        program were selected from a three-year period, 1999 through 
        2001. The selected products are considered to be among the best 
        of over 200 beneficial initiatives implemented from those three 
        years of the research program. A benefit period of ten years 
        was used for determining the returns from the selected research 
        program products. This is a conservative assumption, since many 
        benefits never become truly obsolete as newer technology is 
        layered on earlier innovation.''

         ``The estimated ten-year cost savings in department 
        operations, stemming from these 21 research products, are more 
        than $322 million. The research program budget total for fiscal 
        years 1999, 2000, and 2001 was approximately $54 million (less 
        than 0.4 percent of the department's budget). The total 
        operational cost savings derived from these 21 products exceed 
        the cost of the research program by approximately $268 million. 
        This is a net return on investment ratio of 5:1, without 
        considering the value of the numerous other products 
        implemented from that three-year period of the research 
        program.''

    This report is currently being updated by the Texas Transportation 
Institute. However, preliminary indications are that the original 
findings remain valid.

Research and Development Barriers

    The competing challenges of relentless congestion, lack of adequate 
funds and the need to move people and goods across town and across the 
country demand that we generate answers quickly. In some instances, we 
need the answers today--so we cannot wait on a research question to be 
posed with answers to be presented two years down the road. The public 
expects the best transportation system at the lowest cost, and research 
facilitates this but we have to do a better job of anticipating our 
questions and issues. We must begin research now so we have the answers 
available when tomorrow comes.
    A key barrier we have to overcome is institutional inertia and 
resistance to change based on rational aversion to risk. Contractors in 
Texas, as in other states, are used to standards and consistency, so 
when we introduce new specifications, standards or construction 
techniques, resistance and cost increase is certain. Another barrier to 
implementing research is quite simply staffing and funding shortages. 
As you know, there is a cost to implementation and changeover to a new 
technology. With reduced budgets today and our uncertain economy, our 
resources are already stretched in our ability to just maintain our 
existing systems.
    Some other barriers include failure to get useful information to 
decision-makers, reluctance by some to embrace advanced technologies 
(perhaps due to lack of understanding), lack of clarity or 
understanding of potential benefits, and unavailability of 
specifications. Some research outcomes may have to be validated by 
environmental regulatory agencies and go through rule making by 
multiple regulatory agencies before being implemented (for example, 
alternative mitigation strategies that research has shown to be 
superior to earlier practice). This barrier is exasperated by the 
chronic shortage of staff in the federal regulatory agencies.
    Proprietary issues continue to hinder implementation. Frequently, 
successful research must be converted to hardware, software or new 
materials by vendors before it can actually be effectively used. 
Sometimes we must wait to implement a research result until we have 
enough vendors for competitive bidding. Manufacturers are often 
reluctant to add new features or applications that resulted from 
research. Another potential obstacle is that there must be agreement on 
the limits of the use of data available from the new technology (i.e., 
electronic tolling).
    The Federal Government can help states, counties and cities use the 
newest available technologies in several ways. First, there must be an 
understanding at the federal level of State and local issues and needs. 
It's a long way from Washington, D.C. to Austin, Texas, and things can 
get lost in translation. Information, guidance and requirements 
developed at the national level should be based, where necessary, on 
sound research. This information should then be provided in clear, 
``ready to use'' format and language. Distributing reports that are 
unread and put on the shelf or stored on the Internet is not the 
answer. Research results need to be communicated at all levels. 
Professionals and first-tier government decision-makers must share the 
details of research results and agree on standard processes and 
methods; i.e., safety related road design, clearance zones and access 
management. Transportation department regional and discipline 
specialist leaders must agree with local leaders on the value of, and 
the resources for, implementing research results; i.e., real-time 
monitoring at Traffic Management Centers. Senior transportation leaders 
and elected or appointed officials must ask for and then implement 
research on major requirements; i.e., alternative funding methods, 
linking planning with the National Environmental Policy Act, global 
warming and greenhouse gases. The Federal Government can assist in 
developing specifications and standards. Perhaps funding more 
demonstration projects highlighting technologies with potential big 
pay-off could also help.
    At TxDOT, we have made some changes in policy to assist in 
overcoming some of these barriers. For example, deliverables required 
on some TxDOT research projects include a specification, standard, or 
``manual pages'' in the proper format ready to insert into our 
documents. This makes it easier and quicker to implement the results. 
Some research project results are such that a formal implementation 
project is developed. An implementation project is typically triggered 
by the need for specific funding to help integrate a product, new 
method or process, or innovation into department operations. Examples 
include:

        <bullet>  The incremental cost for the first use of a product 
        or innovation in construction or maintenance operations.

        <bullet>  The purchase of newly developed equipment for use in 
        the field.

        <bullet>  Training of field personnel in the use of new 
        equipment or methods.

    Training is also a significant tool for ensuring that planning and 
construction use the newest available technologies. Universities must 
also maintain strong research programs to attract high quality students 
to continue graduate level study. Continuing research progress must be 
matched with money, resources and materials to understand and implement 
new technologies. Basic and continuing education and technical skills 
training at multiple levels is needed equitably across the country. In 
Texas, for example, over 300 department employees have been trained in 
the past 18 months on research project specific best practices and 
implementations. Topic areas include Wireline Communication Design, 
PASSER V Signal Optimization, Dynamic Message Signs, Managed Lanes, 
Measuring Access to Public Transportation, Procedures for Setting Curve 
Advisory Speeds and Spall Repair.
    Recently, the research project on Transversely Varying Asphalt 
Rates has been added as a course that will be available to the 
department employees in March 2009. We have also partnered with the 
National Highway Institute and the Transportation Curriculum 
Coordinating Committee (TCCC) to place all new TCCC Web-based training 
on the department's Learning Content Management System. This allows 
immediate access to these new courses in a secure environment for 
department employees. We are involved with the Texas Pavement 
Preservation Center, a collaborative association with the department, 
Center for Transportation Research, the Texas Transportation Institute 
and private industry, and have developed a series of training courses 
that are delivered on an established schedule to department employees 
and private industry. Over 400 employees have been trained on best 
practices in asphalt preservation methodology and design in the past 15 
months.
    The department is a firm believer in the use of technology not only 
in application in the design, build and maintenance of roadways, but 
also in the delivery of training and access of the latest cutting-edge 
technologies for its employees. The department has an extensive video 
teleconferencing system that has been in place since 2002. In FY08 
alone, TxDOT used over 8,700 hours of connectivity to delivery 
training. TxDOT's Learning Content Management System now hosts over 400 
course titles and is used by every employee for a variety of courses 
and access to resources. The Local Technical Assistance Program (LTAP) 
is also a valuable program for assisting cities and counties with 
technical issues and training. Some of the specifics of the LTAP in 
Texas include:

        <bullet>  Distributing technology transfer materials (videos, 
        CDs and publications) to local government officials upon 
        request.

        <bullet>  Providing technical information, advice and guidance 
        upon request of local agencies.

        <bullet>  Conducting or arranging seminars or training courses 
        including Bridge Maintenance, Road Maintenance, Culverts and 
        Drainage, Vegetation Control/Herbicide Use and Using a 
        Motorgrader to Shape Gravel Roads.

Stakeholder Involvement

    Lastly, we believe the current level of stakeholder involvement in 
determining DOT RD&T priorities at the federal level is sufficient but 
needs improvement. The stakeholders included at the federal level, for 
example, are FHWA, RITA, TRB, State DOTs, local agencies, highway 
industry and highway users. But sheer volume does not necessarily mean 
that the programs and priorities are well coordinated and focused. As a 
result, we have unnecessary duplication, significant research gaps and 
increased difficulty in sharing results that can be used across the 
country. The challenge is big. All 50 states are conducting their own 
research. In addition, RITA, TRB and the FHWA have numerous research 
programs (for example, NCHRP, SHRP 2, and STEP). Some possibilities for 
improvement include:

        <bullet>  Defining the roles and ``boundaries'' of the various 
        programs more clearly. It should be much clearer at the federal 
        level how the ``pieces of the puzzle'' fit together. For 
        example, how does the research conducted by RITA relate to the 
        research conducted by FHWA? Is there duplication? Are there 
        gaps? How and where does one see how this ``puzzle'' fits 
        together?

        <bullet>  The goals and focus areas of the multitude of 
        research programs at the federal level should be clearly and 
        succinctly outlined, put in the same format for easy comparison 
        and kept current in one electronic document. In essence, ``What 
        is everyone doing and where do I find it?''

        <bullet>  Focus the coordination efforts so that the right 
        stakeholders are involved in the right programs. More 
        importantly, ensure that the ``products'' resulting from these 
        stakeholder meetings and interactions are specific, meaningful 
        and measurable. Too often, many groups at all levels meet to 
        develop research agendas. The problem occurs when there is no 
        accountability and no follow-up.

The National Vision and Transportation Research

    As Congress looks to reauthorize the Nation's surface 
transportation program and the research that underpins it, some simple 
but important changes would not only re-energize that research but 
would cost little or nothing to do.
    As we look forward to the 2009 authorization cycle, Congress should 
define a national strategy and provide the policy framework that 
empowers states and regions to set goals, make decisions and deliver 
projects that implement the national strategy. Not since President 
Eisenhower have we had a national plan for infrastructure, and if I had 
to guess, Congress is starting to we think should have one, too.
    Our national plan should not only be for highways. It must include 
all modes of transportation: mass transit, high-speed rail, freight 
rail, aviation and ports. Congress should enact consumer-focused 
legislation and recognize that Americans expect congestion relief, 
cleaner air, improved economic opportunity, well maintained roads and 
increased safety.
    And we're going to have to measure how well we have succeeded, or 
occasionally, how spectacularly we have failed. In the stimulus 
legislation that's presently under consideration, a good portion of the 
discussion is on measuring results. Right now it tends to be about the 
number of jobs created, which is good, but we're going to need to move 
into measuring real congestion relief, lasting clean air impacts, 
safety improvements and sustainable maintenance programs. That way we 
can know if we get what we expected to get out of our transportation 
investments, a level of thinking that is absent these days.
    The national research program to some degree mimics the 
transportation plan we have today. There's little central coordination 
or vision, everyone's off doing their own thing with inadequate funding 
and we generally do nothing more than follow processes. When we spend a 
federal dollar, the question we're asked isn't ``Did you relieve 
congestion?'' but rather ``Did you follow all of the processes?'' If we 
happened to actually accomplish something, then we got lucky.
    If Congress is serious about making us perform (and I hope it is), 
then a well organized national research program can get us there. It 
can define what we measure and how to best measure it. I think it could 
also develop the software to do it so we we're not all developing 
systems independent of each other at a tremendous cost or buying it 
from different vendors at an equally high cost.
    A nationally coordinated approach worked for mapping the human 
genome project, and it can work for mapping the next advances in our 
transportation system.

                    Biography for Amadeo Saenz, Jr.

    Amadeo Saenz Jr., P.E., is Executive Director of the Texas 
Department of Transportation (TxDOT). Under Texas Transportation 
Commission direction, he manages, directs, and implements TxDOT 
policies, programs, and operating strategies. He represents TxDOT 
before the Texas Legislature, the United States Congress and other 
entities. He was appointed as Executive Director of TxDOT in 2007. Mr. 
Saenz is a trailblazer in transportation and was the first Hispanic to 
hold this position in the agency's 90-year history.
    After earning a Bachelor of Science degree in civil engineering 
(with honors) at the University of Texas at Austin, Mr. Saenz joined 
TxDOT in 1978 in the Pharr District as an engineering laboratory 
assistant. As a TxDOT employee he succeeded through various positions 
to learn the agency and transportation from beginning to end.
    He was named district engineer in the Pharr District in 1993 and 
held this position until 2001 when he was appointed as Assistant 
Executive Director for Engineering Operations in Austin. In this role, 
he implemented and managed TxDOT's engineering operations policies, 
programs and operating strategies according to federal and State laws 
and Texas Transportation Commission regulations and directives.
    A native of Hebbronville, Texas, Saenz is a past member of the 
Rotary Club and was active with the Boy Scouts. He served on the Civil 
Engineering External Advisory Committee for the University of Texas at 
Austin. He owns and operates a small cattle ranch in South Texas, where 
he enjoys horseback riding and hunting. Mr. Saenz and his wife, 
Geraldine, have two children, Priscilla Marie and David Aaron.

    Chair Wu. Thank you very much, Mr. Saenz.
    Mr. Skinner, please proceed.

 STATEMENT OF MR. ROBERT E. SKINNER, JR., EXECUTIVE DIRECTOR, 
    TRANSPORTATION RESEARCH BOARD OF THE NATIONAL ACADEMIES

    Mr. Skinner. Good morning, Mr. Chair and Members of the 
Committee. My name is Robert Skinner, and I am the Executive 
Director of the Transportation Research Board (TRB) of the 
National Academies. My testimony this morning is based upon the 
work of expert committees appointed by the National Academies 
to carry out projects for the Federal Highway Administration's 
(FHWA) Research and Technology Programs and for the Research 
and Innovative Technology Administration (RITA). I emphasize 
highway research programs in my testimony, but most of the 
lessons drawn are applicable and transferable to research in 
other modes.
    The administration of our highway system is incredibly 
decentralized with tens of thousands of states and local 
governments owning pieces of the system. Even though the 
Federal Government owns and operates relatively few highways, 
it plays a crucial role in research and the innovation process. 
The Federal Government funds about two-thirds of the total 
Highway Research and Technology Program, enables training and 
technology transfer activities, and is the sole source of 
funding for higher-risk, potentially higher-payoff research.
    Now let me turn to the questions provided in advance and 
highlight some of the points that are made in my written 
testimony. The first question referred to R&D priorities, 
alignment with stakeholders, and changing priorities. The TRB 
committee that reviewed RITA's first five-year DOT-wide 
strategic plan identified several constraints on having a truly 
strategic plan.
    The research title of SAFETEA-LU (Safe, Accountable, 
Flexible, Efficient Transportation Equity Act: A Legacy for 
Users) contains numerous, narrowly-defined designations, and 
many R&D activities are earmarked to specific recipients. As a 
practical matter, most of the needed research identified by 
stakeholders is mode-specific in character. Finally, the 
ability for USDOT to direct or control research programs from a 
top-down perspective is in a natural tension with efforts of 
the modal administrations to be responsive with stakeholders.
    Given the decentralized administration of the system, 
responsiveness to stakeholder needs and perspectives is 
crucial. FHWA may have the most extensive interactions with 
stakeholders of the modal administrations but even it could be 
doing more.
    Regarding changing priorities, the research proposals for 
reauthorization that the TRB Executive Committee looked at last 
spring did not adequately recognize the growing importance of 
reducing transportation greenhouse gas emissions and energy 
consumption. TRB now has a study underway that will make 
recommendations before SAFETEA-LU expires regarding research on 
climate change mitigation and adaptation.
    The second question concerns improvements to transportation 
R&D investment structure. In concept, the portfolio of programs 
funded through SAFETEA-LU is appropriate, but the program, as 
authorized, is far more detailed than necessary. Compare that 
to NSF (National Science Foundation), which has a budget that 
is 10 to 15 times greater with fewer line items.
    Other weaknesses in the structure include: too small a 
share of the funding is devoted to advanced or longer-term, 
higher-risk research; policy research is neglected; there is 
too little emphasis on data collection; and inadequate 
attention to technology transfer.
    The third question, in fact, addresses improvements to the 
technology transfer programs. FHWA provides extensive 
information about new technologies and practices, administers 
the Local Technical Assistance Program (LTAP), and offers 
training on new technologies and practices. These activities, 
however, are not sufficient to fully overcome the significant 
barriers to innovation that exist.
    Our recently-released report on implementing the results 
from the Strategic Highway Research Program (SHRP) provides a 
model of what is required to assist the states in deploying new 
technologies and practices. For SHRP products the committee 
recommends a large-scale implementation effort totaling $400 
million over six years. It would be guided by a formal 
stakeholder advisory committee and detailed, publicly-available 
implementation plans.
    The final question asked about lessons learned from the 
last reauthorization, excuse me, the final question asked about 
lessons learned from the last reauthorization of Surface 
Transportation Programs. The principles for research 
articulated in the preamble to Title V are good ones, and I 
hope they will be retained, and more importantly, followed. 
They encourage stakeholder involvement, competitive award of 
funding based upon merit review, advanced research, and a 
federal program that spans the entire innovation process.
    Along with fewer, more-broadly defined line items, 
adherence to these principles would restore funding to policy 
and other core missions, including enhanced technology 
transfer, and provide flexibility needed to respond to changing 
needs. Specific recommendations based on our assessment of 
SAFETEA-LU's Title V are included in my written testimony.
    Thank you for this opportunity to appear before the 
Committee. I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Skinner follows:]

              Prepared Statement of Robert E. Skinner, Jr.

INTRODUCTION

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Robert E. Skinner, Jr. I am the Executive Director of the 
Transportation Research Board (TRB) of the National Academies. TRB is 
one of the five divisions of the National Research Council (NRC), 
which, in turn, is the operating arm of the National Academy of 
Sciences, National Academy of Engineering, and the Institute of 
Medicine. This complex of organizations is collectively referred to as 
the National Academies. The institution operates under the charter 
given to the National Academy of Sciences by Congress in 1863 to advise 
the government on matters of science and technology.
    From the 1920s until 1975, my organization was named the Highway 
Research Board. In 1975 the organization became multi-modal and was 
renamed the Transportation Research Board. TRB's mission is to promote 
innovation and progress in transportation through research. It is best 
known for its role in promoting innovation and information exchange by 
maintaining approximately 200 standing technical committees in all 
modes of transportation and hosting an Annual Meeting that attracts 
more than 10,000 participants from the United States and around the 
world. TRB also conducts policy studies for Congress and the executive 
branch, and is increasingly called upon to administer research programs 
for others that are stakeholder-directed and primarily award research 
funding based on competition and merit review by peers.
    The testimony I will give today is based upon the work of expert 
committees, appointed by the NRC, and serving without compensation to 
carry out projects for the Federal Highway Administration's (FHWA) 
research and technology programs and the Research and Innovative 
Technology Administration (RITA). I have cited these different reports 
throughout my testimony, and they are listed at the end of this 
document.
    We also have committees at work reviewing the research programs of 
the Federal Railroad and Federal Transit Administrations, and TRB 
manages cooperative research programs for transit agencies and 
airports. I have not addressed these modes in my written testimony in 
any detail but will be happy to comment on these activities if 
requested. I emphasize highway research programs in my testimony, but 
most of the lessons drawn are applicable and transferable to research 
in other modes.

Importance of Highways

    The American lifestyle is absolutely dependent on highway 
transportation. Americans use personal vehicles for 87 percent of daily 
trips and 90 percent of long distance trips. The decentralized U.S. 
economy would be unimaginable without the access that highways provide 
for motor carriers. Truck ton-miles represent about 30 percent of total 
ton-miles of freight; more importantly that tonnage accounts for nearly 
75 percent of the value of freight shipped domestically.
    With the fourth largest land area of any country, the United States 
is surely the most reliant upon roads and highways. The Nation has 8.4 
million lane miles (3.2 million miles) of roads connecting metropolitan 
areas, towns, and counties across the country to serve its 300 million 
residents and seven million business establishments.
    As valuable and important as highway transportation is, it also 
faces enormous challenges. For example, demand on the system increased 
sharply in recent years resulting in the congestion we have become all 
too familiar with. Total highway travel in personal vehicles, 
motorcycles, light and heavy trucks totals nearly three trillion miles 
annually. Total travel has leveled off in the last couple of years, but 
it increased 25 percent between 1997 and 2006. Not only is much of the 
highway system reaching or exceeding its expected service life, it is 
also carrying a much heavier burden than expected. The amount of 
traffic on rural Interstates more than doubled between 1970 and 2005, 
but the loadings placed on those highways, due largely to more trucks 
traveling more miles, increased six-fold during that period. The system 
is facing unprecedented challenges in overall demand, safety, the cost 
of paying for system preservation and operation, and environmental 
impact. Because there is not enough money to meet all these challenges, 
research and innovation is desperately needed. For example, we must 
learn how to reconstruct highways more efficiently at lower cost and do 
so while continuing to maintain service with minimal disruptions. We 
must also strive to meet ever-higher standards for providing capacity 
with minimal disruption to communities and the environment.

AN OVERVIEW OF U.S. HIGHWAY RESEARCH & TECHNOLOGY PROGRAMS

Decentralized Responsibilities
    Highway research, like the management of the highway system itself, 
is highly decentralized, and appropriately so. Roads and highways are 
owned and operated by the states, thousands of counties, and tens of 
thousands of cities and municipalities. These many and varied 
organizations make all the key decisions about investment, operation, 
and preservation of roads. Aside from the roads on federal lands, the 
Federal Government has little direct connection with the pressures of 
financing, building, maintaining, and operating roads. Doing so is a 
massive enterprise. Roughly $94 billion is spent every year on roads 
and highways.
    Each state has its own highway research program, and states, in 
turn are providers of technology and innovation to cities, counties, 
and municipalities. States' R&T programs often provide the final step 
in implementing new technologies, and they must meet the particular 
needs of individual states' soil conditions, climate, and institutional 
arrangements. Pavement design itself, for example, is highly dependent 
upon local soil conditions, moisture levels, temperature ranges, and 
sources of local aggregate. Operational needs range widely between 
states with major metropolitan areas and states mostly made up of rural 
areas. State policy concerns about economic development, finance, 
environmental issues, and safety also vary considerably across states. 
State research programs support research initiatives in all these 
areas.
    The existence of 52 programs might suggest that duplication would 
occur, but, in fact, states have a system of sharing resources in order 
to study topics of collective interest, and the states and federal 
transportation agencies, through TRB, maintain a database of completed 
research and research in progress, which states are required by FHWA to 
consult before initiating new projects. State highway research programs 
are mostly funded through federal aid. For decades, the federal aid 
title of surface transportation authorization (Title I) has required 
states to spend a small percentage of federal aid on planning and 
research. (The State Planning and Research (SP&R) program currently 
sets aside two percent of selected highway program funding of which 25 
percent must be spent on research.) States pool some of their resources 
in the National Cooperative Highway Research Program (NCHRP), which is 
managed by TRB on the states' behalf, as described in more detail 
below.

Federal Role
    Even though the Federal Government has a minor role in owning and 
operating highways, it plays a virtually indispensable role in the 
research and innovation process. The Federal Government funds about 
two-thirds of total highway research and technology programs (Table 1), 
plays a critical role in training and technology transfer, and is the 
sole source of funding for higher-risk, potentially higher-pay off 
research.
    The Federal Highway Administration (FHWA) is the principal agency 
managing highway research at USDOT. It has research activities in each 
of its mission-area responsibilities: infrastructure, operations, 
environment and planning, safety, and policy. Through its research and 
program office staff in these areas, FHWA interacts with experts and 
stakeholders in the public and private sectors to develop multi-year 
program plans for their research and development activities.
    The Intelligent Transportation Systems (ITS) research program, 
initiated and formerly managed by FHWA, is now managed by the Research 
and Innovative Technology Administration (RITA). The ITS program is 
multi-modal, but most of the projects and funding are highway-related. 
In addition, the University Transportation Centers (UTCs) conduct 
highway research (generally with federal funding); this program is 
administered by RITA. The UTC program is multi-modal, but 69 percent of 
the projects in 2008 were focused on highway topics,\1\ hence I have 
included it as part of the federal investment in highway research. 
Various private entities fund highway research, but their role is 
surprisingly small.\2\ Because of the large public presence in roads 
and highways and the nature of public procurement of highway goods and 
services, there are relatively few opportunities for the private sector 
to capitalize on private research. Consequently, the share of private 
funding is small and the public responsibilities for encouraging 
innovation are large.
---------------------------------------------------------------------------
    \1\ The Federal Investment in Highway Research 2006-2009: Strengths 
and Weaknesses, Special Report 295, Transportation Research Board of 
the National Academies, Washington, D.C., 2008, p. 75.
    \2\ Building Momentum for Change: Creating a Strategic Forum for 
Innovation in Highway Infrastructure, Special Report 249, 
Transportation Research Board of the National Academies, Washington, 
D.C. 1996, p. 14-15. See also Chapter 6 of Implementing the Results of 
the Second Strategic Highway Research Program: Saving Lives, Reducing 
Congestion, Improving Quality of Life, Special Report 296, 
Transportation Research Board of the National Academies, Washington, 
D.C. 2009.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    FHWA is closely connected to the states though its federal aid and 
RD&T programs and has offices in each state. RITA, in addition to 
administering the ITS and UTC programs, has a role in strategic RD&T 
planning for the department. Because of the extent of earmarked 
research and detailed designations of research programs in the Safe, 
Accountable, Flexible, Efficient, Transportation Equity Act of 2005 
(SAFETEA-LU), about which I will say more later, RITA has had limited 
opportunity to influence the scope and direction of highway 
research.\4\
---------------------------------------------------------------------------
    \4\ Committee for the Review of the USDOT Strategic Plan for R&D, 
Letter Report, August 2, 2006. http://www.trb.org/news/
blurb<INF>-</INF>detail.asp?id=6582
---------------------------------------------------------------------------
    A federal role of growing importance is the support for higher-
risk, potentially higher pay-off research. TRB has been administering 
an NRC-appointed expert committee to provide guidance to the FHWA RD&T 
program since 1992. The Research and Technology Coordinating Committee 
(RTCC) has consistently encouraged FHWA to invest in this kind of 
research.\5\ The vast majority of the highway research conducted in 
this country is highly applied, problem-solving research, as it should 
be. But no agency has been funding more exploratory research that is 
seeking new understanding that could lead to new breakthroughs. The 
Exploratory Advanced Research program authorized in SAFETEA-LU is an 
example of this kind of research and a welcome change. In principle, 
this kind of research should also be supported through UTC program, but 
the dollar-for-dollar matching requirement of the UTC program has 
driven this program to focus on applied research.
---------------------------------------------------------------------------
    \5\ The Federal Role in Highway Research and Technology, Special 
Report 261, Transportation Research Board of the National Academies, 
Washington, D.C. 2001.

Special Initiatives
    Over the years stakeholders in the highway community have requested 
special initiatives to meet special needs. Most of these initiatives 
have been governed by stakeholders and funded with federal aid and rely 
on competition and merit review to award contracts and grants.

            AASHO Road Test and Long Term Pavement Performance 
                    Experiment.

    In the late 1950s an extensive series of tests was conducted for 
the American Association of State Highway and Transportation Officials 
(AASHTO), then named the American Association of State Highway 
Officials (AASHO), on a pavement test track. These tests established 
the empirical relationships between pavement loadings and distress that 
that became the basis of the first AASHTO pavement design guide issued 
in 1961, which subsequently determined pavement designs in the United 
States as well as influencing them around the world. TRB, then the 
Highway Research Board, administered these tests for AASHO.
    The AASHO road test, however, did not adequately account for 
variations in soil conditions, materials, climate, and other factors 
that influence pavement deterioration in addition to loadings. The 
Long-Term Pavement Performance (LTPP) experiment, begun 20 years ago, 
and costing over $260 million in federal funding, will be nearly 
completed this year. FHWA has managed the experiment in collaboration 
with the states, which have invested at least double the federal share 
in constructed pavements and data collection. An NRC-appointed 
committee administered by TRB has advised FHWA and the states on the 
conduct of this experiment. The data collected to date have already 
been influential in implementing the new Mechanistic-Empirical Design 
Guide being implemented by the states and will likely be as influential 
in future pavement design as the AASHO road test.

            Intelligent Transportation Systems (ITS) program

    In the late 1980s a broad-based public-private stakeholder group 
known as Mobility 2000 began promoting the need to apply computer and 
electronic communications technologies to increase the capacity and 
safety of highways. The research and demonstration program that was 
initially funded in the Intermodal Surface Transportation Efficiency 
Act of 1991, has since invested more than $1.2 billion in developing, 
testing, and implementing ITS technologies. ITS America, an outgrowth 
of Mobility 2000, was originally designated as the formal advisory body 
for the program; RITA now has a designated ITS advisory committee for 
this purpose.

            Strategic Highway Research Programs (SHRP) 1 and 2.

    Originally conceived by an NRC-appointed committee administered by 
TRB, the first SHRP program was a fixed-duration $150 million research 
effort focused on materials and maintenance practices that produced 
significant breakthroughs in asphalt mix design procedures and winter 
maintenance practices. FHWA, AASHTO, and TRB collaborated in the 
development of detailed research plans. The program was authorized in 
the 1987 surface transportation reauthorization legislation. A special 
unit of the NRC was created to allow for stakeholders governance of the 
program and convene expert panels to produce requests for proposals 
(RFPs), provide merit review of the proposals, recommend selection of 
contractors, and manage the contractors.
    In the Transportation Equity Act for the 21st Century, Congress 
requested that TRB convene another NRC-appointed committee to determine 
the need for a second SHRP. A committee made up of leaders from the 
highway community recommended an ambitious program to significantly 
improve safety, provide capacity in greater harmony with community 
values and the environment, improve travel time reliability, and renew 
highway capacity more efficiently and effectively while under 
traffic.\6\ SAFETEA-LU authorized a six-year, $205 million program for 
this purpose. Under a three-way partnership with AASHTO, FHWA, and TRB, 
the program is governed by stakeholders and administered by TRB. 
Eighty-five percent of the research funds are awarded competitively 
based on merit review by peers.
---------------------------------------------------------------------------
    \6\ Strategic Highway Research: Saving Lives, Reducing Congestion, 
Improving Quality of Life, Special Report 260, Transportation Research 
Board of the National Academies, Washington, D.C. 2000.

            National Cooperative Highway Research Program (NCHRP)

    Since 1962, under a cooperative agreement among AASHTO, FHWA and 
TRB, TRB has administered the NCHRP program. In this cooperative 
program, the states select the topics to be studied through the 
Standing Committee on Research of AASHTO. TRB then forms panels of 
experts to issue RFPs, review proposals, select contractors, and 
oversee the research. TRB administers similar programs for transit 
agencies (Transit Cooperative Research Program, since 1991), and 
airports (Airport Cooperative Research Program, since 2005).

            Other Cooperative Research Programs

    SAFETEA-LU authorized two relatively small-scale cooperative 
programs that TRB administers for others. One program, recommended by 
AASHTO, addresses intermodal freight research issues. Another pilot 
program, recommended by an NRC-appointed committee convened at the 
request of USDOT, addresses hazardous materials transportation.\7\ As 
with other cooperative programs, stakeholders provide the governance 
and TRB provides the administration.
---------------------------------------------------------------------------
    \7\ Cooperative Research for Hazardous Materials Transportation, 
Defining the Need, Converging on Solutions. Special Report 283. 
Transportation Research Board of the National Academies, Washington, 
D.C., 2005.
---------------------------------------------------------------------------
    In 2002, an NRC-appointed committee also recommended the creation 
of a Surface Transportation Environment and Planning cooperative 
research program.\8\ The committee that authored that report was 
chaired by Betty Deakin, who is also invited to testify today. A key 
concept behind this proposal was to bring the highway and environmental 
communities together to govern a research program that would use the 
best science and technology to address and resolve some of the 
contentious issues and questions that separate these two 
constituencies. SAFETEA-LU authorized such a program and left it to the 
discretion of USDOT whether to manage it directly or have TRB form a 
stakeholder committee to provide governance of the program. Partly due 
to the funding constraints SAFETEA-LU imposed on USDOT, FHWA chose to 
retain the program, which, nonetheless, does have an extensive outreach 
component.
---------------------------------------------------------------------------
    \8\ Surface Transportation Environmental Research: A Long-term 
Strategy. Special Report 268. Transportation Research Board of the 
National Academies, Washington, D.C., 2002.
---------------------------------------------------------------------------
    The structure of the highway research program appears complicated, 
and it is. The genius of the design, however, is that the programs and 
initiatives are structured for the most part so that they are close to 
the various problems they are designed to address. In principle, the 
various programs provide a portfolio that ranges from highly applied to 
more exploratory research. In the view of many, the balance is not 
quite right, and, for the amount of money being spent, there appear to 
be far too many categories and far too little flexibility to shift 
program priorities in response to new opportunities, such as 
nanotechnology, or emerging needs, such as security and climate change.

FINDINGS AND RECOMMENDATIONS FROM RECENT NRC REPORTS

    Two NRC-appointed committees have recently completed reports that 
address the questions posed by the committee. After summarizing the 
main findings and recommendations of these reports, I respond to the 
Committee's questions more directly.
    Last November the NRC released the RTCC report entitled The Federal 
Investment in Highway Research 2006-2009: Strengths and Weaknesses. 
This report evaluates the federal highway RD&T programs in terms of the 
principles for research that are articulated by Congress in the 
introduction to Title V of SAFETEA-LU. Some of these principles are 
based on recommendations made by the RTCC in is 2001 report, The 
Federal Role in Highway Research. These principles address:

        <bullet>  the scope of the federal RD&T program;

        <bullet>  when federal investment is justified,

        <bullet>  the content of the program, including fundamental, 
        long-term research; gap-filling research; and policy or 
        planning research;

        <bullet>  stakeholder input;

        <bullet>  awarding R&D funds primarily through competition and 
        peer, or merit, review; and

        <bullet>  evaluation of research.

    The main findings of the RTCC are as follows:

        <bullet>  Despite the progress made in overall funding in 
        SAFETEA-LU, highway research programs are significantly under 
        funded compared with the level of R&D investment in private 
        industry. Public and private highway research is funded at only 
        25 percent of the level of industrial R&D in the United States 
        (0.9 percent of highway expenditures compared to 3.4 percent of 
        industrial sales).

        <bullet>  The research programs funded in SAFETEA-LU meet the 
        Title V principles with these main exceptions:

                  Extensive earmarking (62 percent) of the University 
                Transportation (UTC) Program and additional earmarks 
                scattered across FHWA programs (equal to at least 18 
                percent of total funding) violate the SAFETEA-LU 
                principle of awarding research funds according to 
                competition and merit review.

                  The programs funded in SAFETEA-LU do not include all 
                the content areas Congress requested. Due to funding 
                constraints in Title V caused by a considerable number 
                of narrowly-designated programs and earmarking of more 
                programs than were authorized, FHWA was forced to cut 
                important areas of research in safety, operations, 
                planning and environment, and policy. Funding for 
                research and data gathering to support policy decisions 
                was eliminated and funding for planning was greatly 
                reduced. Other areas that are funded, such as 
                deployment and technology transfer, are nonetheless 
                inadequate to the task.\9\
---------------------------------------------------------------------------
    \9\ SAFETEA-LU technical corrections legislation of 2008 restored 
some of FHWA's lost funding and gave the agency discretion over about 
an additional $14 million annually.

                  The 50-50 matching requirement for the UTC program 
                biases this program toward highly applied research and 
                away from advanced research that is one of the main 
---------------------------------------------------------------------------
                rationales for having a university research program.

                  Due to funding constraints, FHWA has inadequate 
                funds to carry through on commitments it has made in 
                its Corporate Master Plan for Research, Deployment and 
                Innovation to engage stake holders more broadly in 
                agenda setting, merit review, and program evaluation.

                  The SHRP 2 program meets all the research 
                principles, but is funded at only one-third the level 
                and for two years less than stakeholders requested. The 
                down-scaled program will not be able to meet all the 
                original goals envisioned.

    The committee also makes several important recommendations.

        1.  To the maximum extent practical, research funding should be 
        awarded through competition and merit review.

        2.  All UTC funds should be awarded to universities 
        competitively. The 50-50 matching requirement for UTC research 
        should be reduced to a 20 percent university match to allow 
        universities to conduct more advanced research.

        3.  The Exploratory Advanced Research program should be 
        continued.

        4.  The State Planning and Research (SP&R) program should be 
        continued.

        5.  Cuts in policy, safety, operations, and planning and 
        environmental research at FHWA should be restored. Funding for 
        research and data gathering to inform policy decisions should 
        be increased to meet pressing national needs. The surface 
        transportation environmental and planning research program 
        should be authorized as a cooperative research program in which 
        the stakeholders are enabled to govern the program. In the 
        planning area, additional funding for expanded data collection 
        and improving regional travel forecasting models should be 
        provided.

        6.  Congress should consider extending the SHRP 2 program for 
        two years into the next authorization and funded under Title I. 
        (Under Title I, the funding would come from states' 
        construction budgets, which they have approved.)

        7.  Other research programs strongly supported by stakeholders 
        responsible for administering highways, such as the Long-Term 
        Pavement Performance Program\10\ and the Long-Term Bridge 
        Performance Program should be continued.
---------------------------------------------------------------------------
    \10\ The recently issued NRC report, Preserving and Maximizing the 
Utility of the Pavement Performance Database, Transportation Research 
Board of the National Academies, February 2009, recommends completing 
the data collection from the 500 or so highway sections of the LTPP 
experiment that will still be providing important information at the 
end of 2009 and establishing a permanent database to allow researchers 
to mine these data and complete the analysis originally envisioned for 
this experiment, which has not been conducted due to funding 
constraints.

        8.  Adequate resources should be provided to FHWA for a robust 
        program for deployment of research results to states, local 
---------------------------------------------------------------------------
        governments, and private vendors.

        9.  Resources should be provided to FHWA to institute a process 
        of ongoing priority setting for highway research that engages 
        the entire highway community. The results of these efforts 
        would inform all highway research programs and improve the 
        ability of all programs to focus efforts on the highest 
        priorities.

    A second NRC committee has recently recommended a deployment 
program that would implement the results of the SHRP 2 program in its 
report, Implementing the Results of the Second Strategic Highway 
Research Program: Saving Lives, Reducing Congestion, Improving Quality 
of Life.
    The committee recommends that a large-scale deployment effort 
totaling $400 million over six years be carried out by FHWA in 
partnership with AASHTO, the National Highway Traffic Safety 
Administration (NHTSA), and TRB. The committee also recommends that:

        <bullet>  this implementation effort be guided by advice from a 
        formal advisory committee made up of key stakeholders who must 
        implement the results from SHRP 2 and

        <bullet>  detailed, publicly-available implementation plans be 
        developed with stakeholder input.

    I include these recommendations of this report because the large-
scale, organized deployment program envisioned provides a model for how 
FHWA should be organizing itself to support the delivery of innovation. 
The RTCC report calls for funding a ``robust'' program of deployment 
and this is certainly an example of a robust program. It has to be. 
Innovation in the highway sector is challenging. The largely public-
sector highway field results in an extremely risk-averse environment. 
The barriers to innovation are high. The procurement of highway goods 
and services is highly detailed and specified as public procurements 
often must be. There are severe penalties for failures and few rewards 
for success. The key concepts of this committee's proposal are its 
guidance by stakeholders, its degree of organization and dedication, 
and the scale of funding necessary to deliver results to overcome the 
barriers to innovation.

RESPONSE TO QUESTIONS POSED BY THE COMMITTEE

1.  How are R&D priorities developed and coordinated within DOT and how 
are they aligned with the needs of the user community? What is your 
assessment of these priorities? Do we need to change any R&D priorities 
to address major challenges such as environmental impact and energy 
consumption?

R&D Priorities

    SAFETEA-LU charged RITA with preparing a multi-modal strategic 
five-year RD&T plan and required that the plan be reviewed by the 
National Research Council. The five-year plan was released in 2006.\11\ 
An NRC committee reviewed this plan and found that it was best 
described as a summary of what research the various modal 
administrations were funding rather than a true strategic plan.\12\ 
There are important reasons why this plan was not truly strategic from 
a top-down perspective. First, the research titles of SAFETEA-LU 
contain numerous narrowly-defined designations and many R&D activities 
are earmarked to specific recipients. These designations and earmarks 
exceed the amount authorized, which effectively removes agency 
discretion in shifting resources to respond to USDOT priorities. 
Second, as a practical matter, most of the needed research identified 
by stakeholders is truly modal in character. Pavements and structures, 
for example, are such a large share of highway agency responsibilities 
and expenditures that it is natural that FHWA would conduct extensive 
research in these areas with an interest and focus not shared by other 
modal administrations. Safety is another important area for FHWA, and 
its areas of highway safety responsibility are well delineated and 
distinct from those of NHTSA and the Federal Motor Carrier Safety 
Administration. Finally, the ability of USDOT to direct or control the 
research programs from a top-down perspective is in a natural tension 
with the efforts of the modal administrations to be responsive to the 
``bottoms up'' needs for research identified by stakeholders. It is 
appropriate for USDOT to set broad goals and objectives for the RD&T 
program, allocate resources according to direction set by Congress, 
support advanced research, and conduct mission-critical research for 
federal regulation and oversight. FHWA should be taking more of a 
leadership role in developing research priorities in concert with the 
entire highway community. Because USDOT is so disconnected from 
responsibilities of actually delivering and operating infrastructure, 
however, the federal RD&T program should be largely driven by 
stakeholders.
---------------------------------------------------------------------------
    \11\ Transportation Research, Development and Technology Strategic 
Plan, 2006-2010. U.S. Department of Transportation, Research and 
Innovative Technology Administration.
    \12\ Committee for the Review of the USDOT Strategic Plan for R&D, 
Letter Report, August 2, 2006. http://www.trb.org/news/
blurb<INF>-</INF>detail.asp?id=6582

Alignment with needs of user community

    The research programs of the modal administrations reach out to 
stakeholders to inform their selection of research priorities and 
projects. As mentioned previously, TRB has expert committees reviewing 
the research programs of FHWA, FTA, and FRA as well as committees of 
experts reviewing the FHWA's pavement research and deployment 
activities and the conduct of the Long-Term Pavement Performance 
experiment. TRB also manages the SHRP 2 research program, which was 
identified and is governed by stakeholders. The FAA has an extensive 
advisory committee structure for its aviation research program.
    The FHWA probably has the most extensive interactions with 
stakeholders, as described in some detail in Chapter 5 of The Federal 
Investment in Highway Research 2006-2009: Strengths and Weaknesses. 
FHWA's different R&D offices for infrastructure, operations, safety, 
and planning and environment have varied outreach efforts to different 
constituencies, including AASHTO committees, Metropolitan Planning 
Organizations (MPOs), industry associations, public-private consortia, 
standing committees of TRB's Technical Activities Division, 
environmental and safety groups, and others. The program and research 
offices have developed multi-year R&D program drawing on stakeholder 
input. Moreover, FHWA has committed to working even more extensively 
with stakeholders in its Corporate Master Plan for Research, Deployment 
and Innovation, although the RTCC notes in its 2008 report that because 
of the constraints in Title V, FHWA has not had the discretionary 
resources to carry out the commitments it made. Despite FHWA's 
extensive and varied outreach to stakeholders, however, it is fair to 
say that FHWA could do more to make these activities more transparent 
to others. Many of the interactions between research and program 
offices and various stakeholder groups are carried out informally. FHWA 
should be communicating via its website the opportunities for 
stakeholders to participate in the shaping of its program, documenting 
the input it has received, and posting its multi-year research program 
roadmaps. FHWA is clearly listening to and working with stakeholder 
groups and most of its R&D programs and initiatives within these 
programs are aligned with stakeholder interests. Because the Federal 
Transit Administration's program is so heavily earmarked, it has 
relatively little discretion over what research it conducts, but its 
research office should be reaching out to the American Public 
Transportation Association and other transit industry stakeholders in 
the ongoing development of its strategic RD&T plan.\13\ Much of the 
Federal Railroad Administration's R&D program is safety-oriented 
research driven by its safety regulatory mission, but it also could be 
more attuned to research the states and passenger and freight rail 
industries would benefit from.\14\
---------------------------------------------------------------------------
    \13\ Transit Research Analysis Committee, Transportation Research 
Board of the National Academies, Letter report of May 4, 2007. 
Washington, D.C. http://onlinepubs.trb.org/onlinepubs/reports/
trac<INF>-</INF>may<INF>-</INF>2007.pdf
    \14\ Committee for the Review of the Federal Railroad 
Administration Research and Development Program, Letter report of April 
29, 2008. Transportation Research Board of the National Academies. 
http://onlinepubs.trb.org/onlinepubs/reports/
frar&d<INF>-</INF>April<INF>-</INF>2008.pdf

Changing Priorities

    The TRB Executive Committee recognized in mid 2008 that the surface 
transportation research proposals for reauthorization being developed 
by various groups were deficient in not recognizing the growing 
importance of reducing transportation greenhouse gas (GHG) emissions 
and energy consumption. TRB has self-initiated studies under way that 
we anticipate will make recommendations to Congress before SAFETEA-LU 
expires regarding research in climate change mitigation and adaptation 
and will identify policy options for reducing transportation energy 
consumption and GHG emissions.
    Despite what I anticipate will be recommendations for dedicated 
research in the areas of climate change and energy conservation, I 
hesitate to recommend cutting existing programs to shift funds to these 
areas. The RTCC report notes that highway research is significantly 
underfunded. The share of annual revenues devoted to highway research 
is only one quarter as large as industry generally and comparable to 
the lowest of the low-technology sectors of industry. But the 
challenges faced in the highway sector are among the most complex and 
important of society. We have a sunk investment in infrastructure worth 
well over a trillion dollars that has to be maintained. We lose more 
than 40,000 people each year in traffic crashes. The motor vehicles 
that use the highway system burn petroleum-based fuels almost 
exclusively and are a main source of our dependence on imported oil. We 
must find a funding mechanism to replace or supplement the gasoline tax 
as the mainstay for funding highway and transit programs. And highways 
are significant sources of negative environmental impact. Because we 
are also so heavily dependent on highways to serve our economy and 
society, the need for innovation to address these problems has never 
been greater.

2.  How would we improve our transportation R&D investment structure?

R&D Investment Structure

    In concept, the portfolio of programs funded through SAFETEA-LU is 
appropriate, but the program is far more detailed than necessary. In an 
ideal world, the programs would mirror FHWA's mission, goals, and 
operational areas (infrastructure, operations, safety, planning and 
environment, and policy) with flexibility for the agency to be 
responsive to new issues and stakeholder input. FHWA's share of Title 
V, Surface Transportation Research and Technology Deployment, has 42 
line items to allocate $130 million, many of these line items are at 
the research project level. Compare that to NSF, which has a budget in 
excess of $6 billion and roughly the same number of line items.
    There are several federally-managed programs funded through Title V 
that are clearly aligned with stakeholder interests; the State programs 
are supported through the State Planning and Research (SP&R) provisions 
in Title I; special initiatives such as the fixed-duration Strategic 
Highway Research Programs have been funded from time to time; and 
support for university-initiated research is provided through the 
University Transportation Centers Program.
    A principal weakness in the portfolio is the scant funding for 
advanced, or longer-term, higher-risk research. The creation of the 
Exploratory Advanced Research Program (EARP) in SAFETA-LU is a step in 
the right direction. In its 2001 report, the RTCC recommended that 25 
percent of the FHWA program be devoted to ``longer-term, higher-risk'' 
research. Applied research is the central element of the federal 
program, and it should be, but it is also incremental in nature. Such 
research is unlikely to result in breakthroughs that can transform 
practice. At present the EAR program represents about six percent of 
FHWA's overall program. It is a good start, but far from the goal the 
RTCC has suggested.\15\
---------------------------------------------------------------------------
    \15\ There are earmarked programs that are addressing, in part, 
advanced research in asphalt. The RTCC, however, recommends that 
advanced research conform to the principles Congress established in 
Title V--that funds be awarded based on competition and merit review of 
proposals by peers.
---------------------------------------------------------------------------
    The RTCC's 2008 report recognizes the role that the UTC program 
could be playing in advanced research. Universities are ideally suited 
for creating new knowledge and understanding, and the UTC program is 
one of the few surface transportation research programs that can fund 
investigator-initiated research. The RTCC finds, however, that the UTC 
program is mostly conducting applied research. A scan of highway 
research projects under way in the UTC program indicates that at least 
80 percent are highly applied.\16\ The RTCC concludes that the dollar-
for-dollar matching requirement of the UTC program drives it toward 
applied research. Most of the providers of matching funds are state 
DOTs, which they typically provide from SP&R funds, and they tend to 
want their SP&R funds devoted to solving the many immediate problems 
they face. An important reform of the UTC program recommended by the 
RTCC is to change the matching requirement to a 20 percent university 
match. This would free up universities to devote more of their 
available funding to the kind of advanced research the program was 
created to conduct in the first place. At the same time, of course, the 
UTCs should be selected competitively, rather than having 62 percent 
earmarked.
---------------------------------------------------------------------------
    \16\ The Federal Investment in Highway Research 2006-2009: 
Strengths and Weaknesses, Special Report 295, Transportation Research 
Board of the National Academies, Washington, D.C., 2008, p. 76.
---------------------------------------------------------------------------
    Another weakness of the structure of the program is the relative 
neglect of policy research. Many important transportation policy 
questions are going uninvestigated because of lack of any funding for 
this purpose, forcing infrastructure owners to make decisions while ill 
informed. This is the kind of research that ought be conducted to guide 
decisions about intermodal investments, such as inter-city passenger 
rail, improved highway access to ports, short-sea shipping, and 
policies to enhance the effectiveness of transit. The lack of policy 
relevant research significantly hampered the work of the two 
commissions Congress created in SAFETEA-LU to advise it on, among other 
things, the future viability of motor fuels taxes to fund highway and 
transit infrastructure. Gaps in knowledge about how sensitive travelers 
are to rising fuel prices and increased congestion, or how freight 
traffic might switch modes for these same reasons, for example, 
undermine confidence in projecting future revenue streams for the 
highway trust fund, which is one of the key policy concerns for 
reauthorization of the highway program in 2009. Policy funding was 
reduced to almost zero as a result of the over-designation and 
earmarking of funds in Title V. Funding that had been about $9-10 
million annually was eliminated. Last year's technical corrections 
legislation helped, but restored but $1 million annually for the Office 
of Policy.
    Much greater emphasis on data collection is also necessary. Being 
able to answer many of the most important policy questions in highway 
transportation requires much better data. Research in the planning area 
to develop the advanced modeling tools needed to meet federal and local 
planning and environmental mandates also require better data. States 
and MPOs rely heavily on the National Household Transportation Survey, 
which was dropped by the Bureau of Transportation Statistics (BTS), 
whose funding was also sharply reduced in S-LU. (Fortunately FHWA and 
other administrations within USDOT have stepped in to provide stop-gap 
funding to maintain this critical survey.) Similarly, improved, and 
more timely, data on freight movements is essential for improved 
planning; the Commodity Flow Survey, which is still part of BTS's 
portfolio but nonetheless underfunded, should be sustained and enhanced 
to meet user requirements.
    Proposals already circulating that address reauthorization of the 
surface transportation program, including the reports of both SAFETEA-
LU commissions, recommend that the federal-aid program become 
performance based. A true system of performance measures will create 
enormous new demand for better data on inventory condition and value, 
real-time system performance, safety, environmental protection, and 
other performance metrics.
    Technology transfer is another area of weakness, as I explain in 
response to Question 3.

3.  How can we improve the transfer of transportation technology from 
the R&D stage to deployment and adoption in the field? As we prepare 
for major investment in infrastructure, how do we ensure that the 
latest proven technologies are utilized?

    Deployment of new technology and practice does not receive the 
attention it deserves. It is important to recognize, however, that FHWA 
does carry out considerable technology transfer activities. FHWA has 
extensive information on its program office web pages about new 
techniques, as well as technical briefings, manuals, and implementation 
guidance. These activities are partially funded with R&D funds. FHWA 
also administers the Local Technical Assistance Program (LTAP) and 
offers training on new technologies and practices through the National 
Highway Institute. FHWA's field offices in every state are also sources 
of information for State practitioners. These activities, however, are 
not sufficient.
    FHWA formerly had resources explicitly devoted to technology 
transfer, which were lost in 1998 in TEA-21, and the office that had 
specialized in this activity was subsequently disbanded.\17\ FHWA then 
allocated technology responsibilities to program offices in concert 
with the office of research and technology, but this responsibility was 
added to other responsibilities of FHWA's existing staff. The barriers 
to innovation, however, are high and the expertise required for 
successful technology transfer requires a strategic plan, dedicated and 
expert staff, and adequate resources to overcome these barriers.\18\ 
The SHRP 2 implementation report provides a model of what is required 
to assist the states in deploying new technologies and practices. In 
addition, the RTCC's report indicates that adoption of innovations may 
require incentives that reduce the risk of trying something new. FHWA 
used to have resources, for example, that would allow 100 percent 
federal funding for implementing promising, but not quite fully proven, 
technologies or techniques.
---------------------------------------------------------------------------
    \17\ Managing Technology Transfer: A Strategy for the Federal 
Highway Administration, Special Report 256, Transportation Research 
Board of the National Academies, Washington, D.C. 1999.
    \18\ Implementing the Results of the Second Strategic Highway 
Research Program: Saving Lives, Reducing Congestion, Improving Quality 
of Life, Chapters 6 and 7.

4.  What are some of the lessons learned from the last reauthorization 
---------------------------------------------------------------------------
of the highway bill (SAFETEA-LU)? What improvements can we make?

    The principles for research articulated in the preamble to Title V 
of SAFETEA-LU are good ones and I hope they will be retained and 
followed. They encourage stakeholder involvement, competitive award of 
funding based upon merit review, advanced research, and a federal 
program that spans the entire innovation process. There are, however, 
too many designated programs and earmarks in SAFETEA-LU that constrain 
FHWA and RITA from carrying out a research programs consistent with 
these principles, reduces funding to core mission activities of FHWA, 
and deny the agencies flexibility in responding to emerging issues and 
the needs of stakeholders.
    In terms of other improvements, I refer back to the committee 
recommendations from the two reports summarized in the previous 
section.

REFERENCES

    All documents are available on TRB's website, TRB.org. Most are 
available as PDF files for download. Congressional staff can receive 
free paper copies upon request.

Committee for the Review of the Federal Railroad Administration 
        Research and Development Program, Letter report of April 29, 
        2008. Transportation Research Board of the National Academies. 
        http://onlinepubs.trb.org/onlinepubs/reports/
        frar&d<INF>-</INF>April<INF>-</INF>2008.pdf

Committee for the Review of the USDOT Strategic Plan for R&D, Letter 
        Report, August 2, 2006. http://www.trb.org/news/
        blurb<INF>-</INF>detail.asp?id=6582

Cooperative Research for Hazardous Materials Transportation, Defining 
        the Need, Converging on Solutions. Special Report 283. 
        Transportation Research Board of the National Academies, 
        Washington, D.C., 2005.

Implementing the Results of the Second Strategic Highway Research 
        Program: Saving Lives, Reducing Congestion, Improving Quality 
        of Life, Special Report 296, Transportation Research Board of 
        the National Academies, Washington, D.C, 2009.

Preserving and Maximizing the Utility of the Pavement Performance 
        Database, Transportation Research Board of the National 
        Academies, Washington, D.C., 2009.

Strategic Highway Research: Saving Lives, Reducing Congestion, 
        Improving Quality of Life, Special Report 260, Transportation 
        Research Board of the National Academies, Washington, D.C. 
        2000.

Surface Transportation Environmental Research: A Long-term Strategy. 
        Special Report 268. Transportation Research Board of the 
        National Academies, Washington, D.C., 2002.

Transit Research Analysis Committee, Transportation Research Board of 
        the National Academies, Letter report of May 4, 2007. 
        Washington, D.C. http://onlinepubs.trb.org/onlinepubs/reports/
        trac<INF>-</INF>may<INF>-</INF>2007.pdf

The Federal Investment in Highway Research 2006-2009: Strengths and 
        Weaknesses, Special Report 295, Transportation Research Board 
        of the National Academies, Washington, D.C., 2008.

The Federal Role in Highway Research and Technology, Special Report 
        261, Transportation Research Board of the National Academies, 
        Washington, D.C. 2001.

                  Biography for Robert E. Skinner, Jr.
    Robert Skinner has been the Executive Director of the 
Transportation Research Board (TRB) of the National Academies since 
1994. TRB is a non-profit organization that promotes transportation 
innovation by sponsoring professional meetings and publications, 
administering applied research programs, and conducting policy studies. 
It serves as an independent adviser to the Federal Government and 
others on scientific and technical questions of national importance.
    Prior to becoming Executive Director, Mr. Skinner directed TRB's 
policy study activities. Before joining TRB in 1983, Mr. Skinner was a 
Vice President of Alan M. Voorhees and Associates, a transportation 
consulting firm.
    Mr. Skinner recently served on the Metrolink (Los Angeles) Commuter 
Rail Safety Review Panel and chaired the Special Advisory Panel for the 
Stem-to-Stern Safety Review of the Boston Central Artery/Tunnel 
Project. In addition it serves on a number of university and research 
advisory groups including the Board of Trustees for the School of 
Engineering and Applied Sciences at the University of Virginia, the 
Advisory Board for the Center for Urban Transportation Research at the 
University of South Florida, the External Review Committee for the MIT-
Portugal Project, and the Advisory Board for the School of Public 
Policy at George Mason University.
    Mr. Skinner earned his Bachelor's degree in civil engineering from 
the University of Virginia and received a Master's degree in civil 
engineering from the Massachusetts Institute of Technology. A 
registered professional engineer, Mr. Skinner received the James Laurie 
Prize from the American Society of Civil Engineers in 2003.

    Chair Wu. Thank you very much, Mr. Skinner.
    Mr. Wise.

   STATEMENT OF MR. DAVID J. WISE, ACTING DIRECTOR, PHYSICAL 
  INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wise. Chair Wu, Ranking Member Smith, and Members of 
the Subcommittee, thank you for the opportunity to discuss 
research and development and technology coordination and 
evaluation at the Department of Transportation. RD&T (Research, 
Development, and Technology) activities are vital to meeting 
DOT's transportation priorities such as increasing safety, 
enhancing mobility, and supporting the Nation's economic 
growth.
    DOT's budget in this area totaled about $1.1 billion in 
fiscal year 2008, primarily for projects undertaken by the 
Federal Highway Administration and the Federal Aviation 
Administration (FAA). Over the years we and others have raised 
concerns about DOT's capacity to improve RD&T coordination and 
evaluation across the agency. As a result, in 2004, Congress 
created the Research and Innovative Technology Administration, 
RITA.
    My testimony has two parts. I will discuss, one, the 
importance of coordinating and evaluating RD&T to ensure 
federal dollars are used effectively and efficiently, and two, 
the progress RITA has made implementing the seven 
recommendations in our 2006 report on coordination and 
evaluation of transportation and research at DOT.
    On the first point, in today's environment of expected 
trillion dollar deficits and stimulus spending, the need for 
careful RD&T decisions is more critical than ever. Coordinating 
and evaluating research are key elements to federal stewardship 
of taxpayers' money. The Committee on Science Engineering and 
Public Policy, a joint committee under the auspices of the 
National Academies of Science, has recommended a formal 
research coordination process to enhance collaboration, explore 
research questions, and reduce inefficiencies.
    In addition, the committee notes that evaluating the 
agency's research against established performance measures 
helps assess research quality and achieve agency goals.
    In the same vein, the Government Performance and Results 
Act (GPRA) of 1993 requires federal agencies to set performance 
goals and measure performance against those goals to ensure the 
effectiveness of federal investments. GPRA's emphasis on 
results suggests that federal programs contributing to the same 
or similar outcomes should be closely coordinated to ensure the 
goals are consistent and complimentary and that program efforts 
are mutually reinforcing.
    On the second point, while we have not performed new 
assessments of RITA since our 2006 report, we have tracked the 
seven recommendations from that report. These seven 
recommendations are summarized in the table on pages three and 
four of my written statement.
    RITA has implemented five of the recommendations aimed at 
preventing duplication of research efforts, ensuring research 
is evaluated in accordance with established best practices, 
establishing database systems to inventory and track research, 
communicating research evaluation efforts to Congress, and 
documenting the process for evaluating the results of multi-
modal research programs. RITA has implemented a strategy 
consisting of ongoing internal reviews to coordinate RD&T 
activities and look for areas where joint efforts would be 
appropriate.
    RITA has partially implemented the two other 
recommendations directing it to develop performance goals and 
overall implementation strategy, an evaluation plan, and 
performance measures. As a result, it is still a challenge for 
RITA to determine its relative success overseeing the 
effectiveness of RD&T activities.
    In conclusion, since becoming operational in 2005, RITA has 
made progress towards becoming a DOT-wide resource for managing 
and determining effectiveness of RD&T activities. We will 
continue to monitor RITA's efforts to implement our two open 
recommendations. We look forward to assisting Congress as it 
considers RITA's activities during the reauthorization process.
    Mr. Chair, this concludes my statement. I would be pleased 
to answer any questions you or Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Wise follows:]
                  Prepared Statement of David J. Wise

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to participate in this hearing on the 
Department of Transportation's (DOT) research, development, and 
technology (RD&T) activities. RD&T activities are vital to meeting 
DOT's transportation priorities, such as increasing safety, enhancing 
mobility, and supporting the Nation's economic growth. In fiscal year 
2008, the department's RD&T budget totaled over $1.1 billion, primarily 
for projects undertaken by DOT's Federal Highway Administration and 
Federal Aviation Administration. Coordinating RD&T throughout DOT and 
reviewing it to make sure that it is evaluated is important to ensure 
the efficiency and effectiveness of RD&T investment.
    Over the years, we and others have raised concerns about DOT's 
capabilities for improving RD&T coordination and evaluation across the 
agency.\1\ In part to ameliorate those concerns, in 2004 Congress 
created the Research and Innovative Technology Administration 
(RITA).\2\ RITA is responsible for coordinating, facilitating, and 
reviewing the department's RD&T programs and activities to identify 
research duplication and opportunities for joint efforts and to ensure 
RD&T activities are meeting intended or other goals. These include 
activities conducted by DOT's operating administrations as well as 
other RD&T and statistical programs managed by RITA (e.g., the Bureau 
of Transportation Statistics and University Transportation Centers). 
RITA carries out its responsibilities through multiple groups and 
actions, including its two coordinating bodies--the RD&T Planning 
Council and Planning Team--and budget reviews. While RITA has DOT-wide 
responsibilities, it does not have the authority to direct changes in 
the operating administrations' RD&T activities. In 2006, we reported on 
RITA's progress in overseeing RD&T activities and made seven 
recommendations to enhance RITA's ability to manage and ensure the 
effectiveness of these activities.\3\
---------------------------------------------------------------------------
    \1\ GAO, Transportation Research: Actions Needed to Improve 
Coordination and Evaluation of Research, GAO-03-500 (Washington, D.C.: 
May 1, 2003).
    \2\ The Norman Y. Mineta Research and Special Programs Improvement 
Act of 2004, which also dissolved RITA's predecessor administration, 
the Research and Special Programs Administration.
    \3\ GAO, Transportation Research: Opportunities for Improving the 
Oversight of DOT's Research Programs and User Satisfaction with 
Transportation Statistics, GAO-06-917 (Washington, D.C.: Aug. 15, 
2006).
---------------------------------------------------------------------------
    My testimony today addresses the importance of coordinating and 
evaluating RD&T so that federal dollars are used efficiently and 
effectively, as well as RITA's progress in implementing our 2006 
recommendations. It is based primarily on our 2006 report, a review of 
best practices for coordination and evaluation, and follow-up 
discussions with RITA officials on actions taken on our 
recommendations. We have not assessed whether RITA's actions have 
improved the effectiveness of the department's RD&T investment since 
our 2006 report. We conducted this work in January and February 2009 in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Coordination and Evaluation of RD&T Activities Help Promote Efficient 
                    and Effective Use of Federal Research Funds

    Coordinating and evaluating research are important elements in 
ensuring federal dollars are used efficiently and effectively. RITA is 
responsible for coordinating and reviewing the DOT operating 
administrations' RD&T activities so that (1) no unnecessary duplication 
takes place and (2) the activities have been evaluated in accordance 
with best practices. The Committee on Science, Engineering, and Public 
Policy--a joint committee of the National Academy of Sciences, the 
National Academy of Engineering, and the Institute of Medicine--has 
emphasized the importance of careful coordination and focused 
evaluation of federal research and developed principles to help 
agencies evaluate their research programs.\4\ The committee recommended 
establishing a formal process to coordinate research across agencies. 
While this recommendation is focused on cross-agency research, the 
goals--enhancing collaboration, ensuring that questions are explored, 
and reducing inefficiencies--are important and applicable within 
agencies as well. Coordination of research ensures that information is 
shared so that, if necessary, research can be adjusted to ensure a 
field is appropriately covered and understood. In addition, the 
committee noted that evaluating research against established 
performance measures in agency strategic plans, developing measures 
that are appropriate for the type of research being developed, and 
using expert reviews aid in assessing the quality of the research.
---------------------------------------------------------------------------
    \4\ Committee on Science, Engineering, and Public Policy, 
Evaluating Federal Research Programs: Research and the Government 
Performance and Results Act (Washington, D.C.: February 1999).
---------------------------------------------------------------------------
    Relatedly, the Government Performance and Results Act of 1993 
(GPRA) requires federal agencies to set performance goals and measure 
performance against those goals to ensure the effectiveness of federal 
investments. GPRA's emphasis on results implies that federal programs 
contributing to the same or similar outcomes should be closely 
coordinated to ensure that goals are consistent and complementary, and 
that program efforts are mutually reinforcing.
    Making appropriate and cost-effective investment choices is an 
essential aspect of responsible fiscal stewardship. Such choices are 
even more important in today's climate of expected trillion-dollar 
deficits. Careful decisions will need to be made to ensure that RD&T 
activities achieve their intended (or other) purposes and do so 
efficiently and economically.

RITA Has Made Progress in Improving Its Coordination, Review, and 
                    Performance Measurement of DOT's RD&T Programs

    In 2006, we made seven recommendations to enhance RITA's ability to 
manage and ensure the effectiveness of RD&T activities, including 
developing strategies for coordinating and reviewing RD&T activities 
and developing performance goals and measures. (See Table 1.) RITA has 
implemented five of our recommendations and is making progress on 
implementing the remaining two.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


RITA Implemented a Coordination and Review Strategy, Developed a DOT-
                    wide Database of RD&T Activities, and Communicated 
                    Results of Evaluations

Preventing duplication of effort. In response to our recommendation, 
RITA developed a strategy to ensure that no unnecessary duplication of 
research programs occurs within the department, incorporated the 
results into various high-level DOT planning documents, and reported 
the results in its strategic plan. RITA's strategy consists of ongoing 
internal reviews of all of DOT's research programs. These reviews are 
conducted by (1) convening meetings in which officials from each of the 
operating administrations share information about areas of ongoing and 
planned research, seeking opportunities for joint effort, and (2) 
conducting annual reviews of each operating administration's research 
plans, looking for research duplication, among other things. In 
addition, RITA has formed eight working groups, in concert with DOT's 
operating administrations, to foster collaboration on cross-modal 
issues. According to a RITA official, results of these reviews have 
identified several areas for cross-modal collaboration, including 
climate change, freight capacity, security, alternative energy 
technologies, and advanced materials and sensors. According to RITA 
officials, as a result of these actions, RITA is better able to meet 
legislative and DOT requirements for coordinating its research, 
leverage resources for cross-modal research initiatives, and prevent 
unnecessary research duplication.

Following best practices. RITA also developed a strategy to ensure that 
the results of all DOT's research activities are evaluated according to 
established best practices. The strategy includes three primary 
mechanisms: (1) ensuring systematic application of the Office of 
Management and Budget's Research and Development Investment Criteria 
(relevance, quality, and performance) and the Program Assessment Rating 
Tool by the operating administrations;\5\ (2) annual internal program 
reviews with self-reporting by the operating administrations; and (3) 
documenting the operating administrations' external stakeholder 
coordination and review. According to RITA, reviews conducted in fiscal 
years 2007 and 2008 focused on how well the operating administrations 
are implementing best practices, including external stakeholder 
involvement, merit review of competitive proposals, independent expert 
review, research performance measures, and external research 
coordination. RITA reports the results of its reviews to the 
department's RD&T Planning Council, which consists of administrators 
from each of the operating administrations, including RITA, and 
officials from DOT's Office of the Secretary. According to RITA 
officials, as a result of these efforts, RITA is better able to 
determine the quality and effectiveness of its research activities and 
investments and determine whether they are achieving their intended (or 
other) goals.
---------------------------------------------------------------------------
    \5\ According to the Office of Management and Budget, these 
criteria are rooted in best practices and include peer review as a 
mechanism for assessing program quality. The Program Assessment Rating 
Tool was developed to assess and improve program performance to inform 
funding and management decisions. It consists of a series of questions 
covering program purpose and design; performance measurement, 
evaluations, and strategic planning; program management; and program 
results.

Establishing RD&T project databases. RITA created two database systems 
to inventory and track all of DOT's research activities and provide 
tools for querying and searching individual projects to identify 
potential duplication and areas where operating administrations could 
collaborate. The first database, the RITA Research Notification System, 
captures research investments at the transaction level, allowing users 
to search by activity, contracts and grants, and contractor names, 
enabling identification of funded programs for coordination, 
collaboration and review. The second database is part of the annual 
Research Planning and Investment Coordination (RPIC) process, which 
captures research at the budget request level, allowing for department-
wide transparency and coordination of proposed programs and projects. 
According to a RITA official, eventual combination of the two databases 
will offer a mechanism for measuring and tracking investments from 
---------------------------------------------------------------------------
request through funding and execution.

Communicating evaluation efforts. To communicate its efforts in 
evaluating DOT's research to Congress, senior DOT officials, and the 
transportation community, RITA and its predecessor organization 
published a summary of all research program evaluations for 2004 
through 2006 and included that summary in a high-level DOT planning 
document and in a report to Congress. First, RITA's predecessor 
published what was essentially a summary of all research program 
evaluations conducted in fiscal year 2004--in the form of a summary of 
the results of its review of the operating administrations' application 
of the Office of Management and Budget's Research and Development 
Investment Criteria--in its 2005 annual RD&T plan. Secondly, RITA 
developed a summary of the results of its fiscal year 2005 and 2006 
research program reviews, and a schedule of RITA's planned fiscal year 
2007 reviews, and included it in DOT's ``Research, Development and 
Technology Annual Funding Fiscal Years 2006-2008, A Report to 
Congress.'' This report also includes summaries of research program 
evaluations conducted by modal research advisory committees, the 
Transportation Research Board, and key modal stakeholders in fiscal 
years 2006 and 2007. According to RITA officials, as a result of this 
reporting, RITA has provided better continuity and context to Congress 
and the transportation community about the results of its research 
evaluations.

Documenting processes. RITA has also acted to document its process for 
systematically evaluating the results of its own multi-modal research 
programs, such as the Hydrogen Safety Program and various grant 
programs. RITA evaluates the results of its RD&T activities by ensuring 
they align with DOT goals, meet the research and development investment 
criteria, and are subject to an annual peer review process. RITA has 
documented this process in its strategic plan.

RITA Has Not Yet Developed an Overall Implementing Strategy, Evaluation 
                    Plan, or Performance Measures

Establishing performance goals. In 2006, we found that RITA lacked 
performance goals and an implementing strategy and evaluation plan to 
delineate how the activities and results of its coordination, 
facilitation, and review practices will further DOT's mission and 
ensure the effectiveness of the department's RD&T investment. RITA has 
partially implemented our recommendation that it develop these 
elements. Setting meaningful goals for performance, and using 
performance information to measure performance against those goals, is 
consistent with requirements in GPRA. Developing an evaluation plan and 
analyzing performance information against set goals for its own 
coordination, facilitation, and review practices could assist RITA in 
identifying any problem areas and taking corrective actions.\6\ Linking 
performance goals with the planning and budget process, such as DOT's 
annual budget process, can also help RITA determine where to target its 
resources to improve performance.\7\ Guidance provided by the Committee 
on Science, Engineering, and Public Policy notes that evaluating the 
performance of research in the context of the strategic planning 
process ensures the research is relevant to the agency's mission.\8\ 
Without such goals and an evaluation plan, it is difficult for RITA to 
determine its success in overseeing the effectiveness of DOT's RD&T 
activities.
---------------------------------------------------------------------------
    \6\ Use of performance goals can help ensure that programs are 
meeting their intended goals, allows programs to assess the efficiency 
of their processes, and promotes continuous improvement. Where 
activities may be fragmented or overlap, performance information can 
also help identify performance variations and redundancies and lay the 
foundation for improved coordination, program consolidation, or 
elimination of unneeded programs. GAO, Managing for Results: Using the 
Results Act to Address Mission Fragmentation and Program Overlap, AIMD-
97-146 (Washington, D.C.: Aug. 29, 1997).
    \7\ GAO, Managing for Results: Enhancing Agency Use of Performance 
Information for Management Decision-making, GAO-05-927 (Washington, 
D.C.: Sept. 9, 2005).
    \8\ Committee on Science, Engineering, and Public Policy, 
Evaluating Federal Research Programs: Research and the Government 
Performance and Results Act (Washington, D.C.: February 1999), 37-38.
---------------------------------------------------------------------------
    According to RITA officials, while an overall implementing strategy 
and evaluation plan has not yet been established, RITA has created 
performance goals. A RITA official told us that the RPIC process--a 
relatively new process that integrates the budget and strategic 
planning processes--will help in creating an implementing strategy. The 
RPIC process is meant to provide information to the Planning Council 
and Planning Team, which is responsible for defining the department's 
overall RD&T strategic objectives. The RPIC process assesses the 
department's RD&T activities in terms of the following performance 
goals: (1) balanced portfolio (e.g., mix of basic, applied, 
developmental, and high risk RD&T), (2) alignment of RD&T programs with 
DOT goals and each operating administration's mission, and (3) return 
on investment. The RPIC process has been in place only for fiscal year 
2009, and as a result, the Planning Council does not yet have the 
information needed to make decisions about a strategy. In addition, 
RITA does not yet have an evaluation plan to monitor and evaluate 
whether it is achieving its goals. A RITA official told us that the 
RPIC process needs to be in place for two or three fiscal years before 
it can provide enough information for RITA to establish a strategy or 
evaluation plan.

Developing performance measures. In 2006, we also found that RITA did 
not work with the operating administrations to develop common 
performance measures for DOT's RD&T activities. According to RITA 
officials, RITA has partially implemented our recommendation that it do 
so. Without common performance measures for the RD&T activities of the 
operating administrations, RITA and the operating administrations lack 
the means to monitor and evaluate the collective results of those 
activities and determine that they are achieving their intended (or 
other) results and furthering DOT-wide priorities. In response to our 
recommendation, RITA officials told us that they are working with the 
operating administrations through the RD&T Planning Team--made up of 
senior officials in RITA and each of the operating administrations. 
During Planning Team meetings, representatives from each of the 
operating administrations share information about how RD&T projects are 
measured and prioritized. For example, according to a RITA official, 
the Federal Railroad Administration measures how frequently its RD&T 
projects are used in real-world applications. Once representatives from 
each operating administration have had the chance to share information, 
RITA officials will then look for commonalities and determine whether 
any of the measures could be adopted for the department's RD&T 
activities.
    In closing, since it became operational in 2005, RITA has taken a 
number of positive steps to meet its vision of becoming a DOT-wide 
resource for managing and ensuring the effectiveness of RD&T 
activities. While we have not assessed the effectiveness of these 
efforts since our 2006 report, we believe that RITA has made progress. 
We will continue to monitor RITA's performance in implementing our 
recommendations. As reauthorization approaches, we look forward to 
assisting Congress as it considers RITA's management of DOT's research 
program, to better ensure that taxpayers receive the maximum value for 
DOT's RD&T investment.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other Members of the 
Subcommittee might have.

                      Biography for David J. Wise

    Dave Wise began his career with GAO in 1981. He worked at GAO until 
1991, including a four year tour in GAO's former Far East Office in 
Honolulu, Hawaii. Dave then moved to the Department of State's Office 
of Inspector General, where he specialized in reviews of consular and 
international programs, with a focus on counter-narcotics. In 2000, 
Dave became a Foreign Service Officer, serving tours as (1) political 
officer/narcotics coordinator in Hanoi, Vietnam; (2) Director, 
Narcotics Affairs Section, Vientiane, Laos; and (2) political advisor, 
Provincial Reconstruction Team, Helmand Province, Afghanistan.
    Dave returned to GAO as a Senior Executive Service candidate in 
September 2007, where he is working with GAO's Physical Infrastructure 
team on surface transportation, communications, and real property 
issues.
    Dave has a BA in political science from the University of 
Pittsburgh and an MA in public administration from Pitt's Graduate 
School of Public and International Affairs.

                               Discussion

    Chair Wu. Thank you very much, Mr. Wise, and now we will 
open for our first round of questions, and I recognize myself 
for five minutes.
    Mr. Brubaker, you referred to some of the challenges that 
you faced as head of RITA, and Mr. Wise, you have--you and your 
organization have performed a lot of analysis on RITA's 
functions. There has been some reference to RITA's 
responsibilities versus its authority to implement what it is 
responsible for.
    Mr. Brubaker, would you care to expand on your experiences 
in facing the frustrations of that, and Mr. Wise, if you would 
care to join in or any other of the panelists.
    Mr. Brubaker. Sure. You know, I said sometimes being at 
RITA I sort of felt like John Belushi in the movie ``Animal 
House'' where he runs out of the room, and he says, ``Let's do 
it,'' and nobody follows him. That is kind of how it felt 
dealing with some of the cultural obstacles that we faced in 
the Department.
    We do have, frankly, the responsibility and the authority. 
The legislative authority is very clear about what we are 
supposed to do. What we ran into were some cultural obstacles 
to change, and I have got to tell you, I am kind of shocked, 
and GAO is used to getting criticized sometimes, and they are 
going to feel weird because I am a little critical that we 
actually met five of their open--their recommendations of the 
seven and partially achieved two of them. I would strongly 
suggest they go back and really take a hard look at all seven 
of those vis-a-vis RITA and see really the--and make a judgment 
on the efficacy of how we responded because----
    Chair Wu. So you are actually saying GAO might have been 
too generous.
    Mr. Brubaker. I think they were, frankly. There are, I 
mean, they may not have reviewed, we may have just done a 
really good job of responding to the open recs or something, 
but the reality from my perspective was there was just so much 
more we could have done from a select control evaluate 
perspective of the research portfolio. But we ran into every 
mode sort of wanting to play hide the ball and protect their 
existing portfolio of research. It made it very, very difficult 
to ensure that the underlying research was strategically 
relevant.
    Now, we did, like I said in my opening testimony, we did 
achieve a level of transparency. We know what the underlying 
research projects are, but we have made no value judgment 
relative to how they fit in the overall strategic direction. Do 
they plug in nicely to the strategic buckets that are described 
in the strategic plan? Yeah. We were able to force-fit most of 
that research, but the grim reality in my perspective is that 
we weren't particularly effective at creating a process by 
which we could actually control the research through its 
execution and then evaluate it in terms of outcomes.
    Chair Wu. What mechanisms do you think RITA needs to 
implement, to achieve that?
    Mr. Brubaker. It is like my good friend, Lieutenant General 
Bob Shay always used to say. At the end of the day it comes 
down to leadership. I think there is a leadership issue where 
the, you know, you have got to have strong leadership in the 
RITA position, you have got to have accepting leadership among 
the modes, you have got to have strong leadership at OSC 
(Office of Special Counsel) where the Secretary says thy will 
be done, to push the authorities and to ensure that the 
authorities are actually executed.
    At the same time, I think there are some structural things 
that are missing. Like I said, the National Transportation 
Research Agenda. I don't see that. You know, we have got this 
RD&T Strategic Plan, and frankly, again, the first pass at it 
was a force-fit of all the existing research into the strategic 
plan of the Department. It didn't really reflect a strategic 
direction or a very good alignment of research, the research 
portfolio to achieving the objectives of the Department. That 
is what has got to happen, but it has got to be broader than 
the objectives of the Department. It has got to take into 
account stakeholders, universities, users, economic development 
people, because the transportation infrastructure is so 
critical to the economic health and well-being of this nation.
    We saw it over the summer when fuel prices went up, you 
know, astronomically. We saw the impact that that had, and 
frankly, I think we are still feeling the effects of that 
increase. What would have been great had, if we would have had 
the data and the research capacity to do modeling and 
simulation and be able to understand the impact that that would 
have on the supply chain, on modal choices, and ensure that we 
were responding appropriately. And we just simply didn't have 
that knowledge because we have never laid it out that that is 
strategically important.
    Chair Wu. Mr. Wise, I want to give you a cut at it, and a 
couple of you also referred to cultural issues in research. I 
want to finish up that--with that--and I will also announce 
from the Chair that it is my intention to use a soft gavel on 
this hearing since there are only three of us here, but there 
will be a gavel, but please proceed with a set of answers about 
this topic and the cultural issues. And then we will proceed to 
Mr. Smith.
    Mr. Wise.
    Mr. Wise. Thank you, Mr. Chair. Also thanks to Mr. Brubaker 
for his frank opinions and interest in the GAO report from 
2006. I think it is important to make a point that when we did 
this work, which is now probably just over--about four years 
ago, RITA had just stood up. It was a new organization, and 
essentially we were looking, it had just taken the place, after 
the Mineta Act of the, of RSPA (Research and Special Projects 
Agency). And we were basically looking to see that processes 
were in place to do the mission that it was set up to do.
    Quite frankly, we have not been, other than following up on 
the recommendations that indicated these processes are in 
place, we have not really done a formal assessment to go back 
and see how well the organization is actually carrying out all 
its responsibilities. That is something that if the Committee 
were interested that maybe would be a useful project as the 
Committee sees fit.
    So in that respect it is difficult to give a learned 
assessment of how well RITA is doing, because it really wasn't 
the focus of what we did in that 2005/2006 work.
    Chair Wu. And before we finish, anyone who wishes to 
address the inertia or the cultural issues, and I heard that 
mentioned by more than one witness.
    Dr. Deakin, please.
    Dr. Deakin. It seems to me that the cultural issue is 
really very serious, actually, and we have organizations that 
are modeled in many cases for building the interstate highway 
system, and they haven't really changed the organizational 
structure much since. They are very hierarchical. They are 
rather slow in being able to respond to things. They are pretty 
top-down. That is not true across the board. Some agencies have 
actually tried to innovate the organization structure, but it 
is pretty true for a lot of these agencies, and there isn't any 
real incentive for change, partly because there is no outcome 
focus in the legislation and partly because there is no outcome 
focus in the State legislation saying you have to show what you 
are actually producing in terms of cost effectiveness of the 
investments, producing outcomes like economic prosperity, lower 
costs for users, environmental quality improvements that you 
can measure and demonstrate, greenhouse gas reductions, more 
equity in your system. We could give them those kinds of 
mandates and say we want reports to come back and tell us what 
these are going to look like, and we haven't really done that.
    Now, Congress did that with reports on the state of 
infrastructure some years ago, and it took awhile for all the 
states to get used to having to collect it and report it. They 
didn't always do it well, but gradually they all got so they 
were reporting these data, and those data have been very 
useful. So, again, giving them a mandate and saying, do this, 
let the best states do what they are already doing, and it 
gives everybody else a push. Everybody does better, and you 
actually could measure outcomes and not just dollars spent and, 
you know, what is being turned over but see what we are 
actually accomplishing with these investments.
    So I think Congress could take leadership on giving us some 
clear mandates to show what we are producing. Thank you.
    Chair Wu. Mr. Skinner, if you----
    Mr. Skinner. Just very briefly. I think Dr. Deakin is 
correct in relating----
    Chair Wu. Microphone.
    Mr. Skinner. Excuse me. I think Dr. Deakin is correct in 
relating the cultural challenges to the institutional 
challenges that we have, and one could imagine an institutional 
arrangement that is not nearly so decentralized without so many 
thousands of players who are--who own our transportation 
system. We could imagine that, and we might think that it would 
be more effective, not only for research but for managing and 
operating our transportation system.
    And that may be true, and that is a big question. But from 
the research perspective, research is unlikely to drive that 
change in the institutional arrangements. And so the research 
community is confronted with this enormous technology transfer 
challenge, and so this, the question of stakeholders and how to 
involve them and how to have them meaningfully connected to the 
products--and connected so that when products come out they are 
all ready, the skids are already greased for them to implement 
and try these products, that is a critical feature of any 
strategic approach to R&D and surface transportation.
    Chair Wu. Thank you very much, Mr. Skinner. We may return 
momentarily to these cultural issues before we move onto some 
of the output and matrix sides, and meanwhile, I want to 
recognize other Members of the panel, particularly Mr. Smith, 
who has been very forbearing in permitting this series of 
answers be completed.
    Mr. Smith.
    Mr. Smith. Thank you. I--this is all very interesting, 
especially as a relatively new Member to listen to the various 
challenges, and I appreciate your willingness to tackle these. 
And I think it speaks to kind of the largeness of the issue, 
the complication of the issues, not even to mention funding, 
that, funding of research, and then funding of carrying out 
that research in a useful manner. And in a way that leverages 
other opportunities.
    I know that we had some controversy in Nebraska when the 
director or, well, when a person said that the Department of 
Roads in Nebraska really wasn't in the economic development 
business. And you can imagine that there was some resistance to 
that statement and for good reason. And when I look at the 
various issues, whether it is the energy issue of our vehicles, 
we have much different issues in rural America than urban, 
wherein urban America we subsidize less vehicle travel and 
virtually in rural America we subsidize more vehicle travel 
with various roads and systems.
    A hybrid, for example, the benefits are less meaningful 
when a commute is done at 65 miles an hour or maybe a few more 
miles per hour on the way to work and home. So the benefits are 
certainly less. So we--I think we need to allow some 
flexibility.
    That being said, Dr. Deakin, if you would perhaps point to 
maybe a specific research project that you could identify where 
many of the obstacles that have been mentioned here have taken 
place, maybe how you would change things but maybe a specific 
project as tangible as possible, if you could elaborate.
    Dr. Deakin. Yeah. I would be glad to. The project that was 
mentioned by several people at our research was the 
installation of call boxes along part of the freeway system in 
Northern California at a time when wireless technology, cell 
phones, were proliferating already, and the call boxes I think 
had a useful life of about 15 minutes--a very, very short 
period because by the time they were actually out there along 
the road, most people were already using cell phones.
    So it really wasn't paying attention to market. The project 
got put in a pipeline and pushed through because the money was 
there, it had been allocated, and you know, you get in a 
program or projects. But it wasn't an effective investment of 
the funds.
    That is a situation where I think that the remedy is pretty 
obvious. If there had been more discussion with the cell phone 
companies about the technologies they were developing--and we 
were sitting right there with Silicon Valley people who know 
about marketing for these things.
    I disagree a little bit with Bob Skinner. I think there is 
a lot of research on how to change institutions, done by 
business schools, not in transportation institutions 
necessarily, but making those connections could happen.
    I think there are opportunities to begin to think about how 
to really bring private marketing, private knowledge about 
markets and also university research on institutional change 
and markets into play much more than we have, and that is how I 
would fix that kind of a problem.
    Mr. Smith. Okay. Thank you. That is a perfect example. I 
appreciate hearing that.
    In, even in places other than Nebraska, I am sure, we have 
what I think is a response to gridlock that is very reactive in 
nature. It is kind of like, well, let us wait for the problem 
to form and then we will solve it.
    I guess, Mr. Brubaker, if you wouldn't mind responding to 
how we could get beyond that, what obstacles you currently see 
in place. I know it is going to be funding, you know, a part of 
that, but, again, I would say with the funding issue, I mean, 
the more successful we are with conservation measures when we 
fund our roads with a per-gallon fuel tax and there are fewer 
gallons being used but yet more vehicles, more tires on the 
road, wheels on the road, that is not a sustainable formula. If 
you could respond.
    Mr. Brubaker. Sure. I just, you know, at the end of the 
day, yeah. Everything winds up being a resource issue, but it 
could be a resource allocation issue of existing resources to 
solve things like congestion or, for example, I mean, you heard 
Bob Skinner mention, you know, $400 million unencumbered for 
SHRP. Well, you know, that is all fine and good, but is the 
$400 million better spent in some other areas, like, for 
example, congestion mitigation, for example, rural safety 
research that involves more than just roads. It can involve 
some other things. It can involve some behaviors, human factors 
stuff.
    It is not all about the hockey pucks. I mean, you know, 
the--sorry--the concrete research. I mean, I am all about, you 
know, it is great to have different types of asphalt and 
appreciate all the geographic disparity and the reasons to 
better understand and spend money on research for concrete and 
asphalt, but, you know, we have got to kick it up a higher 
level and look at this more holistically like you say in terms 
of, you know, what we can do and where we are best spending 
that limited resource that we already have before you start 
talking about more money.
    Mr. Smith. Okay. Anyone else wish to respond.
    Mr. Skinner.
    Mr. Skinner. Let me just, since it was mentioned, the 
Strategic Highway Research Program implementation effort is not 
directed at concrete and asphalt research. It is a large-scale 
safety accident causation project, and a large project aimed at 
renewing our highways in a more accelerated manner with less 
disruption, longer-lasting afterwards. Another piece is dealing 
with non-recurring congestion incidents and the like and 
figuring out ways to reduce that element of congestion. And 
another piece that is oriented towards planning and environment 
is looking to streamline ways to plan for new capacity in a 
more environmentally-sensitive and community-sensitive manner.
    I think all those things would fit within strategic 
objectives that one would come up with for the Department as a 
whole and our transportation system.
    Mr. Smith. Okay. Thank you. I will have more questions 
later.
    Chair Wu. Thank you, Mr. Smith.
    Mr. Lipinski. Please proceed.
    Mr. Lipinski. Thank you, Mr. Chair, and thank you for 
holding this hearing early on. I know that this is an issue 
that is really very important to me being not only on the 
Science and Technology Committee but also on the Transportation 
Committee. I also have a background in engineering. I studied 
something called engineering economic systems, which was what 
it used to be called at Stanford, but there is a lot of 
operations research, optimization, all kinds of puzzles trying 
to--we worked on trying to solve, trying to give us the skills 
to solve these puzzles, which really relate very well here when 
talking about transportation.
    There are, you know, endless possible goals that we could 
have, and I think it is very important that we are here talking 
about what these are. I mean, are we just going after, you 
know, trying to lessen the traffic congestion? Are we trying to 
cut down on fuel usage? Are we trying to make the roads safer? 
Then other questions of, you know, talking, besides talking 
about roads, are we talking about rail? What about just general 
inter-modal, you know, transportation and not just for people 
but also for freight.
    And you can get into endless questions here, which--and we 
could so much better, I think, be using our transportation 
system that we have and planning our transportation system if 
we really got our hands around some of these issues.
    And I am very happy to be here in the Science and 
Technology Committee and hear a witness talk about how 
crucial--Mr. Brubaker did--how crucial transportation is to the 
economy. I hear that all the time in the Transportation 
Infrastructure Committee but not oftentimes here. So it is good 
to hear that here.
    So I just wanted to--there are so many different things 
that we could talk about, but I just want to, first of all, a 
question for Dr. Deakin and anyone else who wants to respond. 
Are we really making sure or how can we make sure we get the 
best bang for our buck from money that we are spending here? 
You know, there are a lot of great ideas, and as you put out 
that example there, where we put the call boxes out on the 
road, but we missed the fact that the technology would be 
changing, and it really wouldn't be that useful.
    So how do we--what can we do to get the biggest bang for 
our buck with ITS systems and the deployment of ITS systems? I 
mean, I see these signs along the road, electronic signs that I 
don't really see that they are being put to much good use, but 
we put the money out there so----
    Dr. Deakin. The signs that say, congestion ahead when you 
are already in a stop-and-go traffic jam aren't particularly 
helpful to any of us, I think. But I think we are getting 
better at some of this. There are some technologies that have 
more applications than others, and this one example I would 
give you relates to Mr. Smith's question about what do we do 
about fuel taxes.
    We are getting a lot better devices that would let us 
measure vehicle miles traveled in obtrusive ways, ways that 
don't invade people's privacy. We all know the fuel tax is 
running low. You know, we could raise it if there were 
political will to do that, and it would last for awhile. But 
cars have to get more efficient. They are going to change. So 
that doesn't seem to me to be a long-term strategy. And if we 
started implementing technologies that would let us monitor 
vehicle miles traveled in cheap, fast, safe ways of doing it, 
still protect people's privacy, we would also open up the 
possibilities of congestion pricing in those places where it is 
needed, and there is political will for it, which is not 
everywhere, but it is definitely some places. It opens up the 
possibilities for making it easier for people because I could 
pay my toll, I could pay my parking, I could, you know, get 
around in my transportation system a lot faster.
    And there are similar things we can do in transit, by the 
way. So I don't want to make it sound like this is just for 
highways since there are a lot of options in transit as well. 
That is almost a no-brainer in my opinion, and it is the sort 
of thing where the big issue right now is which technology: are 
we talking wireless, are we talking radio signal devices? So 
there are technology competitions, but in some ways that seems 
less important than the fact that we have to start testing 
those technologies and giving the states both the authority and 
probably the mandate to do it would be one way to get going on 
that.
    For making sure that these things are cost effective, there 
is nothing like doing a business case, and that is what I have 
seen missing is really the development of business cases. And, 
again, I think business cases are often best developed by third 
parties who are a little bit at arm's length and not 
necessarily the advocates of the project just because you need 
somebody else with eyes on this to make sure that we are really 
making wise decisions on the investment. That is what we do 
when the private sector is working properly, and we try to use 
business cases to test that.
    And then post-hoc evaluations: we just haven't seen very 
many post-hoc evaluations, and again, they have to be done at 
arm's length, not by the project proponents, because if they 
are not at arm's length, then they are always a little suspect. 
So stepping back--and these are the kinds of research that can 
help. There is a research component to that. There is also 
practical partnerships that can be done to make that happen 
better, and I think, again, the legislation could help 
encourage that kind of arm's length evaluation, learning from 
that arm's length evaluation would then happen. They could 
require that business cases be developed. I actually think a 
lot of the DOTs are trying to do this and would welcome having 
that kind of support saying, yes, we have to do that, we have 
to spend our money in a smarter way than we have been spending 
it.
    And then focusing on outcomes. Are you actually--what are 
you actually wanting to get from these projects? It is not just 
turning the dollars out. It is seeing that we actually have a 
lasting value that is cost effective, and we know how to do 
that. I used to work in Terman [Hall at Stanford] before I 
moved up across the bay to the private--from a private to a 
public sector. So I know the program that you are a graduate 
of, and as you know, there are lots of people who know how to 
do these kinds of evaluations. We could put them to work.
    Mr. Lipinski. Thank you. Mr. Wise, do you have----
    Mr. Wise. Yes. I think that something that might be of 
interest to you either in your role in this subcommittee or on 
your role on House T&I (Transportation and Infrastructure) is 
that we have just started recently some work on real-time 
traffic information systems. This is a subset of ITS. And of 
course, I defer to Dr. Deakin, who is a recognized expert in 
this field, but just kind of getting into it in the beginning, 
we are looking at some areas that I think might be getting at 
some of the things you were alluding to in your question. And 
we are looking at things like the cupboards that exist on real-
time traffic information technologies, the information that is 
available on the impacts and costs of the systems, and then I 
think one of the more interesting aspects is the option for 
developing a nationwide real-time traffic information system 
and the potential benefits of, and the barriers to developing 
such a system.
    In different parts of the country, of course, it means 
different things to different people. If you are in the western 
suburbs of Chicago, congestion is a major issue. If you have 
got a 60,000 square mile district, and there is an accident on 
the interstate, it is good that somebody can know about it. And 
as Dr. Deakin was mentioning, there are serious questions about 
the technology. It is a very fast-moving target right now with 
lots of evolving technology. I think there is some interesting 
pilot work going on out in the [San Francisco] Bay Area on GPS 
cell phone technology. I think that the private sector will 
probably be playing a major role here, and the question is what 
will be the DOT or the government's role.
    So there are a lot of interesting issues out there in this 
area. I will be happy to keep the Committee apprised of the 
progress as we work through this issue.
    Mr. Brubaker. I just want to mention something. On this 
Safe Trip 21 pilot that Mr. Wise is referring to, you know, 
that is really something that I don't think would have been 
done in the normal construct. We actually were able to pluck 
that out at RITA and sort of lead that but pull together a lot 
of different modes to make that happen. That is a transit, that 
is a highway, that is a very--that is an individual mode of 
transportation, be it bicycle or walking. I mean, there is a 
whole host of things that play into that, which is really kind 
of an interesting approach and a unique approach.
    But we started with kind of the outcome in mind of what we 
wanted to present, and as somebody who knows systems 
engineering pretty well, you know that we have really--we 
really kind of designed the protocol in a way that would 
support, you know, that outcome that we wanted to achieve.
    Mr. Lipinski. Thank you.
    Chair Wu. Thank you, Mr. Lipinski.
    Dr. Deakin, when you referred to Terman, were you referring 
to a building----
    Dr. Deakin. Yes, I was. That is the engineering building at 
Stanford.
    Chair Wu. I spent many a lovely evening at the Earth 
Sciences Library nearby.
    Dr. Deakin. Yeah.
    Chair Wu. Wonderful place.
    Mr. Saenz, did you have something to add to the last back 
and forth?
    Mr. Saenz. Yes, sir, and I think one of the things when, 
you know, the question was how do we make sure that we get the 
best bang for the buck, and you know, I think it starts from 
being able to identify some goals within your research right 
now, really some goals in the management of the organization 
that will lead to some goals or some--and then how do you 
measure them.
    And one of the things that we started doing in our research 
program a few years back is we put in place the teams at a high 
level that were the experts, both from, on the Department side, 
academic side, and even the private side, to identify some 
goals that we wanted to accomplish in the different--the 
research management areas.
    And one of the things that we really looked for is we 
wanted to identify some research that would result in the 
implementation of a technology that would give us a savings. 
Very similar to what I talked about with--we used some of the 
national research in the barrier cable, but even within the 
Department we looked at what can be looked at that will help us 
create a much safer transportation system, and then how can we 
measure what we are accomplishing.
    And that leads to ensuring that you spend your money in a 
safe and wise way.
    Chair Wu. Thank you very much, Mr. Saenz.
    Ms. Edwards, please proceed.
    Ms. Edwards. Good morning, and thank you, Mr. Chair.
    For Mr. Brubaker, I wonder if you could elaborate a bit 
on--and good that you are the former administrator, because I 
think sometimes we can see things differently inside versus 
outside, and I wonder if you might elaborate on priority 
setting. I think it is easy--it is an easy answer to say, well, 
we just need more money to do X, Y, and Z, and I know that in 
some of your testimony you focused on priority setting and, you 
know, rejiggering the kinds of research that we are doing. And 
so I wonder if you might elaborate on that.
    Mr. Brubaker. Sure. I would be delighted to.
    You know, the--what we have never really done, again, and I 
mentioned this in my written testimony, is establish this 
national transportation research agenda, which I believe should 
really be the driver of all the research investment rather than 
try to force-fit, you know, activity that we are already doing, 
things like SHRP, for example, that we are already doing into 
specific buckets.
    And I don't mean to pick on, you know, the Federal Highway 
Administration, but, you know, they kind of want to be left 
alone in that prioritization process, as does federal transit, 
as does rail. Everybody wants to kind of be left alone and do 
their own, you know, research.
    And I think it is absolutely critical that we call a time 
out, we take a step back, we assess what we want our priorities 
to be, we clearly state those in terms of what kind of outcomes 
we want. For example, I had the Intelligent Transportation 
System Joint Program Office under my purview when I was at 
RITA. I actually shared it administratively with the Federal 
Highway Administration, which created some really interesting 
situations, which I can elaborate on off-line. But the point is 
that they have always sort of just been doing projects, and 
what I asked them to do was really focus in on what they wanted 
to achieve in terms of, you know, did they want to take a 
safety focus and reduce the six million crashes that we have 
every year using Intelligent Transportation Systems, making a 
big dent in the 40,000 lives that we lose every year. And put 
those, make that a priority. Really design the research program 
to have a measurable impact on reducing crashes, reducing the 
fatalities, reducing the $230 billion in economic costs that we 
incur every year because of those six million crashes. And put 
it in terms of outcomes. And then how do you basically reverse 
engineer the research program to achieve those results.
    That is the kind of thing I am talking about but on a macro 
scale for the entire Nation. What are like the five or six 
things that we really want to accomplish? Reduce congestion, 
greenhouse gas emission reduction, you know, rural safety. I 
mean, what are the big impact things that we need to do. Then 
we need to look at that $2.1 billion----
    Ms. Edwards. And how to develop a system----
    Mr. Brubaker. Right on. We have got to take that $1.2 
billion and then begin to plan how we spend it to achieve the 
outcomes in those big areas. So that is what I am talking 
about.
    Ms. Edwards. I appreciate that.
    Let me just--Dr. Deakin, very quickly, can you talk to me a 
little bit about what you think the appropriate role for social 
science research is in thinking about a more coordinated 
transportation system?
    And I want to just share with you, you know, I know locally 
we, you know, we have an economic development team that works 
on economic development in one spot. And then you have a set of 
transportation people who go, oh, we are doing an economic 
development project. We need to think about transportation. And 
those things are thought about very separately, and so the rail 
people are in one place and the roads people are in another 
place, and it never seems that we are really looking at the 
linkages there.
    And then how are we going to use that? As a consumer, what 
does a system mean for me? And so I wonder if you could talk 
about the way that we could use a social science research base 
to inform more strategic thinking around transportation 
planning.
    Dr. Deakin. Yeah. I would be glad to. It seems to me that 
those linkages are exactly where social science can shine and 
make a big contribution to helping us figure out how to do this 
better, because the social sciences, among which I would 
include planning and policy sciences in, as well as business 
administration and management sciences, as part of a bunch of 
people whose expertise is to really think about organizations 
and organizational behavior and how to create collaborations. 
There is a lot of work that has been done in collaborative 
processes. Some of that is theoretical. Some of it is 
evaluating different processes to see which ones work and which 
ones don't and is very practical.
    So there is a whole range of social science work that is 
looking at how different organizational structures--how to 
flatten organizations because we have got a lot of evidence 
that flatter organizations are more efficient. But networked 
organizations, organizations like Google are not highly 
hierarchical. They are pretty flat, but they have got a lot of 
networking and a lot of linkages. The importance of informal 
networks of knowledge as a way of really quickly getting new 
ideas out in the field.
    It is not, you know, that people go and read papers. They 
call a friend that they know because they met at a meeting or a 
conference and say, ``Hey, what is going on in your field?'' 
or, ``What do you think about this idea?'', and how to 
facilitate that sort of behavior instead of punishing it, which 
actually happens in some of our current organizations. Don't 
talk to your boss's boss without permission, or you might be in 
trouble in hierarchical organizations. Of course talk to your 
boss's boss and then tell everybody what was said is a flat 
organization approach to that. So that is what is coming out of 
the social sciences on how to restructure institutions, new 
institutional ways of doing business.
    Studies on public-private partnerships. What does it mean 
to have a public-private partnership? That term captures a lot 
of territory, and some of these partnerships work well, and 
some don't work well at all, and we really need to get that 
knowledge into people's hands about what has been effective and 
what hasn't been effective. And it is social scientists who are 
doing that research.
    I think it is a question of specialization. My colleagues 
who are mechanical and civil engineers and electrical engineers 
and computer scientists are really good at what they do, and I 
don't want to try to do their work for them, because, boy, I 
couldn't do it. By the same token, they are not necessarily 
very good social scientists. They are not necessarily the best 
people to be doing evaluations. They are not necessarily the 
best people to be thinking about markets or institutions. There 
are other disciplines that do that, and that is where the 
social science people, I think, really can help us a lot.
    Ms. Edwards. Thank you. Thank you, Mr. Chair.
    Chair Wu. Thank you, Ms. Edwards, and since we have had a 
couple of folks on this side of the aisle, Mr. Smith, why don't 
you proceed.
    Mr. Smith. Okay. Thank you, Mr. Chair.
    Mr. Saenz, in your testimony you state that the boundaries 
of various State and federal programs need to be defined more 
clearly. Can you describe how the multiplicity of R&D programs 
affect the planning and operations at TxDOT?
    Mr. Saenz. A lot of times as we are doing our work we work 
with different areas. We got planning, and you have the, more 
of the technical side, and then sometimes we don't have the 
good communication or the good coordinated effort. What we have 
been trying to do at our level, at the State level, is, as I do 
have the research management committees, we also have an 
oversight committee that is made up of all of the chairs of our 
research management groups, as well as our key administrative 
staff of the Department so that when we can coordinate and then 
we can--that way we can communicate with the different areas as 
we go up to the federal side.
    We just, all I think we need is more cooperation, more 
coordination.
    Mr. Smith. Okay. Thank you very much. You know, it is 
interesting as we hear, you know, kind of a request, somewhat 
of a request for more clearly-defined programs, you know, that, 
if you get too detailed, then I think we discourage that cross-
communication. And so that is interesting, and I am not 
criticizing your suggestion for more-clearly defined 
responsibilities, but do you sense any obstacles such as that?
    Mr. Saenz. No. I think what we are trying to get is I think 
we need some definite goals and then we can work together at 
both the State and the federal level to identify these 
strategies as well as the implementation plans. And then at the 
same time we can define the roles and responsibilities of each 
so that we don't have the duplication of efforts, and we in a 
sense get more done with less is where we are trying to get at.
    Mr. Smith. Okay. Thank you.
    Chair Wu. Thank you, Mr. Smith.
    I have two major areas that I want to explore and then two 
smaller areas, and at least in this round the major area I want 
to open up to the extent that folks don't want to continue 
talking about cultural issues or inertia, because I want to 
fully explore that topic before moving on.
    But in a related field a number of you have referred to a 
concern about developing a coordinated research agenda in 
moving to outcome-based measures, and I wanted you to finish 
addressing any of the cultural and inertia issues that we face, 
and the challenges of moving to a coordinated research agenda. 
And what would be outcome-based metrics and to give further 
examples and then elaborate on your written testimony.
    Whoever wants to begin to take a cut at those areas.
    Mr. Brubaker.
    Mr. Brubaker. If I may, yeah. And I will try to keep my 
answers a little briefer than they have been in the past here. 
I am just remembering from my staff days. The, you know, it is 
really interesting that as we look toward developing a 
coordinated agenda, to understand that how we move people, how 
we move freight today is multi-modal, it is multi-dimensional, 
it is multi-disciplinary and keeping that in mind. So you have 
got to bring--and I think Dr. Deakin really nailed it when she 
said, you know, how you approach these things. It is not just a 
civil engineering problem. It is an electrical engineering 
problem, it is a, you know, structural engineering, it is 
social science, it is economists. All of them have to be in the 
room to help develop this thing.
    Chair Wu. So the problem is siloed----
    Mr. Brubaker. Siloed thinking. Right. You know, you go to, 
I mean, and here is the problem that I have got, and with all 
due respect to Bob Skinner and TRB and Federal Highway 
Administration with SHRP, is that it is housed in Federal 
Highways. You are more likely to get a Federal Highway type 
answer to the question, even though it might be taking 
advantage of a multi-modal problem, even like cooperative 
freight research, for example, you know, we have done research 
and funded research and are aware of research where we track 
shipments of things like seafood from the Pacific Northwest 
down to the Southeast of the United States. And we see that it 
travels by short-sea shipping, it travels on rail, it travels 
on the highways. So you have got to have an in-depth 
understanding of all those things, plus the economics, plus the 
behavioral issues, you know, to really understand how that 
system works holistically.
    I keep coming back to this term, holistic, because things 
really are multi-dimensional and multi-modal and multi-
disciplinary, and you have got to break down that siloed 
thinking, and there is really no place in the Department I 
think to do that other than RITA.
    Chair Wu. Anyone else?
    Mr. Skinner, since you have been referred to.
    Mr. Skinner. Yes. Well, let me just--I just want to 
emphasize what I think is, that it is an enormous challenge to 
have a broad, integrated research plan.
    Chair Wu. Uh-huh.
    Mr. Skinner. The transportation sector is roughly the same 
size as the health care sector, and so imagine what our 
comprehensive health care research R&D program would look like. 
Now, I am not saying we are as good as the health care sector 
in constructing a research plan, but I just want to stress the 
enormity of the task that would be before us.
    And linking that, I think the strategic plan, yes, it has 
to think about the goals, it has to think about outcomes. But 
it also has to think about processes and how do we allocate our 
resources across the entire innovation cycle so that some 
research that is of a highly-applied nature, relatively, can be 
implemented fairly soon, and we can judge it pretty easily, 
perhaps with respect to its rate of implementation and its 
outcomes.
    But for other research such as, say, the SHRP work on 
understanding accident causation, crash causation it will be 
years before that fairly advanced research is translated to 
specific changes in the way the vehicle is designed or the 
roadway is designed. But it holds the promise of giving us the 
knowledge that we need 10 years from now, 15 years from now, 
for having breakthroughs in understanding the interaction 
between the driver and the vehicle and the roadway in accident 
causation.
    Chair Wu. Thank you for that insight, Mr. Skinner. When you 
think about it, the health care sector, the transportation 
transit sector, and the housing sector are roughly equal in 
size. If you consider the amount of research that goes into 
each of those and the nature of that research, it is very, very 
different. And if you consider energy savings, the building and 
housing sector is much more ripe than either transportation or 
some of the other areas.
    Anybody want to address the out--I am sorry. Dr. Deakin or 
anybody else wants to address the metrics side of this 
challenge? And Dr. Deakin, you may have something on the 
existing topic.
    Dr. Deakin. Yes. Actually, I have been doing some research 
on how other countries are actually handling this problem of a 
research agenda, and we are falling behind our competitors on 
this. The EU countries, Canada, and Australia all have been 
trying to develop these kinds of strategic plans that are 
really focused on outcomes, and the kinds of outcomes they are 
measuring: Are we getting good value for dollars spent, and 
what is good value? They are measuring, are we getting faster, 
cheaper, more reliable transportation service than we would 
have without that investment and for how--for what period of 
time, because not all of them last forever. Are we reducing 
greenhouse gasses? Are we reducing pollutant emissions? Are 
were providing better service to everybody? Is service equally, 
you know, equitably distributed to our population?
    So those are measures of outcomes. You know, is there--
basically they are looking for economic performance and 
economic development is certainly one of those things that you 
want to measure, you know, did it help get you better, you 
know, more access to jobs?
    We can argue about how to actually measure those things, 
and there is a lot of research actually that has been done on 
what are good performance measures and not-so-good performance 
measures that we can look to on this.
    So I think measuring outcomes is something we can actually 
look to our trade partners for and see how they are doing it, 
borrow their ideas, and build on what they have done and go a 
step farther and get ahead of the game on this. So I don't 
think that is--that part I think we could do pretty easily.
    I think there is a difference between focusing on what to 
do and focusing on what to achieve. I mean, what to achieve is 
the outcome measure. With what to achieve you might say to 
people, you know, you decide what is the best way to improve 
the reliability of your transportation system, but you have got 
to show that the reliability is being improved. And they pick--
figure out what is the best way for them to do it in their own 
situation.
    An output--that is really different from saying a highway 
design manual where you have to look it up and do it by the 
book, and we have done I think a little too much of the ``by 
the book'' we are going to tell you how to do it, and not 
enough of the, we are going to focus on what you accomplish by 
making those investments.
    The final point I would make, and this is echoing something 
Bob Skinner just said, sometimes we do need to set aside money 
for research that is not immediately tied to a product, because 
that long-term research is incredibly important. And I want to 
speak on behalf of CalTrans on this. CalTrans had the 
confidence in its universities, they gave us matching funds for 
our transportation center funds without earmarking a penny of 
it. They didn't tell us what to spend it on.
    And we ended up with a very mixed portfolio of projects, 
some of which were applied and actually were done with 
CalTrans, but some of which were on topics that weren't on the 
national or the State agenda, including research that was done 
on what we could accomplish in transportation systems with new 
fuels, new vehicle technologies, and other technologies, and 
travel demand management strategies, transportation pricing 
studies, all of which were done well before any of this hit 
either the State or the national agenda.
    And because of that I think we are way ahead of the game in 
being able to provide leadership on these issues as we are 
coming to the conclusion we need to address these kinds of 
topics now, because we have got that research that started in 
the late '80s, early '90s that we kept building on it, and it 
wasn't, we couldn't have said at that point, what did this 
study on transportation pricing alternatives actually do for 
CalTrans or for anybody else for that matter. But now we can 
look at that study and use it and say, well here are some 
ideas, and here are some analyses that actually show you what 
we might be able to accomplish if we did a VMT (vehicle miles 
traveled) price instead of a fuel tax, or what we might get if 
we did congestion pricing and how effective it would be, and 
where it would be. And oh, by the way, what are the politics of 
congestion pricing in our major metropolitan cities, because 
that is not a straightforward thing.
    So we did that research, there wasn't a clear tie to a 
deployment immediately, but it has helped us 10 and 15 years 
later.
    Chair Wu. Terrific. Before I turn to Mr. Smith, anybody 
else on this topic?
    Mr. Smith, please.
    Mr. Smith. Thank you, and anyone wishing to respond to 
this, but when we talk about the matching fund requirements and 
changing those to a heavier federal side of the funding, what 
do you think, how would that impact, obviously it would free up 
funds locally or at the transportation, the TRB, and given the 
fact that, and we have heard criticism of current research 
programs as lacking the technology transfer, are the UTCs 
(University Transportation Centers) capable of turning long-
term projects into the real-world benefits given a funding, 
matching, matching funding change?
    Mr. Skinner. Okay. I will start. I imagine this is a topic 
others will address. You have a center director here with us, 
and you have the former administrator responsible for UTCs.
    And the--as mentioned in my testimony, a committee that we 
had that looked at the Federal Highway Administration's 
research program, which--of which a big component of UTC 
research is highway research. That committee recommended that 
the matching percentage drop from 50/50 to a 20 percent match. 
And the argument there is that many states were not operating 
in the manner that Dr. Deakin described for California in that 
they were--they did have expectations if they were providing 
matching funds, and those expectations were towards fairly 
highly applied research products.
    And the universities have this opportunity, which Dr. 
Deakin has explained, to do longer-term, higher-risk, blue-sky 
research on the areas that we haven't thought of, and our 
committee felt that that was being stifled to a degree by that 
matching percentage. And so if the matching percentage is 
reduced, the universities would have greater autonomy in 
setting their own agendas. There would still be the opportunity 
for overmatches by states and others. Some universities, no 
doubt, would choose to continue to do highly-applied research, 
but other universities might choose to go off in the direction 
of longer-term, higher-risk research, and others might have a 
mix like Dr. Deakin described.
    Chair Wu. Mr. Smith, may I jump in just for a second?
    I understand where we are going with this change from 50/50 
to a 20 percent match, but can't you earmark just as 
effectively with a 20 percent portion and leverage the other 
80?
    Mr. Skinner. I think in certain cases that would happen, 
but I think it would certainly happen to a lesser degree with 
20 than it does with 50/50. As you said, even, as Dr. Deakin 
explained, even with the 50/50 California allows quite a bit of 
latitude.
    So I think it is, I think our committee, you know, whether 
the number should be 30, should it be 15, should it be zero. 
They settled on 20 as a step in the right direction.
    Mr. Brubaker. Okay. I will go next.
    On a non-controversial subject, you know, my experience 
with the 50 percent match is that it works, and it leverages 
the dollars that we invest into the system.
    I come back to the--sort of the fundamental objective for 
what historically we have tried to achieve under the University 
Transportation Center Program, and that is training the next 
generation of transportation leadership. That in many cases, in 
fact, in most cases involves training individuals who go out 
and work in the field. Work in the field on applied--on real 
live applications, things they need to do.
    So there has been a criticism that the program is a little 
too focused on applied research, and I don't know that that is 
such a bad thing when you are actually training people who need 
to go out and work in the field and be marketable. And if they 
are doing really the squishy, sort of basic research that, 
where there isn't really a solid performance-type outcome but 
it leads to other research or further sustains the knowledge, 
which by the way, is very good, then, you know, I would expect 
that person or those people to be a little less marketable or a 
little less attractive to the field.
    So, frankly, I think the program has been fairly effective. 
I think, well, actually, not fairly effective. I think it has 
been very effective in the current mix and how things are sort 
of arranged, and I would hate to see us tinker with something 
that I think is fairly well leveraged today and fairly well 
balanced and produces the result that we expected to create.
    Mr. Smith. Anyone else wishing----
    Dr. Deakin. Yeah. I obviously have a self-interest in this 
topic. We have over 100 faculty members in the UC (University 
of California) system who participate in the UC Transportation 
Center, and we let any faculty member who does transportation 
research at any of our campuses compete for funds. The funds 
are reviewed entirely outside our university by people who 
don't have any close connections. It is an NSF (National 
Science Foundation)-kind of review process. CalTrans also 
reviews them and then we meet and prioritize which ones will be 
funded.
    We use the USDOT research agenda as one of the bases for 
prioritizing what we fund. We also use Cal Trans research 
priorities since they are providing matching funds. We, as I 
said, end up with a mixed portfolio. We have produced literally 
100 students a year for 20 years who have gone to work in 
transportation. So that is a pretty big chunk of people coming 
out of that program for the investment. And many of them have 
now risen to positions of leadership. In my home state, in 
California, both assistant directors at the Metropolitan 
Transportation Commission are graduates of our program, Jose 
Luis Moscovich of the San Francisco County Transportation 
Authority, Christine Monsen of the Alameda County 
Transportation Authority, Malcolm Carson of the LA DOT 
Commission for the city, and I could go on and list all kinds 
of people who have been out of school for awhile and have now 
risen to positions where they are in considerable positions of 
authority and are really providing a lot of leadership.
    So we are pretty proud of that as part of our product in 
addition to our research product.
    Frankly, we couldn't have attracted some of those students 
into transportation, into transportation as opposed to another 
area of work, if we hadn't had the ability to offer them 
fellowships and graduate research assistantships through our 
research. And if we got hit with a cut, and you know, CalTrans 
might be generous enough, but our State budget is in a terrible 
situation so I am not so convinced, we might get some of the 
match. They might not be able to do it. I don't think it is 
because they don't love us. I think they do love us. I think it 
would be because they don't know where their next dollar is 
coming from.
    So that kind of a loss of match would certainly hurt us, 
would hurt our ability to produce the students, would hurt our 
ability to produce what I think has been overall a very 
positive set of research findings, many of which have been 
implemented, many of which are changing policy and creating new 
ideas all the time.
    So, you know, it is basically a cut in funds for the 
transportation centers, I think, is the only way to 
realistically look at that. It doesn't mean that we couldn't 
make it up later when it looks like CalTrans might not, we 
might have a budget this year in California. I scrambled around 
and looked at foundations and found money from Hewlett and the 
Energy Foundation, but even they, now with the downturn are 
telling us that they lost 30 percent of their endowments. And 
so that is not even going to be easy in the future.
    So I think you have to look at it as if you cut it to 20 
percent, it is going to be a cut in the amount of funds, a cut 
in the amount of the research, and a cut in the amount of 
product that you are going to get, and that is the only way I 
can interpret it.
    Mr. Smith. Thank you, Mr. Chair.
    Chair Wu. Thank you, Mr. Smith.
    A number of you have referred to technology transfer 
problems, consulting with end-users, implementers before 
proceeding on research, in the course of research, and in 
implementation phases. Could you expand on some of the pinch-
points, some of the impediments, how to overcome them, your 
recommendations for more effective tech transfer going forward?
    Whoever wants to start. As an end-user. Mr. Saenz.
    Mr. Saenz. And I think I will tie it really to not just the 
research program but the--anything that we do. We in Texas have 
25--the state is broken up into 25 districts. Sometimes I think 
we have 25 Departments of Transportation, and a lot of our 
district engineers in a lot of those offices work 
independently, and they try things, and they do things, and 
they evaluate things, and they identify best practices. And 
even within our state we were having problems in sharing that 
information so that the state could benefit as a whole.
    One of the things that we have been trying to do as a whole 
is, under my administration, I put in place an assistant 
executive director that is working with all of our outside 
offices to ensure that we do get that kind of information 
collected, presented, using different methods through, either 
through reports, through being able to use technology, chat 
rooms so that we can get that information to the other people 
across the state because we can generate some efficiencies.
    The same thing can be done on the research program. We 
already communicate closely, but I think we always need to look 
at what we are doing today and how we can make it better. 
Because we thought we were communicating as a state in sharing 
information district to district because they communicated, but 
we found out that there was a lot of things going on that one 
area of the state did not know anything about.
    So we need to always go back and look at what we are doing, 
how we are doing it, how we are sharing it, and how could we 
ensure that we are doing it. Again, you measure your success of 
what you are doing.
    Chair Wu. Thank you very much, Mr. Saenz.
    Mr. Skinner.
    Mr. Skinner. We could talk all afternoon about tech-
transfer, and I would probably enjoy it. We manage cooperative 
research programs, what we call cooperative research programs 
in highways, transit, and airports. Each one of those programs 
is governed by a committee that is not created by TRB. It is 
a--the institutional arrangements vary, but for example, the 
committee of--the research committee of the American 
Association of State Highway Officials governs our highway 
cooperative research program, and the Secretary of 
Transportation appoints the governing group for the airport 
program, and so on.
    These programs are highly applied, and so the tech transfer 
problem is not nearly so great for that kind of research, 
because stakeholders know what their problems are, they program 
money to deal with those projects. Oftentimes they are 
connected with the association committees and the operators. 
And so the panels that we put together that steer the research 
have the people on-board that would help with tech transfer 
later on.
    So that those kind of programs work very well, but I would 
never claim that the entire research program should be 
comprised of these programs. They are--they don't handle 
crosscutting issues very well. They are at the highly-applied 
end of the scale. They are not doing the longer-term stuff. And 
for the kinds of programs implementation is a considerable 
challenge, particularly when it must ultimately trickle its way 
down to county road officials.
    So they are relying on, you know, there is no perfect set 
of things. The Federal Highway Administration has a Local 
Government Assistance Program. That is good. Many local 
governments have terrific relationships with states and depend 
on the--depend on minimizing essentially State practices and 
materials and designs. MPOs--Metropolitan Planning 
Organizations--probably depend heavily on their own network and 
individual contacts for improvement in planning methods. And 
champions in getting states to go out and pilot and then lead 
the way for others is terribly important.
    So, again, I just would stress that this is a complicated 
subject. There is no one answer, and there are a lot of 
different tools in the toolbox that have to be employed.
    Chair Wu. Well, believe me, we work on tech transfer, 
whether it is from NIH (National Institutes of Health) labs to 
transportation to nuclear detection, and I guess it is what I 
think Boswell or Johnson said about dogs walking on their hind 
legs. It is not done well, but one is amazed that it is done at 
all.
    Mr. Skinner. At all. Right.
    Chair Wu. And a lot of the world thinks that we do it 
better than most, but I am kind of amazed by that, too.
    Mr. Brubaker, you had something to say.
    Mr. Brubaker. Ditto. I couldn't agree with you more. Yeah. 
I mean, fundamentally, and I am going to say something which 
may be a little controversial here, but it is designed to have 
a little bit of an impact, but I don't think tech-transfer is 
truly a priority of the Department's research program, and it 
needs to be. I think the priority needs to be clearly stated. I 
think it needs to be programmed. I think you need to take some 
element of existing resources and direct it toward a tech 
transfer and commercialization-type activity.
    I used to serve as Chairman of Virginia's Innovative 
Technology Authority, and that whole authority was established 
almost exclusively and initially, when it was initially 
established to do tech transfer from Virginia's colleges and 
universities and laboratories and to ensure commercialization 
of the most promising technologies. And Virginia, frankly, had 
done a really good job of doing that, and helped manage the 
SBIR (Small Business Innovation Research) program, and the 
context of tech transfer and doing some other things.
    So I come at this with that background. So I actually 
believe that there should be a very deliberative program, 
activity around technology transfer and commercialization where 
we can glean some best practices from some of the universities 
that do a really good job, some of the State associations that 
do a really good job, some of our overseas, you know, folks who 
do a really good job of it. Glean those best practices and 
apply them.
    I am amazed at some of the things that I have seen in terms 
of technology transfer by some of the universities, 
particularly, I mean, I think UC-Berkeley has a good program, I 
know Texas A&M does because we have gotten underneath it pretty 
substantially, and I think there are some clear lessons that 
can be learned by that.
    But I am perplexed because--and I do think this is, again, 
a function that really needs to be in RITA, and I will tell you 
why. Because I am really perplexed by how you can promote 
something like the Universal Freight Shuttle that was developed 
out of the Texas Transportation Institute, which is effectively 
a new mode of transportation. It is a monorail effectively that 
uses individual rail cars that move freight containers 
through--from, you know, ideally when it is originally, when it 
will be deployed, it will be Monterey, Mexico, through Laredo, 
up to a land port in Dallas, Fort Worth. At least that is the 
initial design of it. But it doesn't fit nicely into federal 
railroads, it doesn't fit nicely into highways, but here this 
is this great innovation, and I know that they had a heck of a 
time trying to figure out how to commercialize something like 
that, how to get the knowledge out.
    One of the things that I think we fall victim to in the 
Department is we tend to have researchers and create forums 
where researchers talk to other researchers, which is a form of 
tech-transfer, but it is not necessarily getting the technology 
out in a forum where it can be effectively utilized.
    So I think we need to take a look at this. I think the 
Department needs to make it a priority. It should be a priority 
in the next reauthorization, and it should be programmed and 
resourced effectively.
    Chair Wu. Thank you very much, Mr. Brubaker.
    Anyone else on this topic of tech-transfer, impediments, 
and procedures going forward?
    Dr. Deakin.
    Dr. Deakin. I think there has been a model of tech-transfer 
that it is something that happens at the end of a process, that 
you develop research and then you move it forward into 
refinement, after refinement, and then eventually you deploy 
it, and at that point you start doing tech-transfer. And that 
is, I think, a recipe for failure, that kind of a model. I 
think you have to start thinking about users, demand, markets 
in the beginning, and one of the--if it is short-term research 
as Bob Skinner pointed out, that is easier to do than if it is 
long-term research. But in other areas we have business 
councils and business science, science councils that help talk 
about these things and keep this on track. And there are other 
mechanisms I think that could be devised that would help us 
integrate thinking about what is--where are we headed, what is 
the vision for this, what is the scenario that we have in mind.
    Mr. Saenz was saying to me that he thought that the things 
we ought to be doing are scenario planning and use, having 
think tanks but also doing scenario planning and then doing 
evaluations on projects. Each of those could use some guidance 
from people who are really thinking, what is the vision here 
that we have. Is that a realistic vision, challenging that at 
the beginning, sharpening up that vision of where it is going.
    Let me give you an example. A problem we have in California 
a lot is that people say, gee, if we could manage the freeway 
system and the arterial system as a couplet, then everything 
would be a lot more efficient, and we could spread traffic 
around, and we wouldn't have so much congestion. We could put, 
you know, make use of the capacity better. Well, if the 
arterial happens to be the kind of arterial where having more 
traffic on it is okay, that might work. But two-thirds of the 
time, in my experience, those arterials are also main street, 
residential streets, shopping streets. They have got all kinds 
of other values associated with them, and maximizing throughput 
is not the objective of the owners of those facilities.
    And so we actually had to change our thinking about that 
and recognized that we have to do context-sensitive design and 
context-sensitive operation. But I still hear some of my 
colleagues on the technology side say, gee, if we could only 
operate this system as a whole, not even recognizing that there 
are these other values that have to be brought in.
    And that is just a question of not communicating with the 
right people, because other people could tell them, let us talk 
about the context in which that will work and the context in 
which that won't work.
    So starting to think about deployment, starting to think 
about markets and public consent and people's values and what 
is being proposed fits with values and markets and preferences 
really from the beginning seems to me to be critical to make 
tech-transfer work.
    Chair Wu. Thank you very much, Dr. Deakin.
    Before we turn to what I hope to be one final topic here, 
Mr. Skinner, since I made an at-best neutral comment about one 
of your findings earlier, I wanted to return to that and give 
you a chance to address it.
    In your written testimony there was a number of a $400 
million increase in research funding, and before we head into 
a, shall we say, disjuncture between aspirations and resistance 
to additional research funding, I want to ask you about where 
you get your number about 0.9 percent of sales, research for 
transportation versus 3.6 percent of sales in other industries. 
And then, and also to give you a chance to address what I take 
you to say as not just an increase in current surface 
transportation research but perhaps a reorientation of that 
research into other fields where there may be current research 
going on but to associate that with transportation.
    Please proceed, Mr. Skinner.
    Mr. Skinner. Thank you, Mr. Chair. That is quite a lot. Let 
me first start by saying that I certainly didn't want to leave 
the impression, and I don't think our reports wanted, 
committees wanted to leave the impression, that the answer is 
money, and money alone.
    Chair Wu. We have parallel goals.
    Mr. Skinner. That regardless of what--of the resources that 
are available, there are a variety of things that our 
committees have documented--and are in my written testimony--
that we can do to make our research programs--technology 
programs more effective.
    The 0.9 percent of total expenditures is arrived at simply 
by adding up all of the highway research program spending that 
we can find in the United States and comparing that to total 
highway expenditures, and that compares with this, you know, 
three percent figure, which comes from--it is not compiled by 
us. It is probably compiled by the Commerce Department. It is 
referenced in our report.
    And I think you will find in the private sector that even 
mature industries spend at least one percent and----
    Chair Wu. Let me ask you about that. You are probably 
including industries like pharmaceuticals where the spending is 
in the mid teens. You might be including technology industries 
where the spending is at a slightly higher percentage. But if 
you compare it to, shall we say, heavy industries, like steel 
or ag, that might be perhaps more--although it is unfair 
because we are also talking about computer systems and 
transportation.
    Mr. Skinner. That is right. You are making my point, that 
it is quite a range. It is one, you know, one to ten to fifteen 
percent, depending on these very high-tech industry and the 
like. And my point there is that this is not a low-tech 
industry. Yes, we have very mature technologies that are 
difficult to change like asphalt and concrete, but we have 
Intelligent Transportation Systems, we have very complicated 
institutional problems that the private sector doesn't deal 
with. We have behavioral issues related to safety, and travel 
demand, and the like.
    So, yes, you know, as to where we should be in that 
spectrum, we are just observing that we are on the, you know, 
on the low end.
    Chair Wu. So it is different percentages, if you will, 
different--a different baseline for different parts of 
transportation research because it is a large segment of the 
economy just like health care, just like construction.
    Mr. Skinner. Right. I mean, we spend, I think, probably 
three times more to try and save a life in our cancer research 
than we do in research related to highway safety. So--but now 
let me--so that is the first number. Where I got the 0.9 
percent.
    The other one was the $400 million, which is relating to, 
you know, the total expenditure that we estimated in a 
Congressionally-requested study on the implementation of the 
Strategic Highway Research Program products. And there is a 
little bit of a crystal ball work there because the research 
program is still just fully underway, and we were required to 
submit a report this year.
    But it is, we--it is illustrative of how much importance 
our committee placed on the tech transfer process and its 
complexity. In this particular case I will say that there is a 
bit of apples and oranges, because this--I referred earlier to 
the accident causation piece of it, where at the end of the 
SHRP program, we will have a very large database. So the $400 
million also includes the care and feeding of that database, as 
well as further research on the--on that database, which will 
hopefully give us the products that will make their way into 
vehicle design and roadway design.
    Chair Wu. Now, do you have a recommendation about a proper 
amount of funding for the next appropriations period, for the 
next highway bill period, and what the uptake limitation might 
be for the research infrastructure that we currently have in 
place?
    Mr. Skinner. Thankfully, I do not have a recommendation.
    Chair Wu. I will tell you what. For each of the panelists 
and your friends in the research community, that is a question 
that I am very, very interested in, and I am sure that other 
Members of the Committee would be very interested in that as we 
develop the research title of this reauthorization.
    Mr. Skinner. Right. I mean, our committee has, you know, we 
have observed that we could, you know, we could--more money 
could be justified, but certainly if the money were doubled or 
something of that nature, there would be the capacity issue 
that you are referring to. And regardless of the money, there 
are a host of reforms that we can make to make the overall 
program more effective.
    Chair Wu. Terrific. Thank you very much, Mr. Skinner.
    Anybody else on that topic before--Mr. Brubaker.
    Mr. Brubaker. Yeah. I mean, I come back to this that I said 
in my oral testimony and that I referred to in my written 
testimony, and that is that I think it is really difficult to 
assign, I don't know how you can assign a number as to what the 
right number is for what we should be spending on 
transportation research.
    I go back to that national transportation research agenda 
as sort of being the driver. The right number is the number 
that it takes to spend on research to achieve the outcomes that 
you are looking to achieve. But I would really caution that the 
thing to do or to ensure as part of the process is that there 
is an ability to select, control, and evaluate the research 
portfolio. That is--and I view that as an inherently-
governmental function. It should rest somewhere in the 
Department. In fact, I think it should, the development of that 
plan and the monitoring, the execution I believe should rest in 
RITA.
    You know, and moreover, I mean, if somebody really wants to 
increase the funding, maybe make it, maybe gate that funding, 
maybe make it, you know, there is a percentage increase that 
increases every year of the authorization where, perhaps, it is 
predicated on successful implementation of such a construct of 
oversight, if you will, where you are actually controlling and 
evaluating those underlying research programs.
    That I think would be a responsible, frankly, approach to 
that type of a discussion.
    Chair Wu. Terrific. Thank you.
    Dr. Deakin.
    Dr. Deakin. I guess I take a slightly different way of 
thinking about this myself. We could draw a technology 
innovation curve and think about that as when you are first 
starting to develop technologies, high risk, potentially high 
payoff, you have to spend a lot of money on research. When 
technologies are well understood, well deployed, the rate of 
change, rate of innovations slows down a bit (and this is over-
simplification, obviously), you don't need as much research 
money.
    And so the question is not just a question of how much do 
you need in transportation but what are you going to do in 
transportation and where do you want to put that money, on the 
innovations or on the stuff that is relatively stable? And that 
is a curve, and you can actually do an analysis and figure some 
of that out, I think, a little better than maybe we have done 
in the past.
    We have had a tendency to staple together everybody's 
proposals in the past, and stapling is not the best way to do 
this, I don't think.
    The other piece of it is, I think, this is a huge question 
about what you want to count as being as part of the problem, 
part of the problem set. If you think about the supply of 
transportation, just the supply, you have got vehicles, fuels, 
operations, and facilities. And DOT doesn't do most of the 
vehicles and fuels. Those are actually private sector, EPA 
(Environmental Protection Agency) and DOE (Department of 
Energy). And if you are going to talk about transportation 
systems improving as a whole, and you are only talking about 
the facilities and operations, you are already shooting 
yourself in one foot. If you don't recognize that the private 
sector has to be part of that discussion because they are 
producing most of what we are talking about, you are shooting 
yourself in the other foot.
    So it seems to me that that is a big issue that the way DOT 
has been organized and the difficulty that DOTs had, not just 
internally, which Mr. Brubaker spoke about, but also in 
creating those partnerships that go to EPA, that go to DOE, 
that go to the Department of Agriculture, that go to Housing 
[and Urban Development] (because there is a big housing and 
community development aspect) that go to Commerce on the 
economic development aspect, are also part of what would really 
have to be discussed seriously here. And that affects how much 
money you want to spend in research. You know, it doesn't seem 
to me that all the research is necessarily going to be inside 
Department of Transportation. It might be in these kind of new 
forms of organizations that might be semi-formal, that is they 
might be partnerships mandated by Congress among agencies that 
create networks and advisory committees to supervise how the 
dollars are spent.
    They are really different from what you have been doing. 
They are not all internal. It might not be in RITA at all, or 
it might have RITA manage part of the process but have to be 
told to create these partnerships and do it in a different way.
    So I just think we could open this up and really think 
about it differently.
    Chair Wu. And that is part of the opportunity and the 
frustration of this moment. You are quite correct that the 
transportation issues are not just in DOT, and it would be much 
better to have linkages between DOT and DOE, for example, but 
this committee, or this, the larger Science and Technology 
Committee, does have jurisdiction over the research components 
of DOE and DOT.
    And the opportunity is that the new Energy Secretary is 
very, very enthusiastic about moving forward on a broader front 
and coordinating with other agencies and is very cognizant of 
issues of culture and inertia.
    In fact, to speed up the research process in his agency, he 
is looking at bringing in folks from ag because they have 
dispersed funds faster, traditionally.
    Mr. Brubaker. Right.
    Chair Wu. So that is part of the reason why we focused on 
cultural issues a little bit because, you know, there is a lot 
of discussion about how to get agencies reoriented to address 
issues. I mean, we push legislation out of here, and we kind of 
assume that it is done when we push legislation out, and it 
could be three to five years later and it hasn't hit the ground 
yet.
    Mr. Brubaker. Right.
    Chair Wu. And I just want to be very sensitive to the 
multiple layers that it has to go through before it hits the 
ground.
    Mr. Brubaker.
    Mr. Brubaker. Can I--I would like to add something to that 
because I think we did something fairly unique when I was over 
at DOT that in the alternative fuels arena where we did engage 
the Department of Energy, and we had really close relationships 
with the folks in EERE, on--the Energy Efficiency and Renewable 
[Energy] folks. We had good relationships with them, 
particularly as it related to hydrogen fuel cell vehicles and 
battery development and some of the things that we were really 
interested in.
    To my knowledge, and I don't know, I hope that that 
activity is still going on, but that was informal, and I think 
as we begin to have, you know, a new generation of people who 
come into the government, government service, and are used to 
collaborating and are used to dealing with Facebook and are 
used to picking up the phone and asking people questions no 
matter where they sit or what organizational stovepipe they are 
in, that is going to be more of the rule rather than the 
exception.
    But I will tell you, I got a lot of raised eyebrows when I 
first started to engage our colleagues at the Department of 
Energy on these issues, and initially, you know, there was some 
dancing around, turf battles, and, you know, like whose turf is 
what, but when we broke through all that stuff, I think we 
had--and they played an integral part in the success of a 
hydrogen road tour that we did over the summer where we took a 
fleet of hydrogen fuel-celled vehicles from Maine to Los 
Angeles, across the country. And we were in lockstep for that 
particular project. That wasn't formal. It wasn't mandated by 
anybody. It was just something that we did.
    At the same time at the secretarial level we were not at 
the plate at all when gas prices were going through the roof, 
but the impact that those fuel prices were having, you know, 
at--on the transportation infrastructure, on our supply chain, 
our passenger movement system was profound. And it is 
unfortunate, but I almost think it is sort of a generational 
issue where people are used to collaborating who--when they are 
somewhat younger or more, you know, more interested in that 
sort of thing. And when you get to sort of the older folks who 
are used to working in their rigid agencies, and you know, they 
are getting advice that they have to stay in that lane, that 
occurs. And fortunately, I think technology is going to break 
down all that stuff ultimately but--and create new paradigms 
for work, but I just wanted to offer that concrete example, 
although it is not a concrete example.
    Chair Wu. Thank you very much. I have always thought of 
myself as a young pup, but now as I get older I find that, you 
know, I am more sympathetic to the old dogs and maybe I am one, 
but there has been constant reference to the sociological 
aspects of organizations and technology and a more intermodal 
approach rather than a pyramidal approach to problems and 
organizations.
    Anybody else on this topic before we move onto my final 
one. And I will also give you all a chance for a catch-all at 
the end of this.
    Well, for me the last topic I have is the proposals for 
reorganization of UTCs or organizing them differently. We have 
already addressed the splits for funding matches, and we might 
return to that at a different moment in time as we get closer 
to reauthorization, but there has been some discussion on a 
competitive process versus whatever you would call the process 
that we currently have. It occurs to me that we have 50 
centers, we have 50 states. That could be a coincidence, but, 
you know, I know that coincidences do occur. I just haven't 
seen one in Washington yet.
    But to the extent that any of you would like to address 
the--what it would look like to have a competitive system for 
UTCs and awards, what the criteria would be, I would like to 
hear your--I would like to have your input on that topic.
    Mr. Brubaker. Mr. Chair, I don't mean to--I am very, I hate 
to say this in this way, but I can't think of a better way to 
say it. I am passionately indifferent to whether they are 
competitive or not. I have seen ones that have been 
competitively awarded. I have seen ones that are earmarked, and 
both to a large extent are effective. There are a handful that 
may need some help on both sides of that equation, you know, so 
I, frankly--it is not one of my--the recommendations that I am 
passionate about in any way, shape, or form.
    So I just think, you know, not that I want to say don't 
rock the boat on this thing, but it seems to be, the system 
seems to be working reasonably well. I am a big proponent of 
competition. I love competition in contracting and you know, 
everything else, but the reality is I think we have struck this 
delicate balance, and it is probably best not to expand or 
contract in terms of the number of centers; contract because I 
don't think you want to deal with, I don't think anybody wants 
to deal with the political fallout that is a grim reality of 
this situation. But at the same time I am more focused on what 
can you do to make whether they are earmarked or competitive 
more effective.
    Chair Wu. Well, I was not aware that this issue existed 
until fairly recently, and I guess I am trying to decide, Mr. 
Skinner, whether I should be passionately indifferent or, you 
know, passionately care about this.
    Since you all have had some recommendations, let us hear 
from you next.
    Mr. Skinner. Yeah. I think on this topic, and I think I am 
on firm ground in saying that throughout the work of the 
National Academies, that we consistently come down on the side 
of competition and merit review as one of the hallmarks of 
quality control in scientific research.
    Now, does that mean that someone can't do excellent work at 
an earmarked center? No, of course not. And the program is 
fairly mature now, so that it is conceivable that the current 
portfolio of centers is better than the ones that we had 15 
years ago.
    But I do think that if one did want to open up a purely 
competitive environment and restructure the program in that 
manner, I think there would be this question that Dr. Deakin 
alluded to--is the dual purpose of the program; research on the 
one hand but also attracting young, talented professionals into 
the field and giving them a good educational experience.
    And that--it is not that you can't do both of those things, 
and probably there are many people in this room that were in 
programs that did both, but I think it would require some 
thought. Because there are other ways to provide support for 
graduate students besides University Transportation Centers 
programs. And so that would have to be considered if we were 
starting from scratch.
    Dr. Deakin. I would say that the centers actually started 
out as a competitive program in the first round in 1987. 
Unfortunately, the competition was organized by federal region, 
and transportation excellence isn't necessarily distributed 
evenly by federal region, and so that wasn't purely competitive 
in the way I would think you would want to organize it.
    If you look at the earmarked centers, they are a very mixed 
group. Some of them are top research universities. Two that 
come to mind immediately are Northwestern and Minnesota, either 
of whom would be able to compete very effectively for research 
dollars. Some of them are much more modest, local teching 
colleges that are not known particularly for research, and 
their research is modest, and I would actually leave it to 
their own State and local people to tell us whether they are 
producing the people that they need, because I see those as 
workforce development investments for those centers.
    And I think RITA has encouraged that aspect of it, that 
they really try to make sure that they are measuring whether 
their people are ending up going into transportation jobs and 
being productive in those jobs. So looking at that dual role, 
that has certainly been an issue in this business.
    One thing that I've thought about that might be a way to 
manage this process, I believe in competition. I think 
competition sharpens everybody up, makes us all work harder, 
think harder, try to get creative. It is good to get a push, so 
I don't mind having to compete. I think it is actually good for 
us, and if we got our comeuppance, I think it probably would 
teach us a lesson. So we would do better the next time. So I 
support competition.
    One strategy that has been discussed and has operated in 
the past has been you got an earmark but then after a few years 
you are expected to compete, and there won't be as many centers 
as there are competitors or maybe new people can come in and 
compete as well. And I think that has actually worked pretty 
well, because it is removed from the process some centers that 
really weren't able to be productive and let other people who 
might not have either the political connections or the famous 
professors yet----
    Chair Wu. Uh-huh.
    Dr. Deakin.--to get into that process, and some of those 
centers have really developed and become good research centers 
frankly, so--from the earmarked center. So I think we have seen 
the earmarks being productive in both producing people and 
producing research in at least some cases that would be 
competitive on any ground.
    So I would say go for a process that encourages competition 
periodically after an initial period, even if there are 
earmarks, because that sharpens everybody back up. Let those 
centers that haven't been able to get their act together and 
perform be removed from the process in a rational way, and let 
other people take a chance and say, we want to do this, we 
think we can, and go for it.
    Mr. Brubaker. Yes. I just--if I can add one additional 
thing, though, I want everybody to be really clear that the 
money that is designated for the UTC Program only represents a 
portion of the work that gets done. Obviously you have got the 
match issue, but frankly, most of the UTCs that I go to get, 
collect a lot of additional money from Federal Highway 
Administration, Federal Transit Administration, really the 
Department of Transportation, as well as the private sector. 
They do privately-funded activity that builds on that 
foundation, whether it is an earmarked UTC or a competitive 
UTC.
    So, I mean, they have sort of stood alone, for the most 
part they kind of stand alone and have their transportation 
credibility, if you will. You know, they are--and I think that 
is a relatively positive impact.
    Now, there are other universities out there who are not 
UTCs at all who get millions of dollars in federal money from 
the Department of Transportation. I will give you a prime, you 
know, Virginia Tech is one, for example. They do a lot of great 
research, they get quite a lot of money from the Department of 
Transportation as well as the private sector, and operate 
outside of the UTC Program. The only issue that I have got with 
that is I don't have the same visibility into what goes on 
there as I do in the UTC Program as former RITA administrator.
    Chair Wu. Well, as we look at this issue I do want to 
capture the strengths of competition but recognize that we have 
different missions to perform, whether it is research or 
workforce development.
    And also recognize that there are failed or imperfect 
markets or competitive environments. In a country like ours it 
is hard to criticize competition or merit review unless you 
look at the history of how some of these organizations or 
processes developed. And in the development of the science 
establishment after World War II, it was dominated by a few 
institutions, and into the '60s and '70s the peer review 
mechanism shall we say was just far from perfect, because 
people knew each other. People knew each other's work, so even 
in a blind analysis of publications or grant proposals, you 
knew whose proposals were coming through.
    So, you know, any reconsideration of this has to take into 
account the realities of whether a merit review truly is blind 
or not, the multiplicity of functions ranging from personnel 
development to applied research to fundamental research, and 
sort of the shifting centers, the foci of research, you know, 
who would have thought that Wisconsin would be a biomedical 
research center 60 years ago. I am not sure that anyone would 
have thought of that.
    Those things need to be taken into account as we consider 
this going forward.
    I want to invite any of you who have any closing comments 
to make, you all have traveled a good long distance, if you 
have anything else to add to this process overall, I would like 
to invite that at this moment.
    Mr. Saenz--and I want to apologize to you as someone whose 
name has been spelled out and mispronounced for a long time 
myself----
    Mr. Saenz. You pronounced it perfect.
    Chair Wu. Oh, my gosh. You are very generous. Thank you, 
sir. I think I have massacred it at least once or twice today.
    Mr. Saenz. Mr. Chair, I think just going back and just 
based on our prior topic about earmarks versus competition, we 
at Texas thrive on competition. We think competition brings the 
best of both the public sector and the private sector in trying 
to solve problems.
    I think one of the things that starts, with all things, 
especially in the research program, is we need to have a 
national plan. This national plan can be there to solve for, 
not highway solutions or rail solutions or public 
transportation, but we need to look at it as a whole to try to 
identify how we solve those transportation issues. And it may 
be a rail project, it may be a highway project or an aviation 
project, inter-modal system, but we need to look at it as a 
whole, having that one focus, having that one goal, that one 
plan, and then be able to then look across lines and also at 
the same time be able to figure out how you measure success 
will lead to a better program.
    Chair Wu. Terrific. Thank you very much.
    If there is nothing else for the good--Mr. Brubaker.
    Mr. Brubaker. Just briefly for the good of the order here. 
I, first of all, I just want to commend you and the Ranking 
Minority Member for your leadership on this issue. I think this 
is really critical, and like I said in the opening, represents 
a real tipping pointing in our ability to transform the 
transportation infrastructure and make it more flexible and 
responsive to our needs.
    The one thing that, and you know this, this goes without 
saying, and I don't want to minimize the complexity of this 
issue, but at the same time I have been in Washington long 
enough to know that when people use the word, complex, they 
really mean can't be done, don't bother doing it, don't bother 
breaking the rice bowls, don't bother breaking the stovepipes.
    I firmly reject that. I think this is a very manageable 
situation. I think we just need to look at it from a high 
level. I think Mr. Saenz said it very well when he said, you 
know, we need that plan. We need that holistic plan.
    For example, you know, if we are thinking about how to best 
move congestion at the ports, well, if you give that project to 
the Federal Highway Administration, they are going to give you 
a highway answer. You give it to Federal Rail Administration, 
they are going to give you a rail answer. But it needs to be 
some holistic answer, and I think the only organization within 
the Department of Transportation that has the ability to focus 
multi-modally and holistically is, in fact, RITA.
    Lastly, I would just be remiss and as an ex-staffer I 
always loved to do this, I want to thank Meghan and Mike and 
Travis and Victoria for their help here, and as, and certainly 
Shep, and Shep, I know it is your last day. We are really going 
to miss you over at the Department, and really just appreciated 
your service here. So thank you.
    Chair Wu. You are good. You are good.
    Anything else for the good of the order?
    Well, I want to invite all of you to think--one topic I did 
not get into at all today, and it--we will save this for--as a 
topic of a future hearing, because it is a very big topic, and 
that is green transportation, green infrastructure, and better 
ways to plan and do things so that we are cognizant of the 
footprint that we leave both today and in the future and 
looking at our inputs as well as outputs.
    And I want to commend that set of considerations to you all 
because I know that many of you, or all of you have been 
dedicated to that already and will have suggestions for us as 
we go forward in considering the green transportation and green 
infrastructure issues and as we go forward in developing a 
research title for the Surface Transportation Bill.
    I want to thank you all for appearing now this afternoon 
and thank you for coming a good decent distance. The record 
will remain open for additional statements from Members and for 
answers to any follow-up questions that the Committee may ask 
of you all. The witnesses are thanked and excused, and the 
hearing is now adjourned.
    [Whereupon, at 12:15 p.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by Paul R. Brubaker, Former Administrator, Research and 
        Innovative Technology Administration, U.S. Department of 
        Transportation

Questions submitted by Chair David Wu

Q1.  You believe that a ``holistic'' approach to transportation 
research is needed. How does that differ from the current approach? 
What are the barriers that keep the Department of Transportation from 
utilizing this holistic approach?

A1. The current approach to transportation research is modal-centric 
and territorial. Research budgets are based on overall funding levels 
and historical funding levels rather than actual need or value to the 
overall transportation enterprise. This approach needs to be 
fundamentally re-thought and the approach must not only be much more 
multi-modal but must be integrated and enterprise-wide. That is, the 
Department should be approving research in the strategic context of 
what will add the most value to the national transportation system. 
Additionally, some portion of research should look to new and 
innovative approaches to transportation that do not fit nicely into one 
of the traditional modal stovepipes. For example, there should be a 
robust transportation-related alternative fuels component to research 
as well as intermodal and multi-modal modeling and simulation. While 
some of this activity exists within the modes today the activity is 
modal specific.
    Fundamentally the barriers that exist that prevent taking this 
holistic approach are structural and cultural. The Department is 
organized around ``modes'' when in fact passengers and freight often 
use multiple modes to get from their origin to destination. We need to 
think of passenger and freight movement more holistically and begin to 
address challenges within the transportation system in this context. 
When commuters come into work they often drive or take a bus to a train 
station, board a train then may take a bus to their destination--
involving multiple modes. When freight moves it often uses short sea 
shipping, rail and highways. Yet these multiple modes are hopelessly 
stovepiped and do not focus on the most efficient way to move people 
and freight in a holistic end-to-end manner.
    This situation clarifies the notion that our national 
transportation system is really a system of systems that are poorly 
coordinated and are consequently not as efficient as they could be. 
There are also Congressional jurisdiction issues that come into play. 
For example, despite the fact that we move goods and people using 
multiple modes--the authorization does not take into account these 
multiple modes in an holistic manner. For example, if we could make 
tradeoffs between investment in high speed rail and airport investments 
in major cities it could result in obviating the need for building more 
airport capacity and replacing it with a more environmentally friendly 
high speed rail system--as well as result in taking a number of 
vehicles off of the road that travel between city pairs. Yet the 
separate authorizations between rail, air and road are not really set 
up to address this holistic view. Moreover, the tradition of using 
highway trust fund dollars to only support highway projects is 
antiquated. We must think of the entire transportation enterprise--
whether it is the research program or the overall operation--much more 
holistically.
    The lack of this holistic, system of systems approach has also 
resulted in missing some major issues and has perhaps even stifled 
innovation. For example, the transportation system is dependent on a 
cheap, abundant supply of energy. When the price of gasoline and diesel 
fuel jumped up over the past summer--the Department was caught 
completely off guard and unprepared. Naturally, vehicle miles traveled 
plummeted and suddenly congestion was reduced. However public transit 
ridership increased substantially and demand for Amtrak seats up and 
down the Northeast corridor was at capacity. There was no modeling and 
simulation capability within the department to even understand or 
predict what would happen. The devastating impact this situation had on 
the supply chain could have been entirely predictable if research and 
information gathering activity was directed in a manner that better 
understood the holistic condition of the passenger and freight movement 
system performance rather than focused on the traditional needs and 
narrow interests of the Department under its current modally focused 
research and information gathering structure.

Questions submitted by Representative Adrian Smith

Q1.  You say in your testimony, ``currently, there is no systematic or 
focused program, process, or set of activities that are driving 
innovations out of the laboratory and onto our nation's roads, rails, 
runways or waterways.'' In your opinion, what are the current 
mechanisms for uptake of new transportation innovations? How could 
these mechanisms be improved? Does this assessment hold true for 
innovations in vehicle design and safety? If not, what are the 
differences between vehicle and infrastructure improvements?

A1. The Department and research community within the Department 
specifically has discussed technology transfer and many individuals 
have that role in their job descriptions. Additionally, many programs 
within the department like the Intelligent Transportation Systems Joint 
Program Office are required to consider technology transfer as part of 
its mission. Within RITA the RD&T program has a technology transfer 
role and the Federal Highway Administration, Federal Aviation 
Administration and other modes have key roles in driving innovation 
into the transportation system. However there is not well organized, 
systematic, enterprise-wide effort to drive innovation out of the 
laboratory and into the transportation system.
    If you were to ask the research community about technology transfer 
they would suggest that the Transportation Research Board annual 
meeting represents a major technology transfer activity as does 
publishing research in peer reviewed journals. In my view, and this is 
based on a general familiarity with technology transfer and 
commercialization programs in major universities, research institutions 
and states, the Department and transportation community does not do a 
very good job of driving innovation into the transportation enterprise. 
This is mostly because transportation research has been an inside 
game--one that is managed and controlled by those with the biggest 
pockets who do not see anything wrong with the current system or the 
pace of innovation deployment.
    Given the Department's almost $1.2 billion investment in research 
each year, and by virtue of the fact that our economy requires rapid 
deployment of innovation to maintain its competitive edge in an 
increasingly competitive global economy--this somewhat casual approach 
does not seem to make sense. Based on my experience, I would advocate 
an office of technology transfer and commercialization be established 
within the Research and Innovative Technology Administration that is 
adequately resourced to monitor the research activity of the department 
and highlight the intellectual property that is being developed for 
opportunity to commercialize or transfer in a manner that would further 
the state of research in a particular area.
    You asked if my assessment of weak mechanisms for uptake of new 
technology applies to vehicle design and safety innovation. The short 
answer is yes but not because the mechanisms don't exist or don't 
ultimately produce a result but rather because they are slow, 
excessively bureaucratic and cumbersome. To be sure, the National 
Highway Traffic Safety Administration (NHTSA) does a good job of 
collecting data and statistics to support their recommendations--its 
just the processes they employ and the timelines they find acceptable 
are inconsistent with technology development cycles and tend to stifle 
innovation and companies who desire to build, test and deploy safety-
related technologies. For example, when I left the Department we were 
still waiting for NHTSA to validate that certain communications 
technologies were appropriate to use in safety applications. This is 
important work to be sure--but something we have been examining for the 
last four plus years and it was going to take NHTSA two years to 
complete its study. When technology improvement cycles follow 18 month 
timeframes--it is difficult to see how these processes can support 
timely and effective deployment of new safety technologies.
    NHTSA does not like criticism. To be sure, they have presided over 
many beneficial safety regulations and requirements and there are 
people alive today thanks to the work of the agency. However, there is 
room for improving research and how technology transfer, innovation and 
commercialization in the vehicle safety area. However, any constructive 
criticism or attempt to influence research in the safety area generally 
results in turf warfare. Any attempt outside of NHTSA to suggest new 
opportunities or processes related to safety generally elicits a 
negative reaction--and the agency is great at working the office of the 
Secretary--at least this was true during the last administration--so 
that any criticism was met with the suggestion that any change these 
processes or procedures will compromise the safety of the American 
people. In other words, criticize the process you criticize safety--
when in reality these processes--particularly the safety benefit 
validation processes--could be significantly improved to expedite 
innovations into the field.
    It might interest you to know that NHTSA carved out an exemption 
from RITA oversight during the drafting of the Mineta Act. The 
argument, as I understand it, was that the safety research conducted by 
NHTSA was too important and critical to be subject to oversight by a 
centralized research oversight organization. Frankly, this exemption 
speaks to desire and ability of the agency to insulate itself from 
criticism, oversight and review by hiding behind the safety mission. 
Undoubtedly, the response from NHTSA will be that the roads are the 
safest they have ever been. However, when more than 40,000 people die 
on the Nation's road each year--roughly the entire population of Grand 
Island, Nebraska--we should do whatever we can do ensure that the 
latest safety technologies are deployed as quickly as possible.
    Certainly there are differences in vehicle and infrastructure 
research but they should not be artificially stovepiped as they both 
represent individual systems in the holistic system. We should begin 
looking at vehicles and infrastructure in a more integrated fashion--
particularly with the development of next and future generation 
intelligent transportation systems when the vehicle and infrastructure 
will become significantly more integrated. Before I left, we launched 
the IntelliDrive initiative which envisions modern sensor and 
communication technologies enabling an entirely new safety paradigm 
that integrates vehicles with the infrastructure.

Q2.  Do we need to produce a new, comprehensive strategy for our 
nation's highways? If so, should this strategy include other 
transportation modes? Who should be charged with developing such a 
strategy and how often should it be updated?

A2. We do need a comprehensive strategy for not only out nation's 
highways but an integrated strategy for the entire transportation 
system--including how we fuel the transportation system. This 
comprehensive strategy--I have called it holistic but I mean the same 
thing--should include all of the modes of transportation--ships, 
transit, highways, rail and air. The focus of the strategy should be on 
how both freight and people move across the system with a keen 
understanding and data regarding system performance. This would help us 
better understand how people and good really move across the country 
and where the bottlenecks and safety issues are in the system.
    This strategy should be fact-based and contain analysis, business 
cases and public benefit business cases outlining how projects and 
programs will measurably improve the performance and/or safety of the 
Nation's transportation system. This will require a robust and 
modernized ability to collect, analyze and disseminate transportation-
related data. Currently, the Bureau of Transportation Statistics--which 
is inside of RITA, does not have an adequate or complete picture of all 
of the system and safety performance data that would be required to 
support such a strategy--mostly because it is grossly underfunded and 
does not have the data resources and personnel that would be needed to 
develop such a comprehensive view and analysis of the passenger and 
freight systems. In this same area, we also need to better understand 
how the system responds to externalities--like natural and man-made 
disasters, changing fuel prices and unexpected events. The Department 
should have an organic capability to conduct modeling and simulation 
around various policy, project or event scenarios.
    The National Transportation System Strategy should be developed 
collectively although the Secretary of Transportation should be charged 
with developing the strategy and putting pen to paper. Congress could 
and should propose a restructuring of the Department along the lines 
suggested--although if nothing else could propose a commission to study 
and recommend a new structure that better reflects the way people and 
goods move across the country. I think this strategy should be 
developed every year and reflect a rolling five year vision of where we 
are going with the transportation system in this country--that lays out 
the very clear priorities of the Department and drives investment and 
alignment over the period. When I was at RITA we put together a forward 
looking document called ``Transportation Vision for 2030'' which from a 
thematic perspective could provide a useful construct--but the goals 
should be bolder and the strategy should provide tactical guidance in 
terms of organizational alignment and budget formulation and execution.
                   Answers to Post-Hearing Questions
Responses by Elizabeth Deakin, Professor of City and Regional Planning; 
        Director, University of California Transportation Center, 
        University of California, Berkeley

Questions submitted by Chair David Wu

Q1.  You recommended in your testimony that more research be subject to 
``arms-length'' evaluations. Could you describe how many of these 
evaluations are currently done and how you believe they should be done? 
How would these evaluation processes be changed? How can this be 
encouraged either by the DOT or by legislation?

A1. Arms-length evaluations of research are important for credibility 
and can help target research dollars on the most cost-effective and 
creative topics. Independent evaluators can be asked to point out 
strengths and weaknesses in the research design, comment on the 
reasonableness of proposed expenditures, evaluate the qualifications of 
the researchers and their track records, estimate the contribution that 
the research is likely to make, and identify whether the proposed 
research is innovative or duplicates other past or ongoing research.
    In the research community, peer review is the norm. Journals and 
some university transportation centers use either double-blind or 
confidential reviews and the reviewers are selected both for their 
subject area knowledge and for their ability to provide a dispassionate 
evaluation. In the most rigorously organized peer reviews, research 
collaborators, former students and former professors, and anyone with a 
close professional or financial interest in the outcome are 
disqualified from participating in a review.
    Peer reviews are not perfect--for one thing, reviewers often know 
or can surmise the authors and vice versa, despite the removal of 
identifiers, and big names and big institutions may sometimes be given 
deference that the proposal might not actually deserve. Despite these 
flaws, most researchers agree that outside peer review is the best way 
we have devised for obtaining independent evaluations of research 
proposals and products and reducing biases in the evaluations.
    On the other hand, there is also a desire research to be relevant 
to users, especially short-term, applied research that is expected to 
lead directly to a deployable product. For this reason reviews by 
outside researchers are often complemented by reviews or project 
oversight by practitioners, industrial partners, and others with a 
direct interest in the outcome. Such reviews and oversight are 
especially helpful in raising practical questions about the utility of 
a product, the size of the market for it, competing products and their 
pros and cons, etc.
    In addition to peer review and end-user reviews, strategies for 
obtaining evaluations that can be of value in guiding research programs 
include:

        <bullet>  Using independent expert panels to generate research 
        topics, review research proposals, oversee research as it 
        proceeds, and review products. (This can be the same panel or 
        different panels at each step.)

        <bullet>  Public agency and industry advisory committees, who 
        can bring user and researcher viewpoints into the evaluation 
        process while maintaining some intellectual distance. 
        Independence of the reviewers can be built into this process. 
        For example, some state DOTs enlist representatives of other 
        state DOTs and universities outside the state to evaluate their 
        research programs and major projects. Because panel members are 
        not competing for the grants, they are more likely to be 
        dispassionate than local reviewers might be.

    NSF uses independent expert reviewers, and NAS committees 
evaluating research and research needs are typically independent expert 
panels. NCHRP and TCRP use stakeholder review panels to select and 
review projects. USDOT also uses these methods for some of its 
programs, but also does many reviews internally, in some cases because 
there's a lack of resources to bring in outside reviewers. Many states 
have research advisory committees, but for projects rely on internal 
staff review and (sometimes) project advisory committees composed of 
likely end users. The University Transportation Centers program calls 
for peer review of research proposals and products but does not provide 
much guidance on what qualifies as peer review.
    Congress could mandate independent reviews by peers and end-users 
for all major research programs (as well as for field tests, 
demonstration projects, and other major projects) and provide funding 
for such reviews as part of program costs.

Q2.  Please elaborate on your comment that other countries, like EU 
countries, Canada, and Australia, are ahead of the U.S. in terms of 
developing a strategic outcome based plan for transportation research. 
What strategic outcome metrics do these countries use? What have been 
the impediments in the U.S. to utilizing a strategic outcome approach 
and what can the U.S. draw on the experiences of these other countries 
in developing its own national strategic transportation research plan?

A2. Transportation research would benefit from a mixed portfolio 
including some long-term, basic research whose application is uncertain 
as well as more applied research and development--some of which may 
nevertheless be years from application, and some of which could be 
implemented in the short-term and therefore should be coordinated with 
transportation plans and programs in order to move R&D results into 
implementation. Partnerships for implementation should extend not only 
to federal and State transportation agencies but also to the many other 
federal, State and local agencies, businesses and industries that have 
roles in implementation of transportation projects or products or are 
users of transportation products.
    A study currently underway with funding from the Volvo Educational 
and Research Foundation, involving researchers from Leeds University in 
the UK as well as from UC-Berkeley, is examining the problem of moving 
research from studies to actual use by investigating how innovative 
cities and regions learn about innovations. Preliminary findings are 
that loose networks of professional acquaintances are a principal way 
for information on innovations to be transmitted among end users, and 
that professional meetings and short articles in publications are more 
valuable to professionals than are journals. Further, meetings that 
cross disciplinary boundaries are more effective in transmitting new 
ideas than are specialty conferences, which are better at developing 
expertise than at spreading new ideas. Researchers use both formal 
journals and their own networks to learn about new ideas and to share 
them. The work suggests that an important way to speed up knowledge 
transfer is to encourage participation in professional activities, 
especially ones that can attract participation from multiple 
disciplines and specialties.
    In a related study just getting underway, UC-Berkeley researchers 
are looking at ways that transportation, urban development, and 
environmental agencies and foundations select and evaluate research and 
disseminate research findings. While the study is just getting 
underway, we have identified several good examples that could be 
adopted by U.S. transportation agencies. For example, Sweden uses 
international panels of experts to help evaluate its research agendas, 
assess research progress, and advise on action items.
    A second study reviewing transportation policies in Canada, the UK, 
and Sweden, conducted by the Center for Global Metropolitan Studies at 
UC-Berkeley, offer examples of best practices in prioritizing projects, 
including research projects. The general approach is as follows:

        1)  Adopt national goals and objectives, along with performance 
        measures which track accomplishments. Typical goals for 
        transportation are improved access, efficient movement, 
        economic growth, environmental quality, and social inclusion. 
        For each goal, specific performance measures are identified and 
        agencies must measure and report their achievements.

        2)  Require horizontal and vertical policy integration: 
        National transport policies are required to be coordinated with 
        policies for other infrastructure, housing and urban 
        development (both urban redevelopment and new town programs), 
        economic development, and the environment. In addition, local 
        and regional policies are expected to be consistent with 
        national policies. Inter-departmental and inter-governmental 
        coordination mechanisms including joint committees and jointly 
        funded programs have been established to help achieve this 
        integration. In some countries policy integration is also being 
        accomplished in part through institutional restructuring: 
        Canada's and Sweden's national transport authorities lie within 
        broader ministries, the Ministry of Transport, Infrastructure 
        and Communities in Canada (created in 2006) and the Ministry of 
        Enterprise, Energy and Communications in Sweden. The UK 
        Department for Transport (DfT) is a stand-alone ministry but 
        transport plans must align with the umbrella land use (spatial) 
        plans at the local, regional and national level and local 
        transport plans are reviewed by the DfT for adherence to the 
        spatial plans and the DfT Smarter Choices campaign to lower 
        carbon emissions.

        3)  Align project selection criteria to national goals. Project 
        selection criteria are required to reflect the national goals, 
        objectives, and performance measures.

        4)  Provide information and incentives for government at all 
        levels as well as citizens and businesses to support and help 
        meet the goals. Funding programs, tax policies, and pricing 
        strategies have been revised to focus on achievement of 
        national goals and objectives. Programs have been funded to 
        encourage citizens and businesses to reduce their carbon 
        emissions, for example. In the UK, nationally sponsored 
        marketing programs are also underway to let people know what 
        they can do to reduce emissions.

        5)  Provide funding and create room for experimentation with 
        innovative strategies. For example, both the UK and Sweden have 
        used pricing to manage congestion in their largest cities, 
        London and Stockholm; in the Swedish case this experiment was 
        led by the national government.

        6)  Encourage public-private partnerships. Canada recently 
        established and funded an Office of Public Private Partnerships 
        as a component of the $33B multi-year Infrastructure Plan.

    While these steps are largely aimed at aligning investment programs 
and projects with national goals, research agendas have been developed 
to help achieve the national goals and are being funded. In the U.S., 
such research agendas have sometimes been developed (e.g., the 
Transportation environmental research program requested by Congress) 
but there has been less consistency in connecting research expenditures 
to either the research agendas or to national policy directives.

Q3.  If UTCs were competitively awarded, what are the criteria that 
should be used in the award and evaluation process?

A3. RITA currently requires that University Transportation Centers 
report on their products in research, education, human resources, and 
tech transfer. The specific criteria are:

         1)  the number of projects selected for funding

         2)  the amount budgeted for those projects

         3)  the number of research reports published

         4)  the number of research reports presented at academic/
        professional meetings

         5)  the number of transportation courses offered

         6)  the number of students participating in transportation 
        research projects

         7)  the number of transportation degree programs offered

         8)  the numbers of students enrolled in those programs,

         9)  the number of transportation-related masters and Ph.D. 
        degrees awarded

        10)  the number of seminars, symposia, and other activities 
        conducted for transportation professionals and

        11)  the number of professionals participating in those events.

    In addition, RITA requires centers to demonstrate the capacity to 
manage the grant effectively, both in terms of business services and in 
terms of a Principal Investigator who can provide appropriate 
intellectual leadership.
    These are straightforward performance criteria that can be used to 
evaluate the productivity of the transportation centers or the capacity 
of prospective centers to perform well. The 11 criteria focus on inputs 
and outputs and hence are useful in measuring productivity. They are 
easily and objectively measured. Even so, the meaning of the numbers--
what value to place on a high or low result--still requires 
interpretation.
    In addition, university transportation centers could be evaluated 
based on outcomes or accomplishments resulting from these activities, 
including:

        1)  extent to which research results have opened up new 
        research directions, led to new fields of study, and/or led to 
        new or substantially improved practices. including systematic 
        interdisciplinary approaches addressing emerging issues in 
        science, technology and multi-agency, multi-jurisdictional, 
        and/or public-private partnerships to improve implementation of 
        research results

        2)  percent of graduates in last five or 10 years who are 
        practicing in the field of transportation; number who have 
        risen to leadership positions in the transportation field

        3)  extent to which professional practice has changed in 
        notable ways as a result of technical assistance and tech 
        transfer activities.

    These latter criteria are harder to measure and are more subject to 
interpretation. However, they are the sorts of criteria often used to 
evaluate quality and outcome changes. Independent peer review panels 
are a common way to implement evaluations using such criteria.
    Nascent groups would be placed at a disadvantage compared to long-
established centers of excellence if the focus is primarily on 
accomplishments and resources already in place, and so it may be useful 
to have separate criteria for new centers, such as the following:

        1)  a minimum of three regular/permanent (tenured or tenure-
        track) faculty members whose teaching and research is primarily 
        in the field of transportation (or a university commitment to 
        hire such faculty members during the first two years of the 
        grant)

        2)  a university commitment to offer at least one degree 
        program with a formal, university-approved specialization in 
        transportation

        3)  transportation research funding of at least 20 percent of 
        the amount of the grant on average over the past three years or 
        a commitment of matching funds of at least 20 percent of the 
        amount of the grant for the period of the grant

        4)  evidence of current or proposed collaboration (extant and 
        planned) of major State, regional and/or local transportation 
        agencies and private sector organizations with an interest in 
        transportation, as evidenced by letters of support and 
        commitments for matching funds.

    These criteria would also be useful in sizing grants to 
institutional capacity.

Ouestions submitted by Representative Adrian Smith

Q1.  Your testimony suggests that one reason for limited adoption of 
transportation technologies may be a lack of trust in the assessments 
that are available. Can you describe what factors limit the credibility 
of current assessments and can you give us an example of assessments, 
perhaps in other research areas, that have been successful? What 
actions would be required for transportation officials to restore their 
trust in these assessments?

A1. Trust in technology assessments, and more generally in assessments 
of the likely impacts of prospective investments, depends in large part 
on how accurate past assessments have been. Many studies have found 
that benefits have been overestimated and costs underestimated; the 
pattern of error is not random. Technology assessments, travel demand 
forecasts and cost estimates for new transportation investments (roads, 
tunnels, bridges, rail projects) have been the subject of considerable 
study in recent years, and scholars such as Bent Flyvbjerg and Daniel 
Kahneman (among many others) have examined why forecasts and other 
prospective assessments are inaccurate. Kahneman has identified 
psychological factors leading to ``optimism bias'' whereas Flyvbjerg 
believes that there is considerable ``strategic misrepresentation.'' 
Other factors including unforeseen changes or instabilities in factor 
prices (e.g., fuel price fluctuations) also have affected the accuracy 
of forecasts, of course, but these factors have been found to be 
insufficient to explain the gap between forecasts and results.
    Strategies that have been recommended for overcoming these problems 
include:

        <bullet>  Use of independent peer review committees as 
        evaluators. For example, both U.S. and EU universities call 
        upon outside panels of experts to review university programs. 
        Some transport programs in the EU also use peer reviews of this 
        sort to take an independent look at the justification for 
        proposed projects. While peer reviews are not perfect--
        especially if peers are drawn from a ``club'' of associates--
        awareness of their limitations has led to improvements in the 
        design of peer review teams, often by including international 
        experts, experts drawn from industry, and experts from a 
        variety of disciplines as part of the assessment team: people 
        with a bit more distance from the individuals and agencies 
        being reviewed.

        <bullet>  Scenario testing is a method that acknowledges 
        uncertainties in key factors that could shape future markets 
        and opportunities. Scenario testing has been used in the U.S. 
        by several states and Metropolitan Planning Organizations to 
        assess alternative urban development and transportation 
        investment packages and has been used by corporations such as 
        Shell to investigate energy futures as a function of, among 
        other things, public attitudes toward energy conservation and 
        the environment. The development of the scenarios is typically 
        done with multi-disciplinary expert panels, and in public 
        settings, with public involvement.

        <bullet>  The UK Department of Transport has adopted a cost 
        estimation procedure, reference class forecasting, that 
        accounts for ``optimism bias uplift'' by adjusting costs upward 
        and/or demand forecasts downward, based on past experience with 
        similar projects. It is most easily applied when there are in 
        fact similar projects, and is not as easy to apply to unique 
        projects or new ideas that have not been examined before.

        <bullet>  Focus groups are used to test consumer responses to 
        new products and options in relatively quick, inexpensive ways.

        <bullet>  Other market research techniques that can help assess 
        technologies include stated preference surveys and consumer 
        panels that participate in repeated surveys and/or focus groups 
        over a period of time, sometimes several years.

        <bullet>  Demonstration projects and field tests are ways to 
        further test markets but also to investigate implementation 
        barriers and opportunities. Demonstrations and field tests 
        often can be improved by including a wide range of stakeholders 
        in the design (so that all the factors that might affect 
        implementation are included). Third party, arms-length 
        evaluation of demonstration projects can be valuable in 
        reducing the danger of optimism bias (a risk if the evaluators 
        of the demonstration are also the proponents of the 
        demonstration) or too narrow a scope in the design and 
        evaluation of the demos and field tests.

        <bullet>  Markets can offer a test of technology readiness, 
        risks and opportunities: is there a business plan for 
        implementation and are private investors interested in the 
        opportunities presented?

Q2.  Do we need to produce a new, comprehensive strategy for our 
nation's highways? If so, should this strategy include other 
transportation modes? Who should be charged with developing such a 
strategy and how often should it be updated?

A2. I see several reasons for a new, comprehensive plan for the U.S. 
transportation system that is multi-modal.
    First, we need to find an effective way to pay for the 
transportation system. The highway trust fund is depleted, and changes 
in vehicle and fuel technologies seem likely to make the gas tax 
increasingly problematic. How to pay for both urban/metro and rural 
highways needs to be considered in terms of emerging energy futures and 
technology options. In metropolitan areas, how to pay for transit 
services also needs to be part of the discussion. New technologies can 
make paying for transportation fast, efficient, convenient, private, 
and flexible, and multi-modal applications could be made available.
    Second, we need to pay more attention to freight movements, which 
are critical to the economy but also have high impact on the Nation's 
transport systems. Truck and rail freight systems must link to each 
other and to ports and airports more effectively. Better strategies are 
needed to manage the heavy and often concentrated traffic impacts that 
result from international trade through major ports. Freight movements 
are inextricably linked to security concerns and technology 
applications and better planning and management could yield major 
improvements. A plan to pay for freight improvements equitably is also 
needed.
    Third, there are promising opportunities to reduce costs and 
improve performance by implementing new technologies for applications 
ranging from data collection to user fee collection to improved safety 
and security, but these options need evaluation in the context of 
ongoing investment programs and in comparison to more conventional 
approaches.
    Fourth, we might be able to have better, cheaper, faster 
transportation services for both passengers and freight if we 
coordinate across modes better. For example, it's increasingly 
important to discuss whether we should be investing in truckways, 
moving more freight to rail, or finding new truck-rail combinations for 
freight movements. Opportunities for better service at lower cost could 
result if we plan for and coordinate urban transit, conventional 
passenger rail, and (in some cases) high speed rail with air travel 
modes; rail could not only serve as an airport access mode but could 
simultaneously serve a substitute for some short-haul air trips (as is 
happening in the Boston-Washington corridor), and a commute option in 
some markets.
    MPOs currently prepare transportation plans that cover highways and 
transit, and increasingly address freight within their boundaries. Some 
states also have been developing strategic plans covering these 
critical topics. It would be timely to evaluate the performance of MPOs 
under the new responsibilities given them since ISTEA , to review State 
transport policy, planning, and investment strategies over the same 
period, and to look at how well states and MPOs are coordinating 
investments and evaluating projects. Such a critical review and 
assessment could be done in one to two years if mandated by Congress, 
and could provide valuable information on best practices and needed 
changes in practices. The resulting information would be extremely 
valuable in shaping a new strategic plan for USDOT and the Nation, and 
might offer new ideas on how to restructure categorical grants, create 
incentives for cost-effective and high benefit investments, and make 
better use of new technologies in transportation.

                   Answers to Post-Hearing Questions

Responses by Amadeo Saenz, Jr., Executive Director, Texas Department of 
        Transportation

Questions submitted by Chair David Wu

Q1.  In your testimony you described the benefits from the first 
Strategic Highway Research Program (SHRP). What benefits do you 
envision from SHRP-2?

A1. The Texas Department of Transportation (TxDOT) envisions that there 
will be benefits from all areas (Safety, Renewal, Reliability, and 
Capacity) of the SHRP-2 Program. All are very significant issues in 
Texas and around the country. I understand that an Implementation 
Committee with quite a few ``high level'' people involved in 
implementing technologies at their respective agencies has been 
established. Although I am not an expert on the report, I am aware that 
a Transportation Research Board Special Report 296, ``Implementing the 
Results of the Second Strategic Highway Research Program'' has been 
published. I am confident that Texas and the rest of the country will 
be able to use the results to improve safety and maximize the benefits 
of our transportation systems.

Q2.  The Texas Department of Transportation (TxDOT) sets aside funds 
for implementation of its research projects. Would you recommend that 
the Federal Government consider an implementation set-aside for 
transportation R&D projects as well?

A2. TxDOT recommends that the Federal Government consider an 
implementation set-aside for transportation R&D projects. This set-
aside could be used specifically for actual ``demonstration projects'' 
around the country. This would enable it to be used for activities such 
as training while capturing the additional costs associated with 
implementing new technologies. It is also necessary to provide 
assistance as needed and preparing implementation documents to maximize 
the R&D findings. Since a lot of money is spent on research, it is only 
responsible that we pursue cost effective implementation.

Q2a.  What percentage of the TxDOT R&D budget goes towards 
implementation and do you find that this is sufficient to fully 
implement all successful research projects?

A2a. Roughly 15-20 percent of the TxDOT R&D budget is allocated towards 
specific implementation projects. We follow up only a small percentage 
of completed research projects with an implementation project since 
many do not require one. Implementation can consist of activities such 
as adopting a specification or new standard and incorporating 
recommendations into our operating procedures as appropriate. I feel 
the budget set aside specifically for the TxDOT implementation program 
is sufficient because we incorporate that into the R&D project. Many 
times the issues are overcoming other obstacles such as staffing and 
the time and training requirement to prepare for a new technology. This 
is ``new'' and most of our staff is already extremely busy dealing with 
issues of the day and week.

Q2b.  Also, in your experience, what is required for successful 
implementation of R&D?

A2b. Successful implementation of research begins with conducting 
excellent research projects applicable to TxDOT. Most of our investment 
is applied research, meaning we have a specific problem we are trying 
to resolve. As TxDOT considers implementation of research results, we 
carefully monitor the research throughout the entire life of the 
project. We set up the project to receive deliverables needed. For 
example, if you need a specification, set up a specification as an 
actual required deliverable.
    Deliverables should be provided in ready to use formats to increase 
the chance of successful implementation. Training may also be necessary 
for employees that will have to implement a new technology. Perhaps, 
one of the most important things we discovered is the agency has to 
``own'' and ``champion'' the research. Within TxDOT, for example, the 
Division responsible for the research results would then have to 
incorporate them into their standards and operating procedures as 
appropriate. Of course, we need to have the people and resources to 
make this happen, which is one of the obstacles I addressed in my 
testimony.

Q3.  In your testimony, you noted that the USDOT could help states, 
locals, and counties implement the results of research more quickly and 
effectively if information and requirements for the new technologies 
were provided in a ready-to-use format. What do you mean by ready-to-
use format?

A3. Ready-to-use format would mean an actual specification or standard 
that could easily be adopted by State and local agencies. Another 
example would be to distribute something similar to our Project Summary 
Reports (sample attached) with completed federal research projects.

Q3a.  What information do state and local transportation officials need 
for implementation?

A3a. We believe that what would help State and local transportation 
officials with implementation is to make readily available a brief 
synopsis of completed research. For example, our Project Summary 
Reports are limited to two pages and include information about the 
following: (1) Background, (2) Research (3) Findings and (4) 
Conclusions. This makes it much easier to determine how they might use 
the research results. We also provide for our entire agency and local 
communities all of our Project Summary Reports on the Internet.

Q3b.  Why do you think the DOT does not already provide this type of 
information?

A3b. The DOT does make this type of information available on some of 
the projects. It just does not appear to be a consistent practice. We 
are simply advocating the DOT have more consistent practices in 
Research and Development in order to have the findings available for 
the State and local communities.

Q3c.  Can you provide some specific examples where the lack of usable 
information slowed the deployment of new technologies?

A3c. While I do not have any specific examples of lack of usable 
information slowing down the deployment of new technologies, there are 
research results from the DOT and other states that we have not 
implemented simply because we were not aware of the results and their 
utilization. This responsibility of course rests on the State and 
federal DOTs, lack of communication both ways can be improved. We need 
to do a better job of ``scanning'' the provided information, web pages 
and newsletters from TRB, RITA, FHWA, etc. While USDOT needs to do a 
better job of distributing information to the right State and local 
people.

Q4.  You mentioned that there was resistance by contractors towards new 
technologies. What types of incentives or aid did TxDOT use where TxDOT 
was able to convince contractors to use new technologies? Do you think 
a similar model would be successful at the federal level?

A4. We can classify incentives or aids that TxDOT has used to convince 
contractors to implement new technologies and requirements into the 
following categories: bonus/penalty in specifications, measuring 
performance-related characteristics and giving contractors flexibility 
to achieve them, provide tools to allow contractors to lower their 
costs, and implement new quality monitoring programs to reduce impact. 
All of these strategies include education and cooperation with the 
contracting industry. There would be a significant advantage if a 
similar model would be used on a federal level. See specific examples 
below for benefits at a national level.

        <bullet>  Bonus or Penalty in specifications

                  Development and implementation of Quality Control/
                Quality Assurance Hot Mix Asphalt Concrete 
                specifications.

                   When we implemented QC/QA Hot Mix Asphalt Concrete 
                specifications in the 1990's, we included bonuses and 
                penalties for mixture characteristics that produce good 
                performing hot mix. We require contractor testing for 
                quality control and TxDOT testing for acceptance, all 
                with certified technicians. We worked with the Texas 
                Asphalt Pavement Association to develop certification 
                courses to insure that all technicians, both contractor 
                and TxDOT, were certified to perform the required 
                testing.

                  Implementation of Ride Quality Specifications for 
                Pavements.

                   TxDOT conducted research to develop ride quality 
                specifications in late 1980's and early 1990's. 
                Research showed that the public's top interests were 
                smooth roads and safe roads. Implementation of the 
                current iteration of the TxDOT ride specification 
                includes bonuses and penalties, giving contractors the 
                incentive to produce smooth pavements. Additionally, 
                specifications require certified profilers and 
                operators. TxDOT worked the Texas Transportation 
                Institute to develop and operate a certification 
                program for profilers and profiler operators.

        <bullet>  Measuring performance-related characteristics and 
        giving contractors flexibility to achieve them

                  Implementation of HMA specifications to address 
                aggregate segregation, thermal segregation, and joint 
                density.

                   TxDOT originally developed specifications requiring 
                specific pieces of equipment (usually costly shuttle 
                buggies, etc.) to address these issues. These were met 
                with resistance on the part of contractors. Resistance 
                was reduced when we implemented testing to identify the 
                problems, but allow contractors flexibility to develop 
                ``fixes'' on their own without requiring specific 
                pieces of equipment.

                  ASR Mitigation Options (Preventing Alkali-Silica 
                Reaction and Delayed Ettringite Formation in New 
                Concrete)

                   Research enabled TxDOT to add an 8th mix design 
                option and validated the previously existing seven ASR 
                mitigation options in our concrete specification. It 
                has been successfully implemented by giving the 
                contractor any of eight options for concrete mix 
                designs to choose from. Their choice is based on their 
                local materials, experience, etc., and been widely 
                accepted due to the flexibility given to the contractor 
                combined with the extensive training/awareness campaign 
                that we undertook.

        <bullet>  Provide tools to allow contractors to lower their 
        costs

                  Low Coefficient of Thermal Expansion/Modulus of 
                Elasticity.

                   Continuously Reinforced Concrete Pavement Standard 
                with reduced steel percentage (to address horizontal 
                cracking in Portland cement concrete pavements). This 
                process will begin to be used on projects by the end of 
                the summer of 2009. It will be presented to the 
                contractor as a cost-savings measure to utilize if the 
                materials he is providing for the concrete pavement 
                meet certain criteria.

        <bullet>  Implement new quality monitoring programs to reduce 
        impact.

                  Implementation of the Superpave Performance Graded 
                Asphalt Binder specifications for use in all Hot Mix.

                   The Superpave Performance Graded Asphalt Binder 
                Specifications, a result of the Strategic Highway 
                Research Program (implemented by TxDOT in 1997) 
                involved a significant education and training program. 
                We used the FHWA, Asphalt Institute, Texas Asphalt 
                Pavement Association, and newly formed User/Producer 
                groups to educate contractors, asphalt suppliers, and 
                TxDOT personnel. TxDOT developed a new binder approval 
                program to address asphalt producers concerns that 
                Performance Graded Binder testing took longer to 
                complete. We now approve a binder supplier's production 
                instead of individual tanks as in the past. We give 
                monthly approval to ship product and perform ``check 
                sample'' testing at least weekly to monitor production.

Questions submitted by Representative Adrian Smith

Q1.  How are the research needs of State and local highway decision-
makers transmitted to federal research agencies?

A1. The main and perhaps most formal way that State and local research 
needs are considered is through the various Cooperative Research 
Programs managed by the Transportation Research Board (TRB). Each State 
DOT is afforded this opportunity on an annual basis. At least some of 
the various TRB technical committees collect research needs from their 
committee members, who are from both State and local agencies. With 
regards to transmitting our research needs to the Federal Highway 
Administration, we are not aware of a formal mechanism.

Q1a.  Alternately, how are the results of research performed with 
federal funding transmitted to these independent, local decision-
makers?

A1a. All of our completed research reports are available on the 
Internet so if a local agency needs information, they may be able to 
access it through those means. The larger local agencies are typically 
more in tune to some of these activities so it is easier for them. They 
are also fairly familiar with our specifications and standards. The 
smaller local agencies have, of course, different needs. They would 
only be able to apply results from a small number of our research 
projects. Our local TxDOT district employees have very good working 
relationships with these local officials and often assist them with 
some of their technical questions and needs.

Q1b.  Do the research projects themselves need to be changed to meet 
the needs of the local officials, or do the results of these projects 
simply need to be communicated more efficiently?

A1b. We all need to do a better job of simply communicating the results 
more efficiently, and perhaps more importantly, making this information 
readily available and easy to find.

Q2.  Do we need to produce a new, comprehensive strategy for our 
nation's highways? If so, should this strategy include other 
transportation modes? Who should be charged with developing such a 
strategy and how often should it be updated?

A2. Not only do we need a comprehensive strategy for our nation's 
highways, we desperately need a national transportation plan. This 
national plan should not be limited to the highways but should include 
all modes of transportation. We need to do more than mandate processes, 
we need to establish goals and meet them. States are looking for 
Congress to define a national strategy and provide the policy framework 
that empowers states to set these goals, make decisions, and deliver 
projects that implement the national strategy.
    Transportation legislation should be consumer-focused and recognize 
that Americans expect congestion relief, cleaner air, improved economic 
opportunity, well maintained roads, and increased safety. 
Transportation systems should be evaluated based on improvements in 
performance standards and predictable travel times. Processes mandated 
by law should be streamlined and harmonized to enable the delivery of 
new transportation systems, not arrest their development. The national 
strategy should be reviewed every few years to make sure it is still 
viable and not just a place holder for transportation policy.
                   Answers to Post-Hearing Questions
Responses by Robert E. Skinner, Jr., Executive Director, Transportation 
        Research Board of the National Academies

Questions submitted by Chair David Wu

Q1.  TRB will be issuing recommendations regarding research on climate 
change mitigation and adaptation.

A1. The TRB Executive Committee has been proactive about addressing 
transportation's role in climate change for some time. A self-initiated 
study in 1997 was designed to raise awareness about highway 
transportation's large and growing role in GHG emissions and to begin 
debate about mitigation options.\1\ Another self-initiated study 
completed in early 2008 addressed the potential impacts of climate 
change on transportation; it includes recommendations for important 
initiatives, research, and standards revisions to facilitate 
adaptation.\2\
---------------------------------------------------------------------------
    \1\ Special Report 251, Toward a Sustainable Future: Addressing the 
Long-Term Effects of Motor Vehicle Transportation on Climate and 
Ecology. Transportation Research Board of the National Academies. 
Washington, D.C. 1997.
    \2\ Special Report 290. Potential Impacts of Climate Change on U.S. 
Transportation. Transportation Research Board of the National 
Academies. Washington, D.C. 2008.

---------------------------------------------------------------------------
Q1a.  What has prompted this new approach?

A1a. In reviewing the proposals being developed for surface 
transportation research last summer, the Executive Committee noted the 
absence of proposals addressing climate change mitigation and 
adaptation. Hence, it initiated a fast-track project to develop 
research program proposals for Congress to consider. The first drafts 
of the background papers commissioned for that project have been shared 
with your staff. This study is being conducted by a committee of 
experts, who will use the revised drafts of these papers, other 
relevant materials, and their own experience and judgment to develop 
their findings and recommendations. The report is expected to be 
complete in the August-September 2009 time frame.

Q1b.  How much has FHWA spent to date on climate change issues?

A1b. FHWA provided an estimate that they have invested about $6 million 
over the FY 1999 to FY 2006 time period on planning and environmental 
research directly related to climate change. The USDOT total share of 
the Federal Government-wide Global Change Research Program for 2007 to 
2009 has ranged between $0.7 and $1.9 million, most of which is 
attributable to aviation research by the Federal Aviation 
Administration.\3\ Focusing only on FHWA R&D expenditures specific to 
climate change, however, is misleading. Important areas of ongoing 
research at FHWA are directly related to strategies for mitigating 
transportation greenhouse gases. For example, the results of ongoing 
traffic operations research, including ITS, to reduce congestion; 
programs to encourage and evaluate road pricing strategies; and 
improvements to regional travel and land use models will be quite 
helpful in informing future policy choices and operational strategies. 
FHWA research related to adaption will also be valuable. It has been 
investing in bridge hydraulics research to better understand and 
predict hazards from bridge scour, which may become more of a problem 
in areas that become more prone to flooding in the future.
---------------------------------------------------------------------------
    \3\ Our Changing Planet: The U.S. Climate Change Science Program 
for Fiscal Year 2009, A Report of the Climate Change Science Program 
and the Subcommittee on Global Change Research: A Supplement to the 
President's Budget. p. 232. http://www.usgcrp.gov/usgcrp/Library/
ocp2009/ocp2009.pdf

Q2.  TRB recommended that University Transportation Centers should be 
competitively awarded. What specific evaluation criteria does TRB 
---------------------------------------------------------------------------
suggest be used to evaluate and define a successful UTC?

A2. TRB has been involved in the UTC program since its inception, most 
directly in its early years. The Board convened peer review panels to 
assist USDOT in evaluating the initial applications of university 
consortia in the late 1980s, and, subsequently, to review the third and 
fourth year program plans of the centers. In 1993, TRB issued a report 
requested by USDOT to help them assess the quality of the centers.\4\ 
Much of the advice in that report remains relevant, even though the UTC 
program has grown from 10 to 60 centers and expanded its focus to 
include education and training.\5\
---------------------------------------------------------------------------
    \4\ Measuring Quality: A Review Process for the University 
Transportation Centers Program. Transportation Research Board of the 
National Research Council. Washington, D.C. 1993.
    \5\ Eight centers are authorized in Title III of SAFETEA-LU (the 
transit title) and 52 are authorized in Title V.
---------------------------------------------------------------------------
    The committee convened to prepare Measuring Quality recommended a 
three-tiered review process: (a) a program-level review to evaluate the 
collective products of each center, (b) a center-level review to 
evaluate the performance of individual centers and (c) a project-level 
review to assess the quality of individual research projects and 
courses. The committee noted that measuring quality requires making 
subjective judgments about the value of programs and the quality of 
products. It recommended reliance on review panels made of academicians 
and professionals free of conflicts of interest. USDOT subsequently 
required regular peer review of UTCs. The committee also recommended 
the development of quantitative measures of output, such as the number 
of students supported by and graduated from UTC centers and the number 
of articles and the number papers on UTC-supported research published 
in peer-reviewed journals, conference proceedings, and other scholarly 
publications.
    In its assessment of highway research, including the UTC program, 
the Research and Technology Coordinating Committee (RTCC) noted that a 
more useful output measure of the UTC educational mission than the 
number of students graduated would be the number placed in 
transportation agencies and firms.\6\ The RTCC also reiterated the 
value of reporting on peer-reviewed publications of research supported 
by UTC funds. It noted that, whereas the UTC program requires that 
centers be peer reviewed, these reviews are not shared beyond the 
center. RITA's UTC program managers, at least, should have access to 
such reviews as a basis of judging the quality of the centers funded 
with federal aid.
---------------------------------------------------------------------------
    \6\ Special Report 295: The Federal Investment in Highway Research, 
2006-2009: Strengths and Weaknesses. Transportation Research Board of 
the National Academies. Transportation Research Board of the National 
Academies. 2009, p. 121.
---------------------------------------------------------------------------
    The intent of the committee's second question implies development 
of criteria for the selection of UTCs through a competitive process. 
Although most UTCs are not selected competitively currently, the UTC 
program does have competitions for the selection of the 20 Regional and 
Tier 1 centers. TRB has not been involved in these competitions in 
recent years, so we are less familiar with current practice. 
Presumably, the criteria in use derive from the goals of the UTC 
program (multi-disciplinary education; human resource development 
through undergraduate and graduate programs; diversity of student body 
and faculty; center process for research selection; ongoing program of 
basic and applied research; and technology transfer). Also important 
would be the strength of the UTC proposed strategic plan and multi-
modal focus. Based on the work our committees, we would encourage 
consideration of output measures such as the success in placing 
students in transportation positions and track record of publishing 
peer-reviewed research, as well as the strength of center advisory 
committees. We would also stress the role of merit review involving 
peers in awarding funds to UTCs through a competitive process.

Q3.  TRB has consistently advocated that FHWA and DOT invest more in 
long-term, advanced research. What is your assessment of FHWA's 
Exploratory Advanced Research Program? Is this a model FHWA should 
follow? What lessons can be learned from the program?

A3. The RTCC has, indeed, long advocated for more advanced research at 
FHWA. In Special Report 261 issued in 2001, the RTCC recommended that 
advanced research represent approximately 25 percent of FHWA's R&T 
portfolio.\7\ SAFETEA-LU authorized $14 million annually for the 
Exploratory Advanced Research (EAR) Program. The RTCC has, 
subsequently, paid close attention to the implementation of this 
program. The committee is very pleased that Congress authorized and 
funded the program, and it views it as a genuine opportunity to expand 
federal investment in advanced highway research. The committee, 
however, is reserving judgment about whether the way FHWA has chosen to 
administer the program is the most effective approach to advanced 
research for the highway field.\8\
---------------------------------------------------------------------------
    \7\ Special Report 261: The Federal Role in Highway Research and 
Technology, Transportation Research Board of the National Academies, 
2001.
    \8\ Research and Technology Coordinating Committee, Letter Report 
of September 18, 2007. http://gulliver.trb.org/admin/blurb/
blurb<INF>-</INF>detail.asp?id=8152
---------------------------------------------------------------------------
    The RTCC is pleased with the first round of research solicitations 
though a Broad Area Announcement (BAA), which was wide open to good 
ideas from across the spectrum of highway research topics. It is also 
pleased that last year's technical corrections legislation changed the 
local matching requirement for EAR projects from 50 to 20 percent. In 
its 2008 report, The Federal Investment in Highway Research, 2006-2009, 
the RTCC expressed some concern about the narrowing of topics in the 
second round of solicitations and the share of funding for advanced 
research projects devoted to intramural research (23 percent of the 
funding allocated through 2008).\9\ Based on funds committed through 
2008, the committee prefers that a larger share of the funds be devoted 
to extramural research. (Subsequent projects may have been selected and 
funded by the program, which the RTCC has not yet reviewed, so the 
share to intramural may have declined.)
---------------------------------------------------------------------------
    \9\ See pages 91-92 of Special Report 295.
---------------------------------------------------------------------------
    The administration and conduct of an advanced research program is 
something new and exciting for the highway community, but it is one 
that will take some time to develop and mature. Advanced research 
requires a different approach than the highway research community is 
accustomed to for research administration, stakeholder involvement, 
research partnering, requests for proposals, contracting (statements of 
work, deliverables), merit review, and tolerance for risk of failure. 
FHWA, and the highway research community more broadly, is learning 
about these features as the EAR program proceeds. The good signs so far 
are a growing list of intriguing and promising projects, a much higher 
proportion of research conducted by universities than is true for the 
FHWA program in general, a new set of research partners adept at 
advanced research, and FHWA's outreach to scientists and experts in 
other federal agencies to assist it in merit review. Because the highly 
applied, short-term research model is so well established in the mind 
set of the highway research community, signs to watch out for are 
whether the program becomes too focused on near-term deliverable 
products and reliance on research organizations that have proven track 
records in applied research but less so in advanced research. The RTCC 
hopes that the EAR program will succeed and bring new understanding and 
breakthroughs, but it is premature to judge whether the program's 
current approach is the best model for the future.

Q4.  TRB emphasized the need for performance-based metrics for 
transportation R&D. Specifically, what should those metrics be?

A4. My written testimony mentions performance-based metrics only in the 
context of the administration of the highway program, in which I was 
attempting to point out the data issues that would arise from adoption 
of a performance-based highway program,

         ``Proposals already circulating that address reauthorization 
        of the surface transportation program, including the reports of 
        both SAFETEA-LU commissions, recommend that the federal aid 
        program become performance based. A true system of performance 
        measures will create enormous new demand for better data on 
        inventory condition and value, real-time system performance, 
        safety, environmental protection, and other performance 
        metrics.''

    This comment was meant to support the RTCC report recommendation 
for additional support for data collection.
    TRB has, and has had, committees providing peer review of the 
research programs of FHWA, FTA, and FRA and for peer reviews of USDOT 
strategic planning for research during the Bush and Clinton 
Administrations. From this experience, we have become somewhat 
circumspect about the prospects of developing and implementing 
successful empirical performance measures of research and development 
outcomes. It is, of course, relatively easy to develop and implement 
output performance measures for short-term, highly applied research, 
such as progress against milestones. This is widely done in both 
government and industry and in programs managed by TRB, as described in 
more detail below. We strongly endorse, however, the recommendation of 
a National Academy panel convened to address the question of evaluating 
R&D in response to the Government Performance Results Act (GPRA),

         ``The most effective means of evaluating federally funded 
        research programs is expert review. Expert review--which 
        includes quality review, relevance review, and benchmarking--
        should be used to assess both basic and applied research 
        programs.'' \10\
---------------------------------------------------------------------------
    \10\ Evaluating Federal Research Programs: Research and the 
Government Performance and Results Act. Committee on Science, 
Engineering, and Public Policy. National Academy of Sciences, National 
Academy of Engineering, Institute of Medicine. National Academy Press, 
1999, p. 5.

    Our committees have tended to be circumspect about research outcome 
performance measures for a variety of reasons: the need to have 
different expectations across different areas of research, such as 
policy, materials, ITS, safety; the long lead-time for basic research 
results to find their way into products, technologies, and practices; 
and the difficulty crediting individual research projects for outcomes 
influenced by other research and other factors. It is much easier to 
measure the impact of a materials research project that leads to a new 
specification than for a policy research project that leads to new 
understanding about travel behavior, but both outputs are important for 
the advancement of the field. As a result, committees of the National 
Academies have tended to place more emphasis on getting processes 
right--appropriate stakeholder involvement, merit review, and peer 
review of both projects and programs that help ensure achievement of 
---------------------------------------------------------------------------
the desired outcomes.

Q4a.  What are the performance metrics TRB uses for the Strategic 
Highway Research Program (SHRP), SHRP-2, and any other research that it 
funds?

A4a. Most projects undertaken in the cooperative research programs, the 
original SHRP, or SHRP-2 are expected to yield products that will find 
application in transportation practice, consequently TRB relies upon 
review of the research it manages at both the project and the program 
levels by committees that include practitioners as well as subject 
matter experts. For SHRP-2 and the cooperative research programs, every 
project is overseen by a panel of researchers and practitioners. Each 
panel prepares requests for proposals, conducts a merit review of the 
proposals received, and monitors the progress and outcomes of each 
project. We rely upon these panels for quality review of individual 
projects. Although the research reports prepared through the SHRP-2 and 
cooperative research programs appear under the name of the authors of 
the research, the results are only published by TRB if the panels so 
recommend. These panel determinations are based upon such 
considerations as whether the authors have been responsive to the 
statement of task of the RFP and whether the quality of the work meets 
standard practice. During the course of the research, the contractors 
are required to report to the panel on progress against milestones, 
including schedules.
    At the program level, an ongoing review is provided by the 
committees that oversee the research programs that TRB manages. For 
example, the National Cooperative Highway Research Program (NCHRP) is 
funded each year by the voluntary contributions of each member state of 
the American Association of State Highway and Transportation Officials 
(AASHTO). The projects are selected by AASHTO's Standing Committee on 
Research (SCOR), which also makes the funding allocation decisions. At 
the semi-annual meetings of SCOR, they are briefed on projects 
completed and published, progress against milestones of individual 
projects, and other metrics, including implementation, or usage, of 
report results (see Appendix 1). NCHRP tracks the adoption of AASHTO 
standards, specifications, and guidance that are based on NCHRP 
research results.\11\ Also, the panels of completed projects are 
surveyed every four years to find out about applications of the 
research they oversaw.\12\ In addition, TRB monitors the diversity of 
contractors selected. In 2008, NCHRP was subject of a benchmarking 
analysis conducted by directors of State and FHWA research programs.
---------------------------------------------------------------------------
    \11\ Leveraging Resources for Better Transportation. National 
Cooperative Highway Research Program. Transportation Research Board of 
the National Academies. 2002. See page 3 for a listing of the 40 AASHTO 
specifications, guides, and other documents based on NCHRP research 
over the previous decade. http://www.trb.org/NotesDocs/
NCHRPBrochure.pdf
    \12\ http://www.trb.org/NotesDocs/NCHRPSurveyResults.pdf
---------------------------------------------------------------------------
    The funding and governance models vary from NCHRP in the Transit 
and Airport Cooperative Research Programs (TCRP and ACRP), because 
Congress authorizes these programs and appropriates the funds. The 
governance of the programs, however, mirrors that of the NCHRP program. 
A special committee of the American Public Transportation Association 
(APTA) allocates funds and picks TCRP projects and a committee 
appointed by the Secretary of Transportation provides the same 
functions for ACRP. These governance committees also provide ongoing 
program reviews. As does NCHRP, in addition to reporting on program and 
project statues, TCRP briefs its oversight committee on products 
adopted by APTA members and others (see Appendix 1 for examples) and 
reports on periodic surveys of transit industry users of TCRP reports.
    The Strategic Highway Research Program 2 is yet a different model. 
Although AASHTO supported authorization of the program in SAFETEA-LU, 
and the states agreed to fund it through Title I as a percentage take-
down of their federal aid for capital and maintenance, as directed by 
Congress the oversight committee was appointed by TRB's administrative 
parent organization, the National Research Council (NRC). (The NRC is 
the operating arm of the National Academies.) This oversight committee 
is made up of representatives of State DOTs, researchers, environmental 
and safety groups, and other highway research stakeholders. As a fairly 
``young'' program, SHRP-2 has few products to review to date. So far, 
the oversight committee has been briefed on program and project status. 
Moreover, in authorizing this program in SAFETEA-LU, Congress chose to 
have it evaluated by the Government Accountability Office.
    We believe that the determination of the relevance of the research 
managed by TRB is built into the structure of these programs. The 
decisions about what research to conduct is made by the oversight 
committees themselves. The relevance of individual projects is further 
ensured by having panels that include practitioners oversee each 
project. In research programs such as these, another important measure 
of relevance is the ongoing satisfaction of the organizations that 
requested that TRB manage the research in the first place. NCHRP, for 
example, has been in existence for over 40 years, and the states have 
demonstrated their commitment to it through their annual, voluntary 
contributions to fund the program. In all these years, only one state 
has ever opted out, and it did so for only one year. The other 
cooperative programs are much younger, and are funded through a 
different mechanism, but both APTA and Airports Council International-
North America (ACI-NA), along with FTA and FAA, have demonstrated 
strong support.
    In response to a follow up question to your staff, we were asked to 
indicate how TRB decides to begin or terminate research projects. As 
indicated above, the oversight committees of the cooperative research 
programs and SHRP-2 make all the decisions about project initiation. 
Projects are occasionally terminated if the project panel overseeing 
the project concludes that the contractor is not addressing the 
commitments made in the agency's proposal or not providing quality 
work. In the case of SHRP-2, contracts for higher-risk research 
generally contain ``go/no go'' gateways which require the researchers 
to formally demonstrate the feasibility and or the utility of the 
research at an early stage in order to receive continued funding. The 
decision to continue or terminate is made by the oversight committee.

Q5.  How does TRB disseminate the results of the research it funds to 
standards development organizations (SDOs)?

A5. As described above, the products of the SHRP and cooperative 
research programs are expected to be applied in transportation 
practice. Such application, however, is constrained if standards that 
agencies can reference for design and contracting do not exist. 
Therefore, the volunteer expert groups overseeing projects encourage 
the research contractors to deliver materials that will directly enable 
SDO development of new standards or the revision of existing standards. 
For example, Superpave, a major product of the first SHRP now in use 
throughout North America, is the systematic amalgamation of 26 
different AASHTO standard specifications, test methods, and practices. 
The initial data used for development of these standards was supplied 
by the original SHRP research teams. Similarly the Load Resistance 
Factor Design (LRFD) guideline for bridge design adopted by AASHTO 
several years ago was preceded by a series of NCHRP projects addressing 
a variety of different technical concerns of AASHTO's subcommittee on 
bridges and structures. The Mechanistic-Empirical Design guidelines for 
pavements, which has been endorsed by AASHTO and is being adopted by 
states, was developed in the same manner. In both these cases, SCOR 
embarked on a deliberate program of research to revise and modernize 
these design guidelines. TCRP has also funded projects that have 
resulted in transit standards, for example a TCRP project provided 
technical information and resources that helped result in the adoption 
of many IEEE electric rail passenger vehicle standards for system and 
subsystem interfaces.\13\ TCRP also provided information to ASME that 
led to ASME standards on light-rail vehicle crash-worthiness.
---------------------------------------------------------------------------
    \13\ TCRP Research Results Digest 44: Consensus Standards for the 
Rail Transit Industry. Transportation Research Board of the National 
Academies. http://onlinepubs.trb.org/Onlinepubs/tcrp/
tcrp<INF>-</INF>rrd<INF>-</INF>44.pdf
---------------------------------------------------------------------------
    The cooperative programs often include members or liaisons from 
SDOs when conducting a project that will provide information that may 
be of use to the SDO that has responsibility for a standard. For 
example, NCHRP panels have addressed issues such as traffic signal 
visibility requirements and maintenance practices for LED traffic 
signals, and have involved ITE members and staff in doing so because 
ITE is the SDO for traffic signal heads.
    While AASHTO, APTA, and ACI-NA have strong influence in selecting 
TRB projects, other organizations also develop standards applied in 
transportation. To ensure these organizations also have access to TRB 
information that supports standards development, all reports of the 
Cooperative Research Programs and SHRP-2 are posted on TRB's website 
for free download. Completed reports are announced in TRB's weekly e-
Newsletter, which reaches more than 30,000 recipients.
    TRB's Technical Activities Division has about 200 standing 
committees made up of 4,000 individual practitioners and researchers. 
This standing committee structure functions much like a professional 
society. The mission of the standing committees is to bring 
practitioners and researchers together to identify research needs, 
stimulate needed research, provide input on research priorities and 
procedures, facilitate the adoption of appropriate research findings 
into practice, and provide a mechanism for mutual exchange of 
information on social, economic, and technological developments within 
transportation. The committees organize workshops, conferences, and the 
sessions of TRB's Annual Meeting, which attracts over 10,000 
participants. Many of the members of these committees serve on the 
standards committees of organizations such as the ITE, American 
Concrete Institute, AASHTO, APTA, IEEE, ASME and similar organizations. 
The TRB's Annual Meeting is the world's largest meeting designed for 
the sharing and dissemination of research information. Much of it finds 
its way into the hands of SDOs.

Questions submitted by Representative Adrian Smith

Q1.  Do we need to produce a new, comprehensive strategy for our 
nation's highways? If so, should this strategy include other 
transportation modes? Who should be charged with developing such a 
strategy and how often should it be updated?

A1. There has not been a Transportation Research Board (TRB) report 
addressing Mr. Smith's important questions. SAFETEA-LU did call for two 
major commissions to provide guidance to Congress on the future of the 
highway program, particularly with regard to how it should be funded. 
Both Commissions have prepared extensive and reports to Congress; The 
National Surface Transportation Policy and Revenue Commission provides 
recommendations for a comprehensive, multi-modal strategy, and well as 
recommending how such a strategy should be funded.\1\ The National 
Surface Transportation Infrastructure Financing Commission provides 
recommendations regarding funding the highway program.\2\ Funding 
issues will likely be paramount in Congressional debates about 
reauthorizing SAFETEA-LU, which expires at the end of September of this 
year, as the authorized funding from the Highway Trust Fund in 2008 and 
2009 exceeds available user tax revenues.
---------------------------------------------------------------------------
    \1\ National Surface Transportation Policy and Revenue Commission 
Report, http://transportationfortomorrow.org/
    \2\ National Surface Transportation Infrastructure Financing 
Commission, http://financecommission.dot.gov/
---------------------------------------------------------------------------
    If a TRB committee was charged to address Mr. Smith's question 
about developing a new, comprehensive strategy for our nation's 
highways, it would need to consider the character of the current 
highway program and whether it is meeting the Nation's needs as 
currently structured. The federal highway program began in 1916 with 
the first authorizing legislation and has been reauthorized and 
reshaped from time to time over the last nine decades. Although the 
program has evolved, particularly with the federal emphasis on the 
Interstate program in the middle of the last century, it has retained a 
federalist structure in which the Federal Government provides a share 
of the cost of new and rehabilitated highways, while the states, and to 
a lesser extent metropolitan areas, make the decisions about where and 
how funds should be invested to serve urban, rural, and inter-city 
passenger and freight travel demand. The states are also primarily 
responsible for maintenance, enforcement, and safety and develop the 
standards by which highway infrastructure is designed, constructed, and 
operated. The federal program is a user financed system that is almost 
completely funded by taxes on highway gasoline and diesel sales and 
through commercial vehicle excise taxes. Authorizing legislation also 
pursues federal environmental, safety, equity, and mobility goals 
through provisions in the law; moreover the law provides and allows for 
expenditures of about 15-20 percent of all user taxes paid by motorists 
and motor carriers into the Highway Trust Fund for investments in new 
transit capital. As noted in my original written testimony, the federal 
investment in highway research and development is an absolutely 
critical component of the innovation process.
    Because federal highway funding as currently structured operates 
something like a block grant to the states, there is no comprehensively 
stated strategy per se, even though the law addresses many important 
federal goals through its requirements and program funding categories. 
For example, in addition to pursuing the goals listed above, the law 
requires and helps fund metropolitan planning organizations to ensure 
adequate investment in highway and transit programs within urbanized 
areas. Thus, it is fair to say that whereas there is no single strategy 
for the current program, there are many federal, State, and 
metropolitan transportation and environmental strategies accomplished 
through current legislation.
    I provide this background in part to address the question of who 
should be charged with developing a new, comprehensive strategy and how 
often it should be updated. Clearly one option would be for the U.S. 
Department of Transportation (USDOT) to assume a leadership role in any 
such an endeavor in concert with states, metropolitan areas, and 
highway and transit users. The USDOT has prepared such policy guidance 
in the past in the form of major reports, often as a prelude to 
reauthorization.\3\ The commission model is another option. Mr. Smith 
may find that the report of the National Surface Transportation Policy 
and Revenue Commission provides the comprehensive strategy he seeks. 
Because the current program serves so many goals and has evolved over 
decades to balance federal, State, metropolitan, highway and transit 
and environmental interests, development of a new comprehensive 
strategy would no small undertaking. It would not only reconsider 
transportation goals, it would have to include reconsideration the 
current intergovernmental institutional structure for carrying out 
current highway and transit programs.
---------------------------------------------------------------------------
    \3\ See, for example, the last such report prepared by USDOT, The 
Changing Face of Transportation. http://www.bts.gov/publications/
the<INF>-</INF>changing<INF>-</INF>face<INF>-</INF>of<INF>-</INF>transpo
rtation/
---------------------------------------------------------------------------
    Mr. Smith also asks about whether a strategy should be multi-modal. 
As noted, Congress has already incorporated transit into the highway 
program by taxing highway users to pay the federal share for new 
transit capital investments and by requiring and funding comprehensive 
planning for urbanized areas. An open question is whether other surface 
modes should be financed in this manner. We have not addressed inter-
city passenger rail for some time, but in a 1991 report, our study 
committee concluded that subsidies for high-speed rail could be 
justified in some corridors, but progress in doing so was stymied by 
lack any dedicated mechanism for funding these subsidies.\4\ Current 
highway and aviation trust fund legislation preclude subsidies for 
inter-city rail.
---------------------------------------------------------------------------
    \4\ In Pursuit of Speed: New Options for Inter-city Passenger 
Transport. Special Report 233. Transportation Research Board, National 
Research Council. Washington, D.C. 1991. http://trb.org/news/
blurb<INF>-</INF>detail.asp?id=2690
---------------------------------------------------------------------------

                  Appendix: Examples of Usage of TCRP

                           and NCHRP Reports

TRANSIT COOPERATIVE RESEARCH PROGRAM

        <bullet>  Transit Capacity and Quality of Service Manual: TCRP 
        Project A-15, produced a First Edition, Transit Capacity and 
        Quality of Service Manual, that was initially available as a 
        CD-ROM and on the TRB website as TCRP Web Document 6. In late 
        2003, TCRP Report 100, Transit Capacity and Quality of Service 
        Manual: Second Edition was issued, updating and adding to the 
        material provided in the first edition. Report 100 is a 
        fundamental reference document for public transportation 
        practitioners that contains quantitative techniques for 
        calculating the capacity of bus, rail, and ferry services, and 
        transit stops, stations, and terminals. It also provides a 
        framework for measuring transit availability and quality from 
        the passenger point of view. TRB established a Task Force on 
        Transit Capacity and Quality of Service that will manage the 
        transit manual much as a TRB standing committee has long 
        overseen revisions and expansions of the Highway Capacity 
        Manual. The University of Arizona, University of Idaho, 
        Massachusetts Institute of Technology, Portland State 
        University, and the Queensland University of Technology all 
        report incorporating the manual into transportation education 
        programs. In addition, all Metropolitan Planning Organizations 
        in Florida, at the request of the Florida Department of 
        Transportation, are assessing their transit systems using the 
        quality of service concepts outlined in the manual. Transit 
        agencies in Atlanta, Birmingham, Broward County (FL), DuPage 
        County (IL), San Antonio, New Orleans, Seattle, Washington 
        (DC), San Francisco, MTA New York City Transit, Adelaide 
        (Australia), and Dublin (Ireland) also report using the manual 
        for transit planning processes and quality of service 
        evaluations. AC Transit in Oakland reports that its Board of 
        Directors is currently reviewing the quality of their services 
        as they relate to the quality of service parameters in TCRP 
        Report 100. The National Transit Institute offers a course on 
        the material in the manual.

             The Institute of Transportation Engineers (ITE) reports 
        that it is using material from TCRP Report 100 in a new 
        textbook that they are developing, titled Professional 
        Transportation Planner (PTP) Certification Program Refresher 
        Course Handbook.

        <bullet>  Transit Vehicles and Maintenance: TCRP Report 29, 
        Closing the Knowledge Gap for Transit Maintenance Employees: a 
        Systems Approach, addresses the maintenance skill supply, the 
        skill needs and effective training methods. It is very popular 
        with maintenance personnel, because it is ``down to Earth'' and 
        squarely addresses the technology, diagnostic, and skill 
        development issues mechanics are facing. The Transit Authority 
        of River City in Louisville, Kentucky, has given copies to all 
        of its maintenance personnel, and uses the report as a basis 
        for staff meetings and maintenance services delivery. Pierce 
        Transit in Tacoma, Washington, also used the report as part of 
        their maintenance team concept. It provides ideas for skills 
        utilization and performance measurement that are being 
        incorporated, with union support, into skills-based career 
        ladders. The National Transit Institute selected Report 29 for 
        a very successful teleconference seminar that featured 
        prominent maintenance managers in a call-in radio format.

        <bullet>  TCRP Report 43, Understanding and Applying Advanced 
        On-Board Bus Electronics, is being used by Pierce Transit in 
        Tacoma, Washington, and other transit agencies to give staff a 
        better understanding of multiplex wiring and intelligent fleet 
        systems. A comment received on the APTA TCRP website states,'' 
        this is a great report; a terrific help to understanding what 
        is going on, written at the level of the intelligent layman/
        engineer.'' This report has become a basic primer for bus on-
        board electronics.

        <bullet>  Pierce Transit also reports that TCRP Report 25, Bus 
        Operator Workstation Evaluation and Design Guidelines, was used 
        to change the specifications for new coaches. Specifically, 
        they ordered smaller steering wheels and air-ride seats to 
        reduce driver fatigue. Also, a major North American bus 
        manufacturer advertises that its new driver workstation ``is 
        ergonomically designed to meet TCRP recommendations,'' 
        indicating that Report 25 and its comprehensive companion, Web 
        Document 1, were used in the redesign of the bus.

        <bullet>  TCRP Synthesis 2, ``Low-Floor Transit Buses,'' 
        described the technology and issues associated with low-floor 
        transit buses as of January 1994. TCRP Report 41 updates 
        information on the current market for low-floor buses, and 
        provides a summary of operating experiences on the basis of 
        discussions with transit agencies and low-floor bus 
        manufacturers. Many transit systems have used this material in 
        their evaluations of low-floor vehicles for bus purchasing 
        decisions.

        <bullet>  TCRP Projects C-12, Configuration Options Supplement 
        to Standard Purchase Specifications for Transit Buses, and C-
        13, 30-Foot, Heavy Duty Bus Technical Specifications developed 
        standard bus specifications for different types of heavy-duty 
        transit buses using an industry consensus process administered 
        by the American Public Transportation Administration (APTA). 
        Specifications were prepared for the following buses: (1) 35/
        40-foot, heavy-duty, diesel, low-floor; (2) 35/40-foot, heavy-
        duty, compressed natural gas, low-floor; and (3) 30-foot, 
        heavy-duty, diesel, low-floor. In addition, generic 
        specifications for the bus operator workstation and on-board 
        bus electronics have been completed, and incorporated in the 
        bus specifications described above. These specifications are 
        available through APTA. Many transit systems are incorporating 
        the standard specifications in their bus procurement processes.

        <bullet>  TCRP Report 61, Analyzing the Costs of Operating 
        Small Transit Vehicles, provides a User's Guide that explains 
        an accompanying Small Transit Vehicle Economics (STVe) 
        computer-based model. STVe is a tool designed for transit 
        planners and others making decisions about the purchase of 
        small transit vehicles for different services and operating 
        environments. The STVe is based on the principles of 
        engineering economics and allows the user to assess whether it 
        makes economic sense to invest in a particular type of vehicle, 
        based on user-defined inputs. The User's Guide describes how to 
        run the model and interpret the results. It also explores non-
        financial aspects that may influence the vehicle purchasing 
        decision. A number of transit systems have indicated the use of 
        the report and its tool in their bus purchasing decisions.

        <bullet>  Bus Stop Location/Design: TCRP Report 19, Guidelines 
        for the Location and Design of Bus Stops, provides guidelines 
        for locating and designing bus stops in various operating 
        environments. The Central Contra Costa Transit Authority 
        reports that it uses this report to assist them in making 
        recommendations for the location of bus stops to their member 
        jurisdictions.

        <bullet>  Pedestrian Safety: TCRP/NCHRP Report 112/562, 
        Improving Pedestrian Safety at Unsignalized Crossings was 
        approved by the National Committee of the MUTCD. As a result, 
        the next version of the MUTCD will include changes in the area 
        of Pedestrian Beacon and Pedestrian Signal Warrant.

        <bullet>  Standardized Railcar Systems: Transit rail operators 
        could save as much as $120 million as a result of the 
        development of uniform technical standards for rail vehicle 
        systems and subsystems. Through TCRP Project G-4, an Institute 
        of Electrical and Electronics Engineers (IEEE) Rail Transit 
        Vehicle Interface Standards Committee was formed as part of the 
        standards-development process. The Committee formed 15 working 
        groups to prepare standards for specific interfaces. In 
        addition, an American Society of Mechanical Engineers (ASME) 
        Committee was formed to develop mechanical standards for 
        railcars. This ASME Committee focused on the structural 
        strength and crash-worthiness of light rail and rapid transit 
        cars. The standards, which should lower the cost of transit 
        railcars and replacement parts, reduce parts inventories, and 
        simplify maintenance, evolved through a consensus-building 
        process. The project involved significant in-kind contributions 
        by the transit industry, leveraging the TCRP investment by a 
        ratio of approximately eight to one. Under the TCRP project, 
        nine standards were formally published by the IEEE, and a 
        number of others were in various stages of production in 2002, 
        when the process was transitioned to APTA sponsorship. It has 
        been reported that SEPTA used a draft version of a standard 
        outlining communications-based train control (CBTC) performance 
        and functional requirements in its CBTC procurement document 
        for its light rail tunnel. The MTA NYCT has indicated that the 
        standards have helped them finalize technical specifications 
        for the procurement of more than 2,000 new subway cars. In 
        addition, New Jersey Transit reported that it would save 
        approximately $420,000 per year as a result of the use of the 
        IEEE standard for communications protocols aboard trains 
        developed by this effort. To date, the standards have been 
        cited in specifications issued by the Chicago Transit 
        Authority, Massachusetts Bay Transportation Authority, MTA Long 
        Island Railroad, MTA New York City Transit, New Jersey Transit, 
        Washington Metropolitan Area Transit Authority, and the 
        Southeastern Pennsylvania Transportation Authority. The 
        Illinois Department of Transportation also cited the standards 
        in their positive train control procurement project.

        <bullet>  Rail Infrastructure Research: TCRP Report 57, Track 
        Design Handbook for Light Rail Transit, provides guidelines for 
        the design of various types of light rail transit track. Track 
        structure types include ballasted, direct fixation 
        (``ballastless''), and embedded track. The components of the 
        various track types are discussed in detail. The handbook 
        includes chapters on vehicles, alignment, track structures, 
        track components, special track work, aerial structures/
        bridges, corrosion control, noise and vibration, signals, and 
        traction power. These chapters provide insight into 
        considerations that affect track design and require interface 
        coordination. A consultant reported that he had used the 
        handbook on LRT design projects in Baltimore and Tampa. In 
        addition, the Charlotte Area Transit System reported that it 
        used the report to review the design aspects of its planned 
        light rail system as they were developed by the system's 
        consultants. The Denver RTD also reported that the handbook was 
        used as the basis for designing its light rail extension. AREMA 
        Committee 12 is currently updating Chapter 12 of the AREMA 
        track standards for transit application. The committee is 
        drawing heavily from TCRP Report 57.

        <bullet>  Fare Structures, Systems, and Technologies: TCRP 
        Report 80, A Toolkit for Self-Service, Barrier-Free Fare 
        Collection, addresses the full range of issues and parameters 
        that an agency must consider in determining the applicability 
        of self-service fare collection systems, including those 
        related to policy and enforcement issues, operational issues, 
        and capital and equipment issues. The Charlotte Area Transit 
        System (CATS) reports that this TCRP publication served as the 
        centerpiece for recommendations associated with establishing 
        regulations to address fare evaders, and other safety/security 
        matters associated with operating the barrier-free fare 
        collection system proposed for their light rail system.

        <bullet>  Track Sharing: TCRP Report 52, Joint Operation of 
        Light Rail Transit or Diesel Multiple Unit Vehicles with 
        Railroads, identifies and discusses issues associated with the 
        joint operation of light rail transit (LRT) or lightweight 
        diesel multiple unit (DMU) vehicles with freight and/or 
        passenger railroads. For the purposes of this report, joint 
        operation is defined as co-mingled, simultaneous train 
        operation on shared track by railroad trains (freight and/or 
        passenger) and rail transit vehicles that are not fully 
        compliant with current Federal Railroad Administration (FRA) 
        regulations. The report identifies and discusses issues 
        associated with such joint operation, focusing on the current 
        regulatory and institutional environment, railroad and rail 
        transit operations, infrastructure, and rolling stock. In 
        addition, substantial information concerning joint operation 
        overseas is presented and discussed. This report has been a 
        primary source of information to assist in the debate on the 
        issue of track sharing in the United States.

        <bullet>  Public Transportation to Airports: TCRP Report 62, 
        Improving Public Transportation Access to Large Airports, 
        presents available data on the use of public transportation at 
        large U.S. airports and selected international airports, as 
        well as related evolving trends. The report provides examples 
        of successful airport access systems from around the world; 
        presents key factors affecting the use of public transportation 
        by airline passengers and employees; identifies new and 
        emerging technologies that have the potential to improve public 
        transportation services at airports; and describes the 
        institutional environment and factors affecting public 
        transportation at large U.S. airports, including airport 
        structure, funding for airports, and agreements with airlines. 
        This report has been useful to several transit agencies 
        investigating potential rail links to airports in their service 
        areas.

        <bullet>  Evaluating Fuel Options for Buses: TCRP Report 38, 
        Guidebook for evaluating, Selecting and Implementing Fuel 
        Choices for Transit Bus Operations (C-8), provides information 
        on the performance, cost, safety, and facility requirements of 
        five transit bus fuels: diesel (baseline for comparison), 
        compressed natural gas, liquefied natural gas, methanol, 
        ethanol and liquefied petroleum gas. An accompanying cost model 
        spreadsheet, FuelCost 1.0, enables users to estimate and 
        compare the cost impacts of fuel choices. VIA Transit in San 
        Antonio used the software to aid them in selecting an 
        alternative fuel and in justifying the decision to their 
        management and Board of Directors.

        <bullet>  Rural Transit: TCRP Report 54, Management Toolkit for 
        Rural and Small Urban Transportation Systems, identifies an 
        array of management principles and techniques, for use by small 
        urban and rural public transportation providers, to assist in 
        managing their transportation services more effectively. The 
        toolkit has two parts: a guidebook and a self-assessment tool. 
        The guidebook introduces the idea of customer-driven transit 
        service attributes and includes general management 
        philosophies. Included in the guidebook are exemplary practices 
        and ``how to'' instructions for some topics. Additional 
        sections describing ``rules of thumb'' or ``things to avoid'' 
        are included for some management processes. A self-assessment 
        computer-based tool on disk accompanies the report. The tool is 
        designed to give the user a baseline or current picture of the 
        status of the transit system. The West Virginia Division of 
        Public Transit distributed copies of this report to all of the 
        rural operators in the state and also brought in the consultant 
        who produced the report to give a training session. The 
        Division of Public Transit indicates that the report, and its 
        accompanying tool, have been very useful to the rural operators 
        in West Virginia.

                <bullet>  TCRP Report 70, Change and Innovation at 
                Rural and Small Urban Transit Systems, addresses the 
                culture for change and innovation, and presents more 
                than 40 initiatives and innovations implemented by an 
                array of organizations including public and nonprofit 
                transit systems, regional planning agencies, State 
                transit associations, and State departments of 
                transportation. The Southeast Missouri Transportation 
                Service reports that the report ``. . . has been a 
                valuable resource in improving our service.'' They have 
                used the report to ``. . . define our corporate 
                culture, and focus on our values, attitudes and beliefs 
                for the process of change.'' Also, ``. . . this report 
                has challenged us to be the best we can be and view 
                challenges as opportunities for new ways of doing 
                things.''

        <bullet>  Bus Rapid Transit: TCRP Report 90, Bus Rapid Transit, 
        a two-volume set, identifies the potential range of bus rapid 
        transit applications through 26 case studies, and provides 
        planning and implementation guidelines for bus rapid transit. 
        The Charlotte Area Transit System reports that they found the 
        case studies in Report 90, Volume 1 very helpful as they were 
        preparing information on bus rapid transit to share with their 
        board. The Fairfax County (Virginia) Department of 
        Transportation reports that it has used Report 90 extensively 
        in the planning for a BRT system in the Richmond Highway 
        corridor of the county.

                <bullet>  TCRP Report 118, Bus Rapid Transit 
                Practitioner's Guide, provides information on the 
                costs, impacts, and effectiveness of implementing 
                selected bus rapid transit (BRT) components. It 
                includes practical information that can be readily used 
                by transit professionals and policy-makers in planning 
                and decision-making related to implementing different 
                components of BRT systems. This report updates some of 
                the information presented in TCRP Report 90: Bus Rapid 
                Transit and presents the latest developments and 
                research results related to the costs and impacts of 
                implementing various BRT components and their 
                effectiveness. The California Department of 
                Transportation (CALTRANS) indicated that they use TCRP 
                Report 118 as the basis for a course for CALTRANS 
                personnel, particularly highway/traffic engineers. 
                Purdue University notes that the material in Report 118 
                is used in a course covering bus rapid transit.

        <bullet>  Transit Operator Fatigue: TCRP Report 81, Toolkit for 
        Transit Operator Fatigue, documents principles, techniques, and 
        strategies that can be used in the development of fatigue-
        mitigation plans. The Toolbox includes a ``how to'' component 
        on the design, implementation, and evaluation of fatigue-
        mitigation plans. An accompanying CD-ROM provides specific 
        tools, such as posters for operator rooms, that address fatigue 
        issues. The National Transit Institute (NTI) prepared a one-day 
        course on the report, and offered it at eight locations 
        throughout the country in the first half of 2003. The Santa 
        Clara Valley Regional Transportation Authority (VTA) in San 
        Jose, California reports that it has implemented many of the 
        tools in the report that were taught at the NTI training 
        classes.

        <bullet>  The Image of Transit: TCRP Report 63, Enhancing the 
        Image and Visibility of Transit in the United States and 
        Canada, assists professionals at the local, regional, and 
        national levels interested in improving the visibility and 
        image of transit in the United States and Canada through the 
        implementation of image campaigns. The report documents and 
        presents how the image of transit can be strengthened by 
        building on existing positive perceptions. The research 
        provides a communications strategy to guide national, regional, 
        and local efforts to enhance the image and visibility of 
        transit in order to create a more positive and supportive 
        environment. The results of this effort are being used in 
        APTA's Public Transportation Partnership for Tomorrow (PT)2 
        program. It has also been reported that the results were used 
        in the development of marketing campaigns in Arizona and 
        Pennsylvania. Funding assistance for the Canadian element of 
        the research was provided, in part, by Transport Canada through 
        the Canadian Urban Transit Association.

        <bullet>  Professional Capacity Building: Universities and 
        State departments of transportation have requested TCRP 
        materials, and sometimes the author, in support of training 
        courses. The New York State Department of Transportation 
        requested copies of TCRP Synthesis 22, Monitoring of Bus 
        Maintenance Performance, for use in state-level training. The 
        Pennsylvania Transportation Institute used copies of Measuring 
        Customer Satisfaction and Service Quality: A Handbook for the 
        Transit Industry in a course on customer service. The tools 
        from that report were utilized in Pennsylvania. Minnesota DOT 
        reported that Synthesis 30, ADA Paratransit Eligibility 
        Practices, was beneficial to the DOT staff and was frequently 
        requested by transit agencies in Minnesota. The author of TCRP 
        Synthesis 8, Retrofit of Buses to Meet Clean Air Regulations, 
        conducted six workshops on the subject at the request of 
        agencies striving to comply with the complex regulations. He 
        also conducted workshops for Florida DOT based on Synthesis 12, 
        Transit Bus Service Line Cleaning Functions.

             The Civil Engineering Department at the University of 
        Nevada, Las Vegas developed a graduate course in transportation 
        using TCRP Reports 16, 27, 30, 33, 35, 36, and the CD-ROM on 
        Transit Capacity and Quality of Service as source materials.

             Rutgers University is using TCRP Report 30, Transit 
        Scheduling: Basic and Advanced Manuals, and TCRP Report 100, 
        Transit Capacity and Quality of Service Manual: Second Edition 
        in a course entitled Transit Management and Planning. The 
        course is part of the Master's program at Rutgers University 
        Bloustein School of Planning and Public Policy.

             Two products are especially useful to travel demand 
        forecasters:

                 --TCRP Report 95, Traveler Response to Transportation 
                Systems Changes: Third Edition will be published as a 
                19-volume report, updating a handbook last published in 
                1981. This handbook will equip members of the 
                transportation profession with a comprehensive, readily 
                accessible, interpretive documentation of results and 
                experience observed across the United States and 
                elsewhere of traveler responses to different types of 
                transportation system changes. To date, the first 
                thirteen volumes of this report have been published--
                Chapter 2, HOV Facilities; Chapter 3, Park-and-Ride/
                Pool; Chapter 5, Vanpools and Buspools; Chapter 6, 
                Demand Responsive/ADA; Chapter 9, Transit Scheduling 
                and Frequency; Chapter 10, Bus Routing and Coverage; 
                Chapter 11, Transit Information and Promotion; Chapter 
                12, Transit Pricing and Fares; Chapter 13, Parking 
                Pricing and Fees; Chapter 14, Road Value Pricing; 
                Chapter 15, Land Use and Site Design; Chapter 17, 
                Transit Oriented Development; and Chapter 18, Parking 
                Management and Supply. Remaining chapters will be 
                published throughout the remainder of 2008 as they 
                become available. The Metropolitan Atlanta Rapid 
                Transit Authority reports that it used Chapter 11 in 
                the development of its 2005 Marketing Action Plan. 
                Bloomington (IN) Transit reports using Chapter 3 in 
                discussing commuter parking lot impacts with adjacent 
                community groups. The University of Florida reports 
                that Chapter 15, Land Use and Site Design, has been 
                incorporated in a course being offered.

                 --TCRP Report 73, Characteristics of Urban 
                Transportation Demand, examines macro transportation 
                characteristics such as daily trips per capita, daily 
                trips by mode, average trip length, vehicle miles of 
                travel per household, trip chaining, and parking ratios 
                by type of work site. The final report provides a 
                compendium of multi-modal information for 
                transportation planners, provided in both printed and 
                electronic form.

             The Southeastern Pennsylvania Transportation Authority 
        (SEPTA) human resources department indicates that they use the 
        following TCRP publications, among others, in their on-going 
        training programs:

                (1)  TCRP Report 27, Building Transit Ridership: An 
                Exploration of Transit's Market Share and the Public 
                Policies That Influence It

                (2)  TCRP Report 28, Transit Markets of the Future: The 
                Challenge of Change

                (3)  TCRP Report 77, Managing Transit's Workforce in 
                the New Millennium

                (4)  TCRP Report 88, A Guidebook for Developing a 
                Transit Performance Measurement System

                (5)  TRB Special Report 257, Making Transit Work: 
                Insight from Western Europe, Canada, and the United 
                States (funded through TCRP)

                (6)  TCRP Synthesis 16, Changing Roles and Practices of 
                Bus Field Supervisors

                (7)  TCRP Synthesis 40, A Challenging Employment 
                System: Hiring, Training, Performance Evaluation, and 
                Retention of Bus Operators

                (8)  TCRP Synthesis 45, Customer Focused Transit

                (9)  TCRP Synthesis 47, Corporate Culture as the Driver 
                of Transit Leadership

             The American Planning Association is incorporating 
        material from several chapters of TCRP Report 102, Transit 
        Oriented Development in the United States: Experiences, 
        Challenges, and Prospects in their Transit Oriented Development 
        Planners Training Service course.

             The Commonwealth of Puerto Rico, Highway and 
        Transportation Authority, Department of Public Works, Oversight 
        Systems Safety Manager, incorporates TCRP publications for 
        training at Tren Urbano.

        <bullet>  Workforce Development Initiative. Two TCRP reports 
        have served as key inputs to APTA's Workforce Development 
        Initiative. TCRP Research Results Digest 45, ``Identification 
        of the Critical Workforce Development Issues in the Transit 
        Industry,'' provides a scoping study that identifies: the most 
        important challenges that the transit industry faces in 
        workforce development; current innovative approaches to 
        workforce development on the part of both transit agencies and 
        external ``benchmarks''; the most useful potential products of 
        the Workforce Development Initiative; and the next steps that 
        should be taken to help the transit industry address workforce 
        development on an effective, ongoing basis.

           TCRP Report 77, Managing Transit's Workforce in the New 
        Millennium, assesses the transit industry's workforce needs and 
        prospects for the coming decades. Further, the report provides 
        guidelines to enable employers to assess the their own 
        workforce needs, describes best practices for recruiting and 
        retaining employees, and identifies ways to enhance or 
        establish partnerships between management and labor for 
        attracting, training, and maintaining a qualified workforce.

        <bullet>  Transit Scheduling: Scheduling is one of the basic 
        skills in the transit industry. TCRP Report 30, Transit 
        Scheduling: Basic and Advanced Manuals, updates a 50-year-old 
        predecessor, providing step-by-step instructions in trip 
        building, blocking, run-cutting, and rostering. The report is 
        written in the form of a training manual, and has proved very 
        popular. The Metropolitan Transit Development Board in San 
        Diego requested copies for the scheduling staff. University and 
        state DOT staff have also requested multiple copies for use in 
        graduate level courses and for training staff: Institute for 
        Transportation Research and Education, North Carolina State 
        University; the National Center for Advanced Transportation 
        Technology, the University of Idaho; and the Oregon Department 
        of Transportation. SunTran (Ocala, FL) reports using Report 30 
        to train their schedulers.

        <bullet>  Software for Transit Risk Managers: Identification of 
        risk exposure is the cornerstone of the risk-management 
        process, because the other elements of risk management rest on 
        the accuracy and completeness of this process. TCRP project G-3 
        developed risk management software and a User's Guide tailored 
        to the needs of transit risk managers. The software was 
        demonstrated at the 1996 APTA Risk Management Seminar and at 
        the 1996 APTA Annual Meeting. Copies were also distributed by 
        the usual J-1 distribution method. Through the TCRP J-1 
        project, APTA prepared the product for distribution, 
        professionally packaged like commercial software. Two companion 
        Research Results Digests cover identification of risk exposure, 
        risk assessment, loss control programs, and guidelines for 
        consistent collection of loss data. The Hillsborough Area 
        Regional Transit Authority reported that they have used the 
        software extensively to help identify potential risks.

        <bullet>  Technology Transfer from International Experience. 
        TCRP Project J-3, International Transit Studies Program: The 
        International Transit Studies Program is a leadership 
        development program intended to foster a multi-modal-mobility-
        manager approach to urban transportation. Participants in the 
        program bring innovative ideas from overseas to transportation 
        agencies in the United States. The Massachusetts Bay 
        Transportation Authority reported three major operational 
        changes as a result of staff exposure to new ideas from abroad. 
        The Blue Line was converted to single-person train operation, 
        saving over $1 million per year. Opponents of the change were 
        won over by the extensive documentation of European cities that 
        made successful conversions to single-person train operation, 
        by installing CCTV cameras on platforms as observed in Vienna, 
        and by engaging in a public outreach campaign. The MBTA also 
        introduced low-floor light rail cars and accelerated the change 
        to a new station management system supported by the integration 
        of automated fare collection equipment and security systems 
        based, in part, on the observations of the modernization of 
        older European transport systems to much safer, more secure, 
        customer friendly station environments. NJ Transit reported 
        that information gathered by staff who participated in a study 
        mission greatly increased NJ Transit's confidence in low-floor 
        light rail cars and helped support the decision to purchase 
        low-floor cars. Also information on transit's contribution to 
        livable communities in Europe was used as part of a transit-
        friendly land use initiative in New Jersey. NJ Transit also 
        reported that information obtained in Europe about contactless 
        smart cards was evaluated for possible application in New 
        Jersey. At that time, European applications had gone beyond 
        testing to implementation. Riverside Transit reported that 
        information about integrated school and public transportation 
        in Europe assisted them with an initiative in the Los Angeles 
        area to demonstrate the feasibility of such integrated service. 
        She also reported that information about corridor preservation, 
        the use of art in transit, and strategies to improve livability 
        of cities were applicable to issues she was facing at home. The 
        London Docklands LRT is using moving block signal technology, 
        and American transit agencies that are considering this 
        technology found it reassuring to see that it works in practice 
        as well as in theory. Participants were also impressed with 
        improved transportation efficiencies achieved in Britain 
        through increased use of private contractors and increased 
        competition.

        <bullet>  Low-Floor Light Rail Vehicles: A number of transit 
        systems, e.g., NJ Transit, SEPTA, and Santa Clara County, have 
        used a TCRP database on available low-floor light rail vehicle 
        (LFLRV) technologies and their characteristics as input into 
        the development of potential LFLRV specifications. The project 
        demonstrated, according to reports from Santa Clara County, 
        that LRVs with 70 percent of the floor area in low-floor 
        configuration minimize the risks associated with new rail car 
        design, because they use traditional trucks, but still provide 
        the advantages of a low floor for ADA compliance. This 
        influenced their decision to plan for low floor LRVs. Santa 
        Clara County staff estimated savings on the order of $20 
        million, attributable to not building expensive ramps for 
        access by the disabled. Low-floor vehicles accommodate disabled 
        persons, please the general public because the ramps would have 
        detracted from the architectural aesthetics of a downtown 
        transit mall, and save money. This was a win-win decision.

        <bullet>  Alternative Fuel Safety: NJ Transit and several bus 
        manufacturers reported that they used TCRP Synthesis No. 1, 
        Safe Operating Procedures for Alternative Fuel Buses, as a 
        planning tool. One bus manufacturer reported that it made 
        copies available to staff to inform them of safe handling 
        procedures. At two conferences in Pennsylvania on alternative 
        fuel buses, sponsored by the Rural Transportation Assistance 
        Program (RTAP), most of the 35 to 40 attendees reportedly had 
        this document with them or had read it. The majority of 
        knowledge that these operations personnel had about alternative 
        fuels at this point reportedly came from TCRP Synthesis No. 1. 
        Fuels like methanol, compressed natural gas, and liquefied 
        natural gas have characteristics very different from diesel 
        fuel or gasoline and are dangerous if handled incorrectly. This 
        synthesis provided information on safe procedures for handling 
        alternative fuels.

        <bullet>  Operational Savings: TCRP Report 4, Aids for Rail Car 
        Side-Door Operation, provides guidance on the safest ways for 
        the operator to observe door operation, thereby making it 
        possible to eliminate conductors in some circumstances. This 
        report was a key information resource for the Massachusetts Bay 
        Transportation Authority (MBTA) during the conversion of the 
        Blue Line to a single-person train operation in 1996, saving $1 
        million annually. The report was submitted to the Massachusetts 
        State Legislature and the state regulatory agency during public 
        hearings concerning the initiative.

        <bullet>  Standardized Light Rail Signing for Improved Safety: 
        A draft version of a new light rail chapter for the Manual on 
        Uniform Traffic Control Devices (MUTCD) was prepared as part of 
        TCRP Project A-5, Integration of Light Rail Transit into City 
        Streets. The TCRP contractor worked closely with the LRT 
        Subcommittee of the MUTCD Committee on Railroad-Highway Grade 
        Crossings to incorporate a new LRT chapter into the Millennium 
        version of the MUTCD. The MUTCD is the document that contains 
        nationally accepted standards for roadway signing and 
        signaling, a critical element of traffic safety.

        <bullet>  Track Maintenance Safety: A National Transportation 
        Safety Board (NTSB) report that was released in January 2008 
        referred to track-worker alert technology in its report on how 
        to prevent future track-worker incidents. That track worker 
        alert technology that NTSB referred to was developed and tested 
        in TCRP IDEA Project 55, ``Warning Device for Rail Rapid 
        Transit Personnel for Approaching Trains,'' and NTSB 
        demonstrated that technology at their public board meeting. The 
        IDEA project included testing of the technology at MTA New York 
        City Transit and the Greater Cleveland Regional Transit 
        Authority.

        <bullet>  Reduced Visual Impact of Overhead Wire: The Greater 
        Cleveland RTA used the results of TCRP Project D-4, Visual 
        Impact of Overhead Contact Systems for Electric Transit 
        Vehicles, in planning an RTA extension. The findings of this 
        project were particularly significant, because citizen 
        opposition to overhead wire is one of the primary roadblocks to 
        LRT acceptance.

        <bullet>  Transit Performance Measures: The Wisconsin DOT 
        reported that two TCRP publications were very useful in 
        reviewing transit performance measures and their use in 
        allocation formulas: TCRP Synthesis No. 6, The Role of 
        Performance-Based Measures in Allocating Funding for Transit 
        Operations, and The Quality Journey: A TQM Roadmap for Public 
        Transportation. The experiences of other states were found to 
        be particularly helpful. TRB documents were reported to be of 
        value in developing a long-range statewide transportation plan 
        and in providing guidance to the Metropolitan Planning 
        Organizations in the state. The Greater Cleveland RTA reported 
        that it used TCRP Report 88, A Guidebook for Developing a 
        Transit Performance-Measurement System, to assist in a review 
        of their performance-measurement system. In addition, LYNX in 
        Orlando, Florida indicated that it used TCRP Report 88 during 
        its 2004 strategic planning process.

        <bullet>  Public Transportation Boards: TCRP Report 104, Public 
        Transportation Board Effectiveness: A Self-Assessment Handbook, 
        provides a self-assessment process and tools to measure public 
        transportation board effectiveness and provides references on 
        how board characteristics can be changed to improve board 
        effectiveness in various areas. The handbook also identifies 
        the characteristics of public transportation boards that 
        influence transit system performance. A number of transit 
        agencies, including the Dallas Area Rapid Transit (DART), 
        indicated that they implemented the board self-assessment 
        process developed in the report. The Small Urban & Rural 
        Transit Center reports that it is using Report 104 as part of a 
        2.5 hour presentation on the roles and responsibilities of 
        transit board members at the 2007 Dakota Transit Association 
        Conference.

        <bullet>  Application of Artificial Intelligence To Railcar 
        Maintenance: A potentially cost-effective use of artificial 
        intelligence technology was identified to assist railcar 
        maintenance personnel in their diagnosis of railcar propulsion 
        system maintenance problems. TCRP Report 1, Artificial 
        Intelligence For Transit Railcar Diagnostics, recommended 
        testing the technology on the propulsion system, because the 
        potential for savings is the greatest. The project was 
        continued in order to conduct an operational test of the 
        concept. A successful demonstration was completed at the 
        Washington Metropolitan Area Transit Authority. The results of 
        the demonstration are summarized in TCRP Report 44.

        <bullet>  Commuter Benefits Programs: TCRP Reports 87, 
        Strategies for Increasing the Effectiveness of Commuter 
        Benefits Programs, and 107, Assessing the Costs and Benefits of 
        Commuter Benefits Programs, provide significant information and 
        guidance regarding the implementation of commuter benefits 
        programs. The U.S. Environmental Protection Agency (EPA) has 
        indicated that information from these publications is being 
        used to document some of the impacts that might result from the 
        EPA's Best Workplaces for Commuters Program. In addition, the 
        contractors for Report 107 were presented with the 2005 
        Transportation Demand Management Institute Research Excellence 
        Award. This award is presented annually to the research project 
        noted for its substantial contribution to the field of 
        transportation demand management.

        <bullet>  Transit Security: The Cambria County Transit 
        Authority (CamTran) in Johnstown, Pennsylvania reports that it 
        used the revised final report for Project J-10D, Security 
        Planning Tools for Rural, Small Urban, and Community-Based 
        Public Transportation Operations (to be published as Report 86/
        Volume 10 in early 2006) to assist them in the development of 
        an Emergency and Security Plan that was required from the 
        Department of Homeland Security to receive security funds for 
        their Johnstown Inclined Plane. CamTran reported ``. . . the 
        TCRP document has been invaluable to us in providing structure 
        and direction in what we need to get it done properly . . .. We 
        have looked at many other agency plans and we have looked at 
        what FTA and FEMA has to offer and it is just overwhelming. 
        This TCRP document kept us on track and focused on what we 
        needed.''

             SEPTA in Philadelphia reports extensively using TCRP 
        Report 86, Volume 8, Continuity of Operations (COOP) Planning 
        Guidelines for Transportation Agencies, as a valuable resource 
        in developing their internal continuity of operations plan. The 
        City of College Station, Texas, is using material from this 
        report to develop its COOP plan.

             Florida DOT reports that it hired the principal 
        investigator of TCRP Report 86, Volume 10, Hazard and Security 
        Plan Workshop: Instructor Guide, to offer the workshop in 
        several locations statewide. Mississippi DOT has also made the 
        course available for its transit systems, both pre- and post-
        Hurricane Katrina. The Texas DOT is conducting four workshops 
        around the state that are based on this TCRP report and its CD-
        ROM. At one of the workshops, a participant indicated ``. . . 
        the things addressed were instantly applicable to our operation 
        at Citibus and for the first time since I got the 
        responsibility of our security plan, I felt like I learned 
        strategies that I could suggest for implementation.''

             The Coast Guard reports that it is incorporating material 
        from TCRP Report 86, Volume 11, Security Measures for Ferry 
        Systems, in its training for new terminal pilots. The general 
        security measures (GSM) evaluation and selection tool included 
        in the report will also be included in a Coast Guard Navigation 
        and Vessel Inspection Circular (NVIC). Material from the 
        revised final report was also incorporated into internal Coast 
        Guard documents for its operational commanders.

             The California Office of Homeland Security used material 
        from the TCRP Report 86 public transportation security series 
        (Volumes 1-12) in developing its internal policies and 
        procedures.

             The Chicago Transit Authority reports that it has 
        frequently turned to reports from TCRP when analyzing security 
        issues and policies. They indicate that TRB is the first source 
        turned to when looking for reports on useful transportation 
        security practices.

                 NATIONAL COOPERATIVE RESEARCH PROGRAM

    See the following which gives examples of the impact of NCHRP 
reports on practice. A series of such reports can be reviewed at this 
link to NCHRP section of the TRB website: http://www.trb.org/CRP/NCHRP/
NCHRPImpacts.asp

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by David J. Wise, Acting Director, Physical Infrastructure 
        Issues, U.S. Government Accountability Office

Question submitted by Chair David Wu

Q1.  What would GAO consider to be adequate performance measures for 
evaluating the impact of the DOT RD&T investment?

A1. RITA's primary responsibilities include reviewing DOT's research 
activities to ensure that research throughout DOT has been evaluated 
according to best practices, thereby demonstrating the effectiveness of 
RD&T investment. We recommended that RITA develop an overall strategy, 
evaluation plan, and performance goals and measures for this and its 
other coordination and facilitation responsibilities. RITA has taken 
some steps to do so, but still lacks an overall strategy, evaluation 
plan, and performance measures for its review responsibilities.
    While evaluating RD&T impact is not an easy undertaking, it does 
not have to be solely focused on gauging outcomes--since the outcomes 
of RD&T often cannot be quantified in advance. The National Academies 
and our previous work echoed that setting clear RD&T goals and 
measuring their progress, using expert review to evaluate the quality 
of research and outcomes, and reporting periodically in evaluation 
results can help agencies systematically evaluate RD&T outcomes.\1\ One 
approach that has been used in this area is to measure technology 
transfer. For example, key experts and stakeholders told us that one 
way that the Office of Pipeline Safety's RD&T program could be measured 
is by the degree to which new technologies developed by the program 
were actually used by pipeline operators. Similarly, according to a 
RITA official, the Federal Railroad Administration measures the 
performance of its RD&T activities by how many times RD&T programs are 
used in real world applications.
---------------------------------------------------------------------------
    \1\ The National Academies. Evaluating Research Efficiency in the 
U.S. Environmental Protection Agency, Committee on Evaluating the 
Efficiency of Research and Development Programs at the U.S. 
Environmental Protection Agency (2008) and GAO, Pipeline Safety: 
Systematic Process Needed to Evaluate Outcomes of Research and 
Development Program, GAO-03-746 (Washington, D.C.: June 30, 2003).

---------------------------------------------------------------------------
Questions submitted by Representative Adrian Smith

Q1.  Your report states that RITA has taken steps to develop 
appropriate performance measures, including gathering information of 
the operating administrations on their performance measures through the 
RD&T Planning Team. You further state that RITA officials will 
determine what measures could be adopted after all of the operating 
administrations have had input. Do you know when RITA began these 
meetings of the Planning Team and how often the Team meets? Has DOT 
moved expeditiously to meet this requirement?

A1. In 2006, we recommended that RITA work with the operating 
administrations to develop common performance measures for the 
department's RD&T activities.\2\ RITA has taken some steps to do so. 
According to a RITA official, in November 2008, the agency began 
gathering information from the operating administrations on performance 
measures during RD&T Planning Team meetings. The Planning Team is 
required to meet quarterly, but has met more frequently. In 2008, the 
Planning Team met 13 times, and the team has met twice thus far in 
2009. A RITA official told us that they have finished the process of 
gathering information on performance measures, and are analyzing the 
information for commonalities and to determine whether any of the 
measures could be adopted for the department's RD&T activities. We will 
continue to monitor RITA's progress in developing and implementing 
performance measures.
---------------------------------------------------------------------------
    \2\ GAO, Transportation Research: Opportunities for Improving the 
Oversight of DOT's Research Programs and User Satisfaction with 
Transportation Statistics, GAO-06-917 (Washington, D.C.: Aug. 15, 
2006).

Q2.  Overall, does GAO believe that RITA can successfully plan and 
coordinate transportation R&D projects in-house and across the 
Department? Is the RPIC process as currently operating sufficient for 
these purposes? For instance, does RITA have access to data on the 
---------------------------------------------------------------------------
budget and performance of all R&D at the Department?

A2. The RPIC process began in fiscal year 2009 and has not been in 
place long enough to assess whether it will enable RITA to successfully 
coordinate, facilitate, and review the department's RD&T activities, or 
enable RITA to develop an overall strategy. A RITA official told us 
that they have begun the RPIC process using fiscal year 2009 planned 
budget information (they do not have performance information at this 
time) and plan to compare planned budget information to actual budget 
information once the budget is enacted. While the RPIC process seems 
like a step in the right direction, DOT has not yet documented this new 
process or explained how it complements or replaces its existing 
coordination and review strategies. According to a RITA official, RITA 
is planning to develop a detailed description of the RPIC process and 
hopes to have this completed by late spring. In our 2006 report, we 
recommended that RITA develop an evaluation plan for its own 
activities, so it could better assess whether its activities and 
process, including RPIC, are meeting intended goals. RITA has not yet 
developed such an evaluation plan.

Q3.  Do we need to produce a new, comprehensive strategy for our 
nation's highways? If so, should this strategy include other 
transportation modes? Who should be charged with developing such as 
strategy and how often should it be updated?

A3. We have reported that surface transportation programs need to be 
re-examined, especially given the Nation's financial crisis and growing 
congestion and travel demand.\3\ Since federal financing for the 
interstate highway system was established in 1956 because of the 
national interest in interstate mobility, the federal role in surface 
transportation has expanded to include broader goals, more programs, 
and a variety of program structures. To incorporate additional 
transportation, environmental and societal goals, federal surface 
transportation programs have grown in number and complexity. However, 
the federal highway program's financing and delivery mechanisms have 
not substantially changed and their continued relevance in the 21st 
century is unclear.
---------------------------------------------------------------------------
    \3\ GAO, Surface Transportation: Restructured Federal Approach 
Needed for More Focused, Performance-Based, and Sustainable Programs, 
GAO-08-400 (Washington, D.C.: March 6, 2008).
---------------------------------------------------------------------------
    Many of these programs are not effective at addressing key 
transportation challenges such as increasing congestion and growing 
freight demand because federal goals and roles are unclear, many 
programs lack links to needs or performance, and the programs in some 
areas do not employ the best tools and approaches to ensure effective 
investment decisions. For example, most highway funds are distributed 
through formulas that have only an indirect relationship to needs and 
no relationship to performance or outcomes.
    We have called for a fundamental re-examination of the Nation's 
surface transportation policies. We identified a number of principles 
that could help drive reexamination of federal surface transportation 
programs and an assessment of options for restructuring the federal 
surface transportation program. These principles include: (1) ensuring 
goals are well defined and focused on the federal interest, (2) 
ensuring the federal role in achieving each goal is clearly defined, 
(3) ensuring accountability for results by entities receiving federal 
funds, (4) employing the best tools and approaches to emphasize return 
on targeted federal investment, and (5) ensuring fiscal sustainability.
    With the sustainability and performance issues of current programs, 
it is an opportune time for Congress to more clearly define the federal 
role in transportation and improve progress toward specific, 
nationally-defined outcomes. Given the scope of needed transformation, 
it may be necessary to shift policies and programs incrementally or on 
a pilot basis to gain practical lessons for a coherent, sustainable, 
and effective national program and financing structure to best serve 
the Nation for the 21st century.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                    Statement of Lawrence H. Orcutt
               Chief, Division of Research and Innovation
                California Department of Transportation
    This testimony is intended to address the following four questions 
posed to the Division of Research and Innovation, California Department 
of Transportation (Caltrans):

        1.  How has the federal investment in R&D through the UTCs, 
        NCHRP, SHRP II, etc. impacted current infrastructure 
        construction practice?

        2.  What barriers prevent adoption of new techniques or 
        applications?

        3.  How can the Federal Government ensure that State, county, 
        and city decision-makers make informed decisions (i.e., LTAP)?

        4.  Is the current workforce capable of implementing advanced 
        highway technologies?

INTRODUCTION

Mr. Chairman, Members of the Subcommittee:

    My name is Lawrence Orcutt. I am the Chief of the Division of 
Research and Innovation for the California Department of 
Transportation, also known as Caltrans. Thank you for the opportunity 
to provide you with this written testimony.
    The Division of Research and Innovation (DRI) receives $10-15 
million per year from the Federal Highway Administration (FHWA) to fund 
the State Planning and Research Program, Part 2. In addition, in 2008 
Caltrans was notified of receiving $10-15 million in federal grants 
through various competitive processes that include Safe Trip-21: 
Connected Traveler (Research and Innovative Technology Administration), 
Vehicle Assist and Automation (sponsored by Federal Transit 
Administration), Augmented Speed Enforcement (sponsored by the Rural 
Safety Initiative-FHWA), and a Truck Parking Initiative grant to fund a 
project along the Interstate 5 (I-5) Corridor (sponsored by FHWA).
    I serve on the Transportation Research Board's (TRB) Strategic 
Highway Research Program 2 (SHRP 2) Safety Technical Coordinating 
Committee, and I am the Co-Chair for the TRB Technology Transfer 
Committee. I also serve on the Research and Technology Coordinating 
Committee (RTCC) that serves as an independent advisor to FHWA and 
other research organizations on national and federal highway research 
that has been supported by FHWA.
    Innovation is one of the four core values that guide and shape 
Caltrans, and staff is empowered to seek creative solutions and take 
intelligent risks. Caltrans has the largest and one of the most 
vigorous research programs in the Nation. Mr. Randell H. Iwasaki, Chief 
Deputy Director for Caltrans, provided testimony to your subcommittee 
in June 2008 about some of the nationally significant infrastructure-
related technologies that Caltrans has developed such as, long-life 
pavement rehabilitation strategies, and rapid rehabilitation strategies 
(Construction Analysis for Pavement Rehabilitation Strategies). I will 
be providing more detailed information about these two innovations 
later in my testimony.
    Caltrans has been focused on deploying research results to achieve 
true innovation so that research becomes reality. Through the guidance 
of the Caltrans Research and Deployment Steering Committee and by 
establishing a deployment group that is responsible for developing and 
implementing research deployment strategies, Caltrans has become a 
leader in transportation research deployment. Examples of some of the 
challenges and solutions to research deployment are included in my 
testimony.
    One of the most significant issues facing California and the Nation 
is the need to develop and implement transportation innovations. In the 
Safe, Accountable, Flexible, Efficient Transportation Equity Act--A 
Legacy for Users (SAFETEA-LU), Congress recognized the importance of 
innovation per the Principles for Research based on Title V:

         ``The federal portfolio should cover the full innovation 
        cycle, including the following:

        <bullet>  Agenda setting,

        <bullet>  Conduct of research,

        <bullet>  Support of research and technology transfer by the 
        states,

        <bullet>  Sharing of results, and

        <bullet>  Deployment (including education and training).''

    In the Research and Technology Coordinating Committee, TRB Special 
Report 295 it is recommended that:

         ``Adequate resources should be provided to FHWA to support a 
        robust program for dissemination of research results to states, 
        local governments, and private vendors.''

    Congress had the excellent foresight to require an implementation 
report for SHRP 2. ``As part of SHRP 2 authorization, Congress 
requested that a report be delivered in early 2009 concerning promising 
results from the research and how they could be implemented most 
effectively. In response to this request, the TRB's report Implementing 
the Results of the Second Strategic Highway Research Program: Saving 
Lives, Reducing Congestion, Improving Quality of Life outlines what it 
will take to implement the results of the program and reap the benefits 
it promises.''
    The recommendations listed in the report are very consistent with 
the Caltrans focus on deploying research results to achieve innovation: 
``A SHRP 2 implementation program should be established and stable and 
predictable funding should be provided over several years to support 
SHRP 2 implementation activities.''
    The legislative recommendations from the American Association of 
State Highway and Transportation Officials (AASHTO) developed by the 
Standing Committee on Research also requests resources for research 
deployment:

         ``Legislative Recommendations Summary: Initiation of a new 
        Research Deployment Program, funded at $5 million annually.

         Policy Issue Discussion/Background:

         Research products are difficult to deploy into practice. Many 
        reasons contribute to this, and many are documented in the 
        NCHRP Report 442, Systems Approach to Evaluating Innovations 
        for Integration into Highway Practice. One of the most 
        significant reasons hindering the deployment of a research 
        product is a lack of a focused national program with resources 
        to identify and share the most successful research deployments.

         A program should be established that facilitates the 
        deployment of successful research products. This program should 
        be multi-modal and conducted under the guidance of stakeholders 
        who are the ultimate users of the research. The program would 
        develop and implement project deployment plans, communications, 
        and demonstration activities. The program should be able to 
        advise and assist stakeholders with unique implementation 
        problems, such as intellectual property, feasibility studies, 
        cost benefit analysis, and ease of implementation.''

    The Federal Investment in Highway Research, 2006-2009: Strengths 
and Weaknesses--Special Report 295 makes an excellent argument for 
implementing innovation:

         ``The challenges facing the highway system cannot be addressed 
        simply by spending more money, even if doing so were possible. 
        Funding for highways is currently constrained by the sharp 
        draw-down in the federal highway trust fund and a general 
        unwillingness to raise fees or taxes that support 
        transportation infrastructure. Successfully addressing many of 
        the challenges discussed above will require new and more 
        efficient ways of doing things--new materials, better and 
        faster construction techniques, safer designs, better 
        information for drivers, new financing mechanisms, options for 
        pricing use of the system, and many more. This is the role that 
        research, development, deployment, and training must fill. ``

QUESTION 1.  How has the federal investment in R&D through the UTCs, 
NCHRP, SHRP II, etc. impacted current infrastructure construction 
practice?

OVERVIEW

    The California Department of Transportation (Caltrans) built and 
oversees a 78,000 lane-kilometers (lane-km, or one lane, one kilometer) 
State highway system. Much of that system needs repair. Rebuilding our 
transportation infrastructure affects all Californians as well as our 
national economy and global commerce. Much of our problem focuses on 
meeting the challenge of how to rebuild deteriorating highways 
economically, safely, and with minimal impacts and inconvenience to the 
public.
    Cutting-edge pavement research at Caltrans and the University of 
California has been helping find ways to rebuild our highways. Pavement 
research methods and findings have potential use on other projects. For 
example, results from traffic studies in work zones are available for 
research and deployment of Intelligent Transportation Systems (ITS). 
Also, results may help improve pavements at ports and railheads. The 
state-of-the-art research tools are also adaptable to local agencies to 
use in improving city streets and county roads. In this way, results 
from Caltrans research are better able to produce benefits for all 
Californians and all Americans.

BACKGROUND LONG LIFE PAVEMENT REHABILITATION STRATEGIES (LLPRS)

    The three examples I will describe, all stem from the Caltrans 
Long-Life Pavement Rehabilitation Strategies (LLPRS) Program which 
began in 1998. The goal of the LLPRS program is to rebuild 
approximately 2,800 lane-km of high-volume urban freeway with pavements 
that are designed to last more than 30 years with minimal maintenance. 
LLPRS also addresses the State's need for cost-effective approaches for 
rebuilding the aging pavements in its urban highway networks. The LLPRS 
program will reduce the need for future repair projects and ultimately 
save public resources for future generations of road users.
    LLPRS candidate projects were selected from among highways that 
experience minimum volume demands of 150,000 Average Daily Traffic or 
15,000 Average Daily Truck Traffic, and that have poor structural 
pavement condition and ride quality. Most LLPRS candidate sections are 
Portland Cement Concrete (PCC) pavements on Interstate freeways in 
urban networks, 80 percent of which are within the Los Angeles Basin, 
and 15 percent of which are in the San Francisco Bay Area.
    Caltrans has been working with the Partnered Pavement Research 
Center (at the University of California, Berkeley) since 1994 using the 
Heavy Vehicle Simulator (HVS) and Accelerated Pavement Testing to 
develop new pavement products for infrastructure improvements. In 2005, 
Caltrans approved an issue memo titled, ``Adoption of Mechanistic-
Empirical (ME) Pavement Design Method,'' which calls for the adoption 
of ME pavement design methodology to replace existing pavement design 
methods which have been in place since the early 1960s. Since 2000, the 
University of California Pavement Research Center (UCPRC) has been 
supporting the Caltrans effort to adopt ME pavement design by using a 
wide array of tools, including HVS full-scale pavement tests. This work 
is under the technical guidance of the Caltrans Pavement Standards 
Team. One of the Team's tasks is to develop and calibrate ME flexible 
pavement design and models for new pavements and rehabilitation. These 
models have been incorporated into a draft software program called 
CalME. The validation and calibration of the models in CalME was first 
performed using performance data from HVS tests completed by the UCPRC 
between 1995 and 2004. Calibration of CalME models also has been 
achieved using WesTrack performance data.
    The following are three Caltrans LLPRS projects:

1.  LLPRS Pilot Project: Interstate 10 Concrete Rehabilitation in 
Pomona

    In February 2000, a 20-lane-km rehabilitation project on Interstate 
10 near Los Angeles, California, was successfully completed. Fast 
setting hydraulic cement concrete was applied because it reached 
traffic opening strength in only four hours after its placement. The 
project required one weekend closure to complete 2.8 lane-km and 
repeated seven and ten-hour nighttime closures for the remaining 
distance. The rehabilitation project consisted of replacing the 
existing 230 millimeter concrete slab with new concrete, dowels, and 
tie bars. The contractor used a concurrent working method in which 
demolition and concrete paving occurred simultaneously and only a 
single lane was removed and replaced.

    The delivery and discharge of concrete controlled the overall 
progress. The 55-hour weekend closure proceeded at a rate 54 percent 
faster than the average of nighttime closures, as measured by number of 
slabs replaced per hour. A comprehensive traffic management strategy 
helped to reduce the volume of traffic during the weekend closure and 
minimize the traffic delay through the construction work zone.

    This ``proof of concept'' LLPRS project, which used concrete 
material, was followed by another project using asphalt materials.

2.  LLPRS Demonstration Project: Interstate 710 Asphalt Concrete 
Rehabilitation in Long Beach

    Caltrans successfully rebuilt a 4.4-km stretch of Interstate 710 in 
Long Beach, California, by adopting a fast-track construction approach 
that included around-the-clock (24/7) operations. The project proved 
that fast-track rehabilitation with 55-hour weekend closures is 
effective to drastically shorten overall construction time and lessen 
the negative effects of construction in an urban area. This eased 
congestion for the public, as well as freight moving to and from the 
ports of Long Beach (the second busiest port in the United States) and 
Los Angeles.

    The project proved that asphalt concrete pavement designed to 
provide a 30+ year design life can be constructed in a series of 
weekend closures even on the most heavily loaded truck route in the 
state. This long-life asphalt concrete pavement rehabilitation project 
occurred during the summer of 2003. On this project, either 230 
millimeters of asphalt concrete overlay or 325 millimeters of full-
depth asphalt concrete replacement were applied during eight 55-hour 
weekend closures. After five years of monitoring, the pavement is 
performing as predicted by research and pavement tests conducted for 
Caltrans by the UCPRC.

3.  LLPRS Implementation Project: Interstate 15 Concrete Rehabilitation 
in Devore

    Fast-track rehabilitation and reconstruction innovations have been 
researched and deployed in California. One example is the heavily 
traveled Interstate 15 corridor in Devore, California. A 4.5-km stretch 
of badly damaged concrete truck lanes was rebuilt in only two 210-hour 
(about nine days), extended closures using counter-flow traffic and 24-
hour operations. The same project would have taken ten months using 
traditional nighttime closures.

    Compared to traditional ten-hour nighttime closures, the extended 
closure had about 80 percent less total closure time, about 30 percent 
less road user cost due to traffic delay, and about 25 percent less 
Caltrans cost (about $6 million savings) for construction and traffic 
control.
    Specific innovations adopted for this groundbreaking ``Rapid 
Rehab'' project include the following:

        <bullet>  Automated Work Zone Information Systems to update 
        travelers with real-time travel information

        <bullet>  Quickchange Movable Barrier system with a dynamic 
        lane configuration to minimize traffic disruption

        <bullet>  Incentive/disincentive provisions to encourage the 
        contractor to complete the closures on time

        <bullet>  Multifaceted outreach program and web-based 
        information systems for disseminating project updates and 
        getting input from the public

        <bullet>  Mix design of rapid strength concrete to enable the 
        project to be opened to traffic 12 hours after placement.

RAPID REHAB

    One significant R&D product that is changing planning and 
management of highway construction across the country, specifically 
pavement rehabilitation projects, is Rapid Rehab. Rapid Rehab, also 
known as Construction Analysis for Pavement Rehabilitation Strategies, 
or CA4PRS, is a software package that was developed by the UCPRC with 
funding from DRI. CA4PRS aids engineers and contractors in selecting 
economical highway rehabilitation strategies that minimize disruptions 
to drivers and to the surrounding community. It identifies optimal 
construction management strategies that balance construction schedules 
with traveler inconvenience while minimizing agency costs by 
considering ``what if'' scenarios for variables such as construction 
time windows, number of lanes to be closed, material selection, and 
site access for construction vehicles (16).

Rapid Rehab Development, Testing, and Implementation Progress
    CA4PRS was developed outside of the normal Caltrans Information 
Technology (CIT) development process using a Transportation Pooled Fund 
project with the States of Washington, Minnesota, and Texas 
participating in the pooled fund effort.
    CA4PRS was first tested in 1999 in a construction project along a 
stretch of Interstate 10 near Pomona, east of Los Angeles, California. 
Data from that project validated CA4PRS simulated production rates and 
impacts on traffic. Before the work began, the contractor's estimate 
for a 55-hour weekend production rate was 3.5 lane-km. CA4PRS' estimate 
was 2.9 lane-km. Actual performance came to 2.8 lane-km (17).
    The second major construction project was on Interstate 710 near 
Long Beach in Southern California in 2002. The original construction 
plan called for ten 55-hour weekend closures. However, encouraged by an 
incentive provision of $100,000 for each weekend closure eliminated, 
the contractor used CA4PRS and finished the job in eight consecutive 
closures instead of ten and claimed a $200,000 bonus (18).
    The third major project was in 2004 along a 4.5-km stretch of 
Interstate 15 near Devore in Southern California. Original construction 
schedule called for 10-month nighttime-only closures. However, using 
CA4PRS proposed scenario, this badly damaged concrete stretch was 
rebuilt in two single-roadbed continuous closures (also called 
``extended closures'') totaling 210 hours, using counter-flow traffic 
(opposite direction to the main traffic flow) and 24-hour-per-day 
construction operations (17).
    The AASHTO Technology Implementation Group in 2006 designated 
CA4PRS as a ``priority technology'' because CA4PRS proved to be a 
valuable time and money saving innovation.
    In 2007, CA4PRS was nominated and earned the International Road 
Federation Global Road Achievement Award for the Research Category. 
CA4PRS is also included on the FHWA Priority Market-Ready Technology 
list. During a recent ceremony with the Director of Caltrans, the 
question was asked, ``Why aren't we using this tool on all of our 
projects?'' Caltrans is working to make CA4PRS part of the standard 
design practices for all projects.
    At the national level, Caltrans has been working with FHWA to 
assist other State Departments of Transportation in the purchase of the 
licensing rights through the Highways for Life Program. The University 
of California has established a cost of $150,000 for all states to be 
allowed exclusive rights to use CA4PRS. The current cost for a state to 
purchase a CA4PRS enterprise license is $5,000, which is relatively 
inexpensive.

Conclusion

    Through partnering with University of California researchers, 
Caltrans used innovative technologies to begin rebuilding California's 
infrastructure. These examples show pavement improvements being made in 
California that both improve how pavements are designed and built, and 
also help to manage the construction impacts to traffic by considering 
work windows that allow contractors get the work done quicker, cheaper, 
and with better quality. The overall construction cost savings total 
more than $20 million for the LLPRS program using the new technologies 
developed by this research program. Rebuilding America's infrastructure 
will require new methods and technologies similar to those developed in 
California using federal research funding to develop products that will 
improve our transportation products and services.

QUESTION 2.  What barriers prevent adoption of new techniques or 
applications?

INTRODUCTION

    In the transportation world of the 21st century, many challenges 
are created by inadequate resources needed to address today's massive 
transportation problems of congestion, failing infrastructure and 
environmental impacts of transportation, most notably worsening air 
quality and climate change. Innovation should, and could lead to 
improving the performance, efficiency, and quality of the 
transportation system as well as reducing their environmental impacts.
    Innovation is much needed to manage the enormity and complexity of 
transportation system. As noted in the TRB Special Report 261, 
``complexity of the transportation challenges underscores the need for 
new ways of looking at problems and for innovative solutions, offering 
significant research opportunities in all facets of the highway 
sector'' (1).

COMMON BARRIERS TO INNOVATION

    Different types of innovations face different obstacles. The more 
radical or disruptive an innovation is, the more challenges will 
accompany its acceptance and implementation. A thorough literature 
search (particularly the 2001 TRB Special Report 261) (1) helped the 
department to identify six major barriers to innovation in 
transportation as summarized below.

1.  System Diversity and Complexity

    The United States Transportation system is diverse, decentralized, 
and multifaceted. Conflicting public and private sector incentives add 
to such complexity (1). Fragmentation, disagreement among public works 
constituencies, and competition among public works categories for 
scarce resources have combined to constrain innovation (7).

2.  Intellectual Property and Procurement Restrictions

    The public sector procurement practices impose constraints on 
innovation (1). Public sector procurement activity is driven by low-bid 
process based on specifications and procedures established to satisfy 
the need for open competition and accountability (7). Competitive 
bidding requirements represent a core problem because often certain 
innovations are offered by a single company. Conflict between open 
public bidding processes and private Intellectual Property (IP) rights 
can hamper deployment of innovative products (9). Excluding evaluation 
contractors from implementation contracts can limit competition at the 
deployment stage (8).

3.  Risk Aversion

    There is notable low tolerance for risk in the public sector (1). 
Public sector decision-makers work in an environment that does not 
reward risk taking. If public officials are uneducated about or 
unfamiliar with the potential of innovative technology or uncertain of 
its merits, they are reluctant to adopt it (7).

4.  Resistance or Inability to Change

    Organizations limit and resist change (1). ``When optimal 
resolution of a product or process performance problem demands a very 
different set of knowledge than a firm has accumulated, it may very 
well stumble'' (10). Lack of training and unskilled employees often 
inhibits technological change (8).

5.  Lack of Profit Motives

    Public sector innovation is not subject to the profit motive that 
stimulates commercial innovation (7). Disruptive technologies are 
``initially embraced by the least-profitable customers in a market'' 
(10). Companies that let customers identify only new products that 
promise greater profitability and growth ``are rarely able to build a 
case for investing in disruptive technologies until it is too late'' 
(10).

6.  Lack of Product Evaluation Criteria

    It is often difficult to characterize and predict system and 
component performance of new innovative products (1). New product 
evaluation guidelines are slow to develop and are often under-resourced 
(8). Evaluation requirements are sometimes unclear or not defined (9). 
At the Caltrans it is particularly difficult to get business cases for 
Information Technology products approved through the extensive and 
cumbersome Feasibility Study Report process imposed by other regulatory 
agencies (8).

THREE MAJOR CALIFORNIA CASE STUDIES

    Recently, Caltrans completed research and development of three 
technological innovations the implementation of which covers a wide 
spectrum of barriers in encountered in new transportation technologies.

I.    SensysTM is a revolutionary traffic sensing innovation that 
combines latest communications in roads and highways technologies that 
was implemented in an evolutionary manner.

II.   Rapid Rehab (also known as Construction Analysis for Pavement 
Rehabilitation Strategies, CA4PRS), is a strategic and tactical 
planning, and control software innovation that is being implemented in 
an evolutionary fashion.

III.  Balsi Beam is an evolutionary safety hardware innovation that 
needed revolutionary approach to implementation.

    Although these innovations promised significant return on 
investment, deployment of each faced numerous and significant 
challenges that delayed implementation.

I. SENSYSTM CASE STUDY

    SensysTM is a compact, self-contained, easy-to-install, highly 
reliable, low cost wireless traffic sensor system that can replace 
traditional, more expensive inductive loops. The Sensys concept 
originated through the Partners for Advanced Transit and Highways 
(PATH) Program, at the University of California, Berkeley (UC-Berkeley) 
through a special research program in 2002 dedicated to exploring new 
ideas. Through Caltrans' DRI, the program provided up to $25,000 for 
one-year research proposals strictly intended to test or demonstrate 
new ideas and concepts.
    The $25,000 Sensys proposal was to investigate the potential use of 
a new wireless detector that could collect similar traffic data 
collected by wired inductive loops that have been in use since 1960. 
The research proposed to investigate the use of micro electro-
mechanical systems (MEMS) acoustic sensors, a prototype of which was 
developed earlier in the Department of Electrical Engineering and 
Computer Science at UC-Berkeley under a previously sponsored Defense 
Advanced Research Project Agency (DARPA) project. Researchers proposed 
to test how well the MEMS sensor network would detect traffic in urban 
streets and parking lots and determine how effectively these sensors 
can operate in an urban traffic environment, and how much spatial and 
temporal resolution can be achieved (11).
    The Sensys research proposal was approved and Caltrans, which 
allowed the researchers to explore and test the concept within one 
year, provided, seed money. During the research, the researchers 
switched from the initial detection technology (acoustical sensors) to 
magneto-resistive sensor. They also redesigned the system's protocol to 
increase communications efficiency and reduce energy consumption (12). 
The first Sensys prototype was ready for testing in 2003.

SensysTM Roadblocks

    Two of the main barriers that the implementation of the new Sensys 
system faced emerged at the testing stage. There was no funding 
allocated for testing and there were no criteria with which to evaluate 
its effectiveness. Other roadblocks faced by Caltrans include:

1.  Lack of Funding to Explore Brand New Concepts

    To mitigate this barrier, DRI created a small ($25,000) and limited 
(one-year) research grants to investigate and test new ideas.

2.  Lack of Functional Requirements, Specifications, and Evaluation 
Criteria

    To mitigate this barrier, DRI commissioned the California Center 
for Innovative Transportation (CCIT) at UC-Berkeley to perform an 
evaluation and that also performed a supplemental evaluation using 
comparable criteria.

3.  Lack of Provider Credibility

    To mitigate this barrier, DRI assured end-users that Sensys was a 
reliable product backed not only by the manufacture but also approved 
by Caltrans.

4.  Resistance to Change and Risk Aversion

    To mitigate this barrier, proactive communication was pursued 
through reports and informal discussions. DRI recruited champions at 
Caltrans' Division of Traffic Operations who sanctioned the testing.

5.  Sole-sourcing Contracts

    To mitigate this barrier, DRI had relied on performance-based 
specifications.

Lessons Learned

    Caltrans has learned several important lessons in this case.

1.  Logical Evaluation Criteria must be established in a Timely Fashion 
to Evaluate New Products. Customer-approved key performance indicators 
must be identified and performance must be measured with reasonable 
resources. It was learned that, in order to establish credibility, 
testing performance standards for new products should be as rigorous as 
or more rigorous than performance standards for existing products.

2.  Using a Systems Engineering Approach is Necessary. Using principles 
of systems engineering, functional requirements should have been 
specified and used instead of promotional product descriptions. In all 
cases, a company trying to meet the client's requirements must clearly 
understand the process for getting the product approved for use by the 
client (12).

3.  Intellectual Property (IP) can be Handled through the University 
System. Intellectual property was not an issue with this innovation 
because the IP was handled through the University of California's IP 
licensing process. Nonetheless, this required a substantial effort by 
Caltrans to get the approval of the California Department of General 
Services to allow the University to own the IP developed by the 
University research that was funded by Caltrans.

4.  Innovation needs Champions. The importance of innovation champions 
was a critical factor for the successful deployment of Sensys. 
Professor Varaiya, inventor of Sensys at UC-Berkeley, believes that 
acceptance of Sensys in California by Caltrans will establish 
confidence in Sensys and pave the way for other markets to deploy the 
product (15).

II. RAPID REHAB (CA4PRS) CASE STUDY

    Rapid Rehab is described previously under Question 1 as part of the 
LLPRS program.

CA4PRS Roadblocks

    The AASHTO Technology Implementation Group in 2006 designated 
CA4PRS as a ``priority technology.'' Despite this and the fact that 
CA4PRS proved to be a valuable time and money saving innovation, it had 
its share of roadblocks. CA4PRs was developed outside of the normal 
Caltrans Information Technology (IT) development process using a 
Transportation Pooled Fund project with the States of Washington, 
Minnesota, and Texas participating in the pooled fund effort.

1.  Compliance with Caltrans IT Standards. In order for CA4PRS to be 
accepted and allowed by Caltrans IT to become standard Caltrans 
software (and for Caltrans users to install it on their computers), an 
extensive benefit-cost analysis justifying the acquisition of the 
software for Caltrans had to be conducted and an extensive and 
cumbersome Feasibility Study Report (FSR) had to be completed. 
Completing the FSR for CA4PRS was extremely time-consuming, 
complicated, difficult, and frustrating process.

    Soon after the CA4PRS FSR was completed and after CA4PRS was 
incorporated into Caltrans Technology Standards list, a new deployment 
roadblock emerged. CA4PRS software needs to be installed on each 
engineer's computer individually. According to Caltrans IT protocols, 
individual installation of software requires the work to be performed 
by Caltrans IT staff. Caltrans' IT staff was not able to perform the 
installation work in a timely manner for the many users. As a result, 
many engineers gave up on using CA4PRS altogether.

2.  Need to Learn How to Market New Technologies. Marketing of 
technology is critical for its success because often the information is 
available, but it requires too much effort to find. Marketing 
successful results of research by going out to the customers is a 
proactive approach that Caltrans has used to ``push'' this technology 
out to users. Caltrans has learned that producing a report that resides 
on a web page or in a library is not an effective way to deploy 
innovation.

3.  Resistance to Change and Breakdown in Bottom-up Communications. 
Public institutions prefer stability and routine and are resistant to 
change. Caltrans had to be proactive in pushing the new technology. DRI 
used champions at staff and management levels throughout all stages of 
deployment to demonstrate the merit of this software. Briefings were 
provided to key decision-makers to support this innovation.

4.  Lack of Profit Motive. It was necessary to demonstrate the concrete 
benefits of Rapid Rehab to Caltrans staff as well as private 
contractors. Establishing the savings in support costs is very 
important to Capital Outlay Support managers, and this information 
helped make decisions that supported the use of CA4PRS. Construction 
and traveler delay cost and savings were documented and shown to 
benefit Caltrans, the contractors, and the general public.

5.  Risk Aversion and the Need to Establish Credibility for New 
Products. Seeking national and international recognition for innovative 
research is a strategy that DRI has used to build credibility for 
CA4PRS within Caltrans at management and staff levels. In 2007, CA4PRS 
was nominated and earned the International Road Federation Global Road 
Achievement Award for the Research Category. CA4PRS is also included on 
the FHWA Priority Market-Ready Technology list. DRI used CA4PRS in 
pilot studies that demonstrated its success. DRI won credibility for 
CA4PRS through winning national and international recognition.

6.<bullet>  Software Licensing Issues. The University of California has 
established a cost of $150,000 for all states to be allowed exclusive 
rights to use CA4PRS. The current cost for a state to purchase a CA4PRS 
enterprise license is $5,000, which is relatively inexpensive. 
Nonetheless, many states were unable to get the approval from their own 
IT departments to acquire the software for reasons similar to the 
Caltrans experience. To alleviate the financial burden that other 
states may have in acquiring CA4PRS, Caltrans took the initiative and 
has been working with FHWA to assist other State DOTs in the purchase 
of the licensing rights through the Highways for Life Program.

7.  Need for User Training. Finally, lack of training is an impediment 
to using CA4PRS. Therefore, Caltrans, in cooperation with UC-Berkeley, 
has established a training curriculum. So far over 700 people have been 
trained to use CA4PRS. This includes approximately 100 users from other 
states.

Lessons Learned

    The most important lesson learned includes the needs to do each of 
the following:

1.  Be flexible and resourceful. Although the FSR was difficult to do, 
DRI used it to as a way to document the benefits and costs of CA4PRS.

2.  Manage product licensing.

3.  Demonstrate the value of innovation.

4.  Have innovation champions.

5.  Minimize implementation cost. Caltrans used Highways for Life 
Program to help other states purchase CA4PRS.

6.  Train users professionally. It was learned that without a 
curriculum and training plan, this innovation would not be used.

III. BALSI BEAM CASE STUDY

    Protecting the safety of construction and maintenance field crews 
and motorists on roadways has long been a top priority for Caltrans. 
More than 40,000 people are injured each year in the United States of 
America as a result of motor vehicle crashes in work zones. Fatalities 
from work zone crashes have increased by more than 50 percent between 
1999 and 2004 (19). In 2004, the cost of a fatality was estimated to be 
$1,011,000. The cost of a critical injury was estimated to be $858,000 
(20).
    Balsi Beam is an innovative mobile work zone protection system that 
was envisioned by Caltrans Division of Maintenance staff. The Balsi 
Beam is named after Mark Balsi, a Caltrans landscape worker who 
suffered major injuries when he was working along Interstate 280 in 
Santa Clara County, California in January 2001.
    The Balsi Beam system is basically a tractor-trailer combination, 
with a specialized trailer that extends into a thirty-foot long work 
space in between the rear axles and tractor, shielded on one side with 
two steel beams'' (21). The trailer provides an extendable steel 
barrier to protect workers on traffic-exposed flank of a work zone.
    The Balsi Beam was designed and built by Caltrans' Division of 
Equipment. The Caltrans bridge crews utilized the Balsi Beam to protect 
their workers. The Balsi Beam would not be deployed today without the 
support of the bridge crew from Caltrans district staff Marysville, 
California.

Balsi Beam Roadblocks

    The deployment of Balsi Beam has faced several technical, 
logistical, and institutional roadblocks that included the following:

1.  Lack of an Established Evaluation Criteria and Customers' 
Uncertainty about the Effectiveness of Balsi Beam. It is difficult to 
get maintenance crews to use a new product like the Balsi Beam. In the 
opinion of the inventor, Balsi Beam is not ready for national 
deployment because it is still a prototype. In her opinion, Balsi Beam 
will prove its effectiveness when it is actually hit and saves lives 
(22).

2.  Customers' Lack of Familiarity with Balsi Beam Capabilities. The 
complex logistics of introducing a new tool into existing processes at 
Caltrans made the deployment of this innovation difficult. 
Demonstrations by the crew using the Balsi Beam helped get the word out 
to the maintenance community. Having champions at all levels to support 
the Balsi Beam is critical for the success of implementing this 
innovation. Training needs to be developed by maintenance personnel as 
hands-on training for crews to be able to operate the Balsi Beam.

3.  Lack of a Business Case for Commercializing Balsi Beam. Balsi Beam 
has strong business (and safety) case but documenting such an 
innovation case for commercialization was a new process for Caltrans. 
Documenting the business case for the Balsi Beam was essential for 
getting additional resources to purchase additional units through the 
Budget Change Proposal process at Caltrans. Documenting the business 
case not only yielded a solid and presentable business case, but also 
during the process itself, stronger links were established between 
champions at all levels for this innovative system from regular highway 
maintenance workers to the Chief for the Division of Maintenance at 
Caltrans, District Director for District 3 (in Sacramento), and 
Caltrans Chief Deputy Director. This made the case stronger to 
implement the Balsi Beam. Establishing the business case using worker 
safety data and in-field evaluations helped to overcome the 
institutional issues. DRI commissioned CCIT to perform an evaluation. 
Finally, DRI funded research at UC-Davis to perform benefit-cost 
analysis and risk evaluation study.

    A consultant was hired to help DRI establish a process to sell the 
licenses to vendors to produce units for other states. Two goals of 
commercializing the Balsi Beam were to improve the product design and 
to reduce the costs and time to produce the units.

4.  Legal Restrictions. One way for Caltrans to share this innovation 
with other states would have been to ``gift'' the license to other 
states or venders. However, California law prohibits Caltrans from 
doing so. Article XVI  6 of California Constitution prohibits any 
public agency from making ``any gift of any public money or thing of 
value to any individual, municipal or other corporation whatever'' 
(23). As a result, DRI has developed licenses to allow other states to 
purchase the right to use Balsi Beam through license agreements. DRI 
will be issuing an RFP to sell Balsi Beam licenses to multiple 
qualified vendors.

5.  High Capital Cost. A major obstacle for getting the approval to 
deploy additional Balsi Beam units has been its high capital cost. The 
capital cost of the original prototype unit was $257,000. Capital cost 
for a new, fully operational unit is estimated to be as high as 
$600,000-700,000. Increases in the price of steel, complex system 
requirements, and potential liabilities are behind the cost increases. 
High capital cost has become a barrier to deploying Balsi Beam at 
Caltrans and to marketing it to other State DOTs. DRI is using 
commercialization to reduce capital cost by improving the design and 
optimizing manufacturing procedures as well as mass-producing the units 
to domestic and international customers. Concerned about its high cost, 
the California Department of Finance asked Caltrans to evaluate other 
less expensive mobile work zone protection devices. Caltrans will 
purchase an additional three Balsi Beams units and three ArmorGuardTM 
units. This study suggests that one way to reduce the high capital cost 
is to optimize Balsi Beam design and its manufacturing processes. 
Another way is to mass-produce the system, which spreads the fixed 
manufacturing costs over larger number of units by marketing it to 
other State agencies and overseas.

6.  Intellectual Property Constraints. The patent and resulting 
Intellectual Property license for the Balsi Beam is an important 
discussion point that relates to implementing innovation. Almost all 
states have competitive bidding requirements to assure that they get 
the lowest price for the products they buy. CCIT conducted a study to 
analyze problems related to intellectual property and licensing of the 
Balsi Beam and concluded that Caltrans may have hampered the marketing 
of Balsi Beam by patenting it (12). This same study concluded that if a 
patent or licensed product requires exclusive, non-competitive bid, 
government entities might not be able to purchase the product because 
of the restrictions placed on non-competitive bids.

7.  Uncertainty about a Fair Market Value for Balsi Beam. Uncertainty 
in determining a fair market value for Balsi Beam has been a financial 
stumbling block facing the implementation of this innovation. An 
agreement with the State of New York was held up for about one year 
waiting for the license to be developed and approved. In an effort to 
solve this problem, DRI commissioned CCIT in 2007 to conduct a study to 
estimate a market value for Balsi Beam license. CCIT concluded that a 
fair market value for the license would be $2.6 million. The study 
further assumed that there is demand for 136 units that could be 
marketed eventually. Thus, the license cost per unit would $19,000 per 
unit (12). Fair market value is critical for establishing that Caltrans 
gets a reasonable compensation for the Intellectual Property and for 
complying with the State Constitution that prevents gifts of public 
resources.

Lessons Learned

    This case study illustrates the importance of several lessons 
learned including the need for all of the following:

1.  Creating champions at all levels of the organization from the crew 
level to top management. Getting to this stage in the deployment of 
innovation has taken considerable time and dedication on part of 
champions at all levels in the organization.

2.  Carefully Managing Intellectual Property Rights. Intellectual 
Property was a significant issue with the deployment of the Balsi Beam. 
It is different than the other two case studies because Caltrans owns 
the patent for the Balsi Beam. Developing standard license agreements 
for use by other states and providing a market assessment were 
effective in overcoming the IP roadblocks. Caltrans is very close to 
issuing RFP to sell the licenses to vendors who will allow other 
potential customers to purchase Balsi Beam through commercial channels.

3.  Optimizing Manufacturing and Production of Balsi Beam. 
Commercialization should optimize Balsi Beam design and manufacturing 
process and lower production cost. Mass production is also expected to 
lower unit cost.

4.  Marketing. Marketing the Balsi Beam across the country has helped 
to gain credibility within California by proving that this technology 
is unique for the purpose of obtaining resources to purchase additional 
units. In June 2004, Caltrans sent the Balsi Beam across the Nation on 
a multi-state tour with the final destination being a demonstration for 
the AASHTO Standing Committee on Maintenance. Caltrans also marketed 
the Balsi Beam through many FHWA publications and by adding the Balsi 
Beam to the AASHTO Technology Implementation Group (TIG).

QUESTION 3. How can the Federal Government ensure that State, county, 
and city decision-makers make informed decisions (i.e., Local Technical 
Assistance Program, LTAP)?

Need to Train Next Generation Workforce

    Over the next 10 years, nearly half the current transportation 
workforce will be eligible to retire--it's even more crucial than ever 
that we provide technical assistance and training programs. Tomorrow's 
decision-makers are likely today's young professionals. If they stop 
learning when they leave college, their training may be 20 years behind 
them by the time they are leading their agency. As technology and 
processes change, we need to ensure today's decision-makers are using 
today's tools, not what they learned in school 20 years ago.
    LTAP Centers (the California center and 58 other centers across the 
country) already support the Federal Government objectives by getting 
training and information out to State, regional, local agencies in the 
following ways:

<bullet>  Over the past 10 years, LTAP/TTAP centers have provided 
training to over 200,000 State DOT employees, helping to increase their 
knowledge and proficiency. More than half of this training is focused 
on Highway and Worker Safety.

<bullet>  Each year more than 40,000 DOT staff use the LTAP/TTAP 
technical newsletters as a source of timely transportation related 
information.

<bullet>  LTAP Centers are assisting in the Strategic Highway Safety 
Improvement Plan development process through their participation on 
many statewide advisory committees including Roadway Safety, Bike/
Pedestrian, Work Zone Safety and Driver Behavior committees.

<bullet>  Partnerships between State DOTs, the Federal Highway 
Administration, and the Local Technical Assistance Program have 
developed Safety Circuit Rider programs to help reduce the number of 
fatalities on rural roads.

<bullet>  LTAP Centers are administering their State High Risk Rural 
Road Programs, including conducting the field reviews for local 
agencies.

<bullet>  LTAP Centers are conducting the Safe Routes to School 
Educational Outreach programs.

<bullet>  LTAP Center staff has coordinated national, regional, and 
statewide transportation conferences including the Transportation Asset 
Management Conference, the AASHTO Research Advisory Committee Meetings, 
Winter Maintenance Symposiums, Pavement Preservation Conferences, Rail 
Corridor Safety Conferences, and many others.

<bullet>  Partnerships with State DOTs on new local road safety 
programs have helped to provide training, technical assistance and 
funding for local road improvement projects.

<bullet>  State Transportation Librarians, working closely with LTAP 
Librarians, have created customized search tools using Google that 
include all State DOTs and all university transportation center 
libraries and provided materials to State and local agencies that those 
employees would not otherwise have access to.

<bullet>  LTAP Centers are vital for delivering critical training to 
county engineers, highway superintendents and local road professionals 
in each state. Over the past 10 years, over 1.5 million local 
transportation professionals attended the LTAP/TTAP training.

LTAP Accomplishments and Training Statistics

    ``It would be hard to find a program in the Federal Government that 
touches as many people and fosters such success as LTAP and TTAP'' says 
Joe Toole, former FHWA's Associate Administrator for the Office of 
Professional and Corporate Development and now Associate Administrator 
for FHWA's Office of Safety.
    Over the past 10 years, LTAP Centers have:

<bullet>  Conducted more than 60,000 training events,

<bullet>  Provided more than nine million hours of training,

<bullet>  Reached over 1.5 transportation professionals/practitioners 
in those classrooms, nearly half of all training content relates to 
highway and worker safety,

<bullet>  Distributed over two million technical publications, and

<bullet>  Saved local transportation agencies an estimated $8 for every 
$1 LTAP spent on information and training.

National Cooperative Highway Research Program

    The National Cooperative Highway Research Program (NCHRP) was 
created as a means to conduct research in acute problem areas that 
affect highway planning, design, construction, operation, and 
maintenance nationwide. NCHRP is a voluntary program created by 
agreement between AASHTO, FHWA, and member States and administered by 
the TRB.
    Caltrans values the research produced through the NCHRP program. 
Caltrans contributes $3.5 million each year to NCHRP. In 2008, 54 
projects were selected for funding of which 37 were a high priority for 
Caltrans. Of the 171 projects selected over the past three years, 
Caltrans has over 50 members serving on project panels guiding the 
research. The strength of the NCHRP research projects is in how they 
are developed and supported, usually by TRB or AASHTO committees, and 
how the research is pursued through panels that represent the users/
customers to make sure the research is meaningful. This model is very 
similar to how the SHRP 2 was developed through direct involvement from 
transportation stakeholders and practitioners. A recent TRB project 
Communicating the Value of Research objective to develop a guide for 
successfully communicating the value of transportation research 
projects and programs is a good example of the type of research that is 
pursued at the request of the transportation community.

QUESTION 4.  Is the current workforce capable of implementing advanced 
highway technologies?

    The challenge of implementing advanced highway technologies is more 
an institutional issue. The employees of today are very capable of 
taking on the new challenges of advance highway technologies. What they 
are lacking are the tools to bring new technologies into their 
environments to make changes that will improve the products and 
services that are provided to the transportation system customers.
    In order for the workforce to implement innovations they need to 
have the ``right stuff'' to overcome the many institutional and 
organizational barriers. One basic requirement that most advanced 
technologies have difficulty overcoming is to establish a business case 
that can be approved through the financial institutions. Providing 
product specifications and training are requirements that often are not 
met. The innovation system is designed to create new ideas, not to 
implement them. At Caltrans, we have dedicated resources to deploying 
research results by forming a four-member deployment branch. We have 
also established the California Center for Innovative Transportation to 
assist with deployment of research products and services.

Innovation Survey

    Transportation innovation information can help provide insights 
into what our current staff thinks about innovation and what we should 
do to encourage them to innovate. DRI conducted a pilot survey in an 
attempt to help answer the following research innovation questions. The 
following survey was sent to 150 transportation research professionals 
in California, research executives in the other 49 State DOTs, and some 
in Canada:

1.  Should focus be on sustaining (evolutionary) or disrupting 
(revolutionary) innovation?

2.  What are the most common roadblocks facing the implementation of 
innovation in transportation?

3.  What are most common enablers of the innovation process?

4.  Prioritize the importance of innovation in safety, performance, 
cost-effectiveness, quality, and environmental protection.

5.  How can we facilitate the process of implementing innovation at 
Caltrans and other State DOTs?

Survey Instrument

    The survey consisted of ten questions used to test our assumptions 
``hypothesis'' regarding the existence of the above barriers and 
enablers. Respondents completed 109 ``usable'' surveys. The survey 
asked respondents the following:

<bullet>  Rate the importance of each roadblock and enabler.

<bullet>  State if they prefer sustaining or disruptive technologies.

<bullet>  Prioritize which innovations, safety, performance, cost-
effectiveness, quality, and environmental protection, are most 
important.

<bullet>  Provide their suggestions for improving the innovation 
process.

Survey Results

1.   About 79 percent of respondents indicated that innovation is 
``very important,'' 20 percent indicated it is ``important.''

2.   About 62 percent of respondents thought ``sustaining'' 
(evolutionary) technologies are more important than ``disruptive'' 
(revolutionary) technologies. However, 73 percent of academic 
respondents believed the other way around.

3.   Safety was the top priority for non-academic respondents with an 
average score of 4.1/5.0.

4.   Academic researchers indicated they are most interested in 
performance innovations, followed by quality.

5.   About 63 percent of respondents considered themselves innovation 
champions.

6.   About 42 percent of respondents are decision-makers.

7.  About 40 percent of respondents are potential implementers of 
technological innovations.

8.   ``Resistance to Change'' was voted by both Caltrans practitioners 
and academic researchers as the most serious roadblock to innovation 
(researchers scored it 4.8/5.0, Caltrans participants scored it 4.6/
5.0).

9.   Innovation enablers ``Product matches user needs'' received a 
score of 4.6/5.0; ``User/customer participation'' received a score of 
4.5/5.0; and ``Successful pilot projects'' received a score of 4.4/5.0.

10.  Both Caltrans practitioners and academic researchers view ``lack 
of political will to take on challenge'' as the most serious 
institutional barrier to innovation, with researchers thinking it is 
more serious and rating this barrier 4.7 on average as compared with 
Caltrans group, who rated it 4.3 on average.

IMPROVING TRANSPORTATION INNOVATION IMPLEMENTATION

1.  Establish clear direction and procedures for the innovation process

    A vast number of respondent comments focused on the need to 
establish clear direction and procedures for the innovation process, 
including clear objectives and precise performance measures to evaluate 
success.

    One respondent stressed the importance to define what is ``new'' 
and what is ``innovative.'' Another said clear procedures should be 
created for implementations and marketing, and some respondents 
recommended to make pilot projects part of the implementation process. 
Frustration with bureaucracy was evident. The innovation process should 
be streamlined so that there are fewer barriers holding up innovation. 
``The FSR [Feasibility Study Report required for implementation of 
innovations at Caltrans] process and requirements are mind-boggling and 
in need of streamlining as well.'' Executive leaders must 
``institutionalize'' the culture of encouraging innovation by 
integrating it into work plans and incorporating it into the regular 
performance evaluations of the organization and its managers. One 
respondent's experience is that most innovations stop at the 
recommendations level in government and there are not good 
implementation plans to carry out the recommendations make them 
permanent or institutional. The same respondent further cautioned that 
``Too often things are attached to a person and when that person moves 
on and so does the innovation.'' The implementation of innovation 
should be mandated in order to carry innovation to fruition.

2.  Improve communications

    One respondent emphasized ``Communicate, communicate, and 
communicate.'' Make sure that everyone with an interest in the 
potential innovation gets a chance to provide input and to question. A 
university research executive suggested connecting the organization 
[say Caltrans] more closely with researchers and innovators. A project 
manager would mandate customer participation in project progress and 
meetings.

3.  Secure executive sponsorship and management support

    There was a universal consensus that strong management support for 
innovation is indispensable. ``There is no substitute for leadership 
with vision and practical, focused follow-through,'' one respondent 
wrote. Innovation begins with executive-level commitment and 
development of a work environment that embraces innovation. Upper 
management support and encouragement is required. Innovation needs 
strong executive support & successful pilots/demos. There is a need for 
strong executive mandate and adequate funding of demonstration 
programs. While executive-level support is important, they need to 
leave the implementation to the experts. Leaders should lead, not 
manage. Finally, top leadership has to make innovation a priority and 
then hold people accountable.

4.  Empower people and find champions for each innovative idea/project

    Innovation champions are needed in the innovation policy and 
procedures area. Otherwise, innovations will fall flat or will not 
reach full potential. Many respondents suggested that research staff 
``needs to be empowered to accomplish innovation.'' It is necessary to 
have champions at high-levels in order to create a culture for 
innovation in an organization as well as product-level champions to 
overcome resistance to change. A university professor and a director of 
a university transportation center said: ``Give people some freedom to 
try new things''. A Caltrans project manager suggested giving ownership 
of each innovation project to a small team with management backing. One 
respondent pointed out the role of the individual in innovation and 
cautioned that, ``if the person who is championing the change is not 
liked in the organization, the change may be overlooked.''

5.  Create incentives for innovators

    Many respondents argued for increasing opportunities for innovative 
ideas. Both university researchers and project managers advocated 
creating incentives. ``More ideas portend higher probability of 
innovation which may be implemented,'' said a university researcher. A 
senior electronics engineer would reward innovators and reward those in 
management who are willing to take reasonable risk when the potential 
advance is significant. A senior transportation engineer would 
encourage more innovative research work by staff by reducing 
administrative workload demands.

6.  Demonstrate the benefits of innovation

    Many respondents emphasized the importance of ensuring that end-
users have clear understanding of the advantage of innovation. The 
benefits of the concept must be proven to satisfy the real user needs. 
Innovation advocates and end-users must have clear understanding of the 
problem and value added by innovation. The importance of an innovation 
must be clarified up front to all stakeholders. Case studies should be 
used to show how other State agencies have implemented an innovation 
and show how it has improved their business.

7.  Manage risk and change

    Surprisingly, many respondents with executive authority confronted 
the need to take reasonable risk head on. One asked to ``demystify 
risk'' because sometimes ``it is riskier not to act.'' Another said one 
must ``accept certain amount of risk to compensate for high payoff.'' 
One acknowledged that the core issue is the ``risk-averse culture,'' 
the general lack of positive reinforcement to try something new, and 
the ``penalties'' if you break the mold and fail. One executive 
cautioned, however, to be realistic and not expect the organization to 
always absorb the cost/effort to innovate. One respondent believed that 
people, users, and even institutions that normally are reluctant to 
change would eventually welcome ``good'' changes that make life easier.

CONCLUSIONS AND RECOMMENDATIONS

    Respondents recommended seven major actions to develop a workforce 
that can implement innovations that will make new or advanced 
technologies a commonplace reality:

1.  Establish clear direction and procedures for the innovation 
process,

2.  Improve communications,

3.  Secure executive sponsorship and management support,

4.  Empower employees and find champions for each innovation,

5.  Create incentives for innovators,

6.  Demonstrate the benefits of innovation, and

7.  Manage risk and change.

    Finally, the research showed that ``resistance to change'' and 
``lack of political will'' are among the most serious barriers to 
innovation. The highest-rated enabler of innovation was ``product 
matched user need.'' It was also evident that innovation, whether 
disruptive or sustaining, requires champions of innovation at all 
levels of the organization to be successful. It was evident that 
managing risk and change is critical for the success of innovation. In 
the public sector, most failures are highly publicized and criticized. 
A single innovation failure can outstand, outtalk, and overshadow 
dozens of successful ones. Therefore, creating the ability to take 
calculated reasonable risks is required at all public agencies in the 
transportation sector.

REFERENCES

1.   Transportation Research Board (TRB) Special Report 261, The 
Federal Role in Highway Research and Technology, Research and 
Technology Coordinating Committee, p. 36. Transportation Research 
Board, National Research Council, Washington, D.C., 2001.

2.   Merriam-Webster On-Line Dictionary. http://www.merriam-
webster.com/dictionary

3.   Ettlie, John E. Managing Innovation, New Technology, New Products, 
and New Services in a Global Economy. Burlington, MA. Elsevier 
Butterworth-Heinemann Publications, 2006.

4.   Luecke, Richard and Ralph Katz. Managing Creativity and 
Innovation. Boston, MA. Harvard Quarterly (35), 2003.

5.   AlKadri, Mohamed, Benouar, Hamed, and Tsao, H.-S. Jacob. 
``Intermediate Automation Concepts for Incremental Deployment of 
Automated Highway Systems,'' Transportation Research Record 1651, 
Washington, D.C., 1998.

6.   Howard Hughes Medical Institute. Howard Hughes Medical Institute 
and Burroughs Wellcome Fund Making the Right Moves, A Practical Guide 
to Scientific Management for Postdocs and New Faculty. Research 
Triangle Park, NC, 2004.

7.   Transportation Research Board, National Research Council. Managing 
Technology Transfer, A Strategy for the Federal Highway Administration, 
Research and Technology Coordinating Committee (Special Report 256). 
Washington, D.C., 1999.

8.   Sidhu, Ikhlaq and Margulici, J.D. Policy Brief: Procuring 
Innovation at Transportation Public Agencies. Berkeley: University of 
California, Berkeley, 2008.

9.   Margulici, J.D, Jacobowitz, D., and Lingham, V., CCIT. Sensys 
Networks, Inc., Innovative Case Study. University of California, 
Berkeley, 2007.

10.  Christensen, Clayton M. (2000). The Innovators Dilemma: The 
Revolutionary Book That Will Change The Way You Do Business. New York, 
NY First Harper Business ed., 2000.

11.  AlKadri Proposal Review of Sensys proposal. Unpublished Caltrans 
data, March, 2002.

12.  Margulici, J.D., and Jacobowitz, D. (May 2007). Intellectual 
Property Valuation and Licensing of the Balsi Beam, Draft Report. CCIT, 
University of California-Berkeley. Business School Press. Marguluci, 
October, 2007.

13.  Margulici, J.D, Jacobowitz, D., and Lingham, V. Sensys Networks, 
Inc., Innovative Case Study. CCIT, 2007.

14.  Palen, J. Sensys and Loop Detector Evaluation Follow Up Report. 
Caltrans Division of Research and Innovation. Sacramento, CA, 2007.

15.  Interview with Professor Pravin Variaya of the College of 
Engineering, UC-Berkeley and Amin Haoui, SensysTM President 
(unpublished data), April, 2008.

16.  Pavement Research Center. Official website http://
www.its.berkeley.edu/pavementresearch/

17.  Lee, E.B, and Thomas, D. Accelerated Reconstruction of I-15 Devore 
Corridor. Public Roads Vol. 70, No. 4, January/February 2007.

18.  Caltrans, DRI, 2004 California Department of Transportation, 
Division of Research and Innovation. Rapid Pavement Rehabilitation with 
Long Life Asphalt Concrete Project experience from the rehabilitation 
of Interstate 710 in Long Beach, California using 55-hour weekend 
closures. May 3, 2008 November 2004, (also see) http://www.dot.ca.gov/
research/roadway/llprs/i-710<INF>-</INF>brochure.pdf

19.  Jones, Jerry; Sri Balasubramanian, Sri; and Teague, Kris. Research 
and Technology Transporter, (http://www.tfhrc.gov/trnsptr/aug04), USDOT 
FHWA, 2004.

20.  Ravani, B., and Ortolano, M. Evaluation of the Balsi Beam Mobile 
Work Zone Crash Protection System, Draft Final Report. Advanced Highway 
Construction and Maintenance Technologies Center, University 
California-Davis, 2006.

21.  Department of Transportation, Division of Research and Innovation. 
Caltrans Mobile Work Zone Protection System: The Balsi Beam. January 
2007 (Retrieved May 3, 2008 from: http://www.dot.ca.gov/newtech/
researchreports/two-page<INF>-</INF>summaries/
balsi<INF>-</INF>beam<INF>-</INF>2-pager.pdf).

22.  Case Study Interview, Angela Wheeler, unpublished data, May 2008.

23.  California State Constitution, Article XVI  6.
          Statement of The American Society of Civil Engineers

               An Overview of Transportation Research and

              Development: Priorities for Reauthorization

    The American Society of Civil Engineers (ASCE) \1\ is pleased to 
submit this Statement for the Record of the February 12 hearing held by 
the United States House of Representatives, Subcommittee on Technology 
and Innovation, Committee on Science and Technology: An Overview of 
Transportation Research and Development: Priorities for 
Reauthorization.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents more than 146,000 civil 
engineers individually in private practice, government, industry, and 
academia who are dedicated to the advancement of the science and 
profession of civil engineering. ASCE is a non-profit educational and 
professional society organized under Part 1.501(c) (3) of the Internal 
Revenue Code.
---------------------------------------------------------------------------
    America's surface transportation system is broken. ASCE's 2009 
Report Card for America's Infrastructure, released in January, graded 
the Nation's Roads a D-; Bridges a C; Transit a D; and Rail a grade of 
C-.
    Among the key findings are the following. In 2007, 41,059 people 
were killed in motor vehicle crashes and 2,491,000 were injured. Motor 
vehicle crashes cost the U.S. $230 billion per year--$819 for each 
resident in medical costs, lost productivity and travel delays. 
Americans spend 4.2 billion hours a year stuck in traffic at a cost of 
$78.2 billion a year--$710 per motorist. Roadway conditions are a 
significant factor in about one-third of traffic fatalities and poor 
road conditions cost U.S. motorists $67 billion a year in repairs and 
operating costs--$333 per motorist. One-third of America's major roads 
are in poor or mediocre condition and 36 percent of the Nation's major 
urban highways are congested.
    More than 26 percent of the Nation's bridges are either 
structurally deficient or functionally obsolete and the number of 
deficient bridges in urban areas is on the rise. While demand for 
public transit is increasing, only about half of American households 
have access to bus or rail transit and only 25 percent consider it to 
be a good option. Because freight and passenger rail generally share 
the same network, any significant increase in passenger rail demand 
will exacerbate freight railroad capacity challenges.
    To compete in the global economy, improve our quality of life, and 
raise our standard of living, we must rebuild and update America's 
surface transportation infrastructure. America's 21st century surface 
transportation system must be founded on a new paradigm based on a 
comprehensive, holistic, multi-modal approach utilizing integrated, 
effective, inter-modal, sustainable, cost effective solutions. Only 
then will America have a surface transportation system that is 
unparalleled in its safety, security, efficiency and effectiveness.
    As Congress works to develop the 2009 Authorization of the Surface 
Transportation Program, it must remain cognizant that it can no longer 
focus only on the movement of cars and trucks from one place to 
another. Rather, the new paradigm must be based on moving people, goods 
and services across the country. This new vision must be inter-modal 
and deal with the possible effects of climate change; land use, 
sustainability, and the anticipated changes in the population's 
demographics, particularly age and urbanization.
    ASCE supports the vision of a national inter-modal transportation 
system which is economically efficient, environmentally sound, provides 
the foundation for U.S. businesses to compete globally and moves people 
and freight in an efficient manner. Developing and deploying new 
technologies and cutting-edge solutions will require input from 
stakeholders in the public, private, and academic sectors, and 
accomplishing a truly inter-modal system will require partnerships 
among Federal, State, local and regional government authorities as well 
as citizen groups and the private sector.
    Research and technology (R&T) are critical to achieving 
transportation goals in: infrastructure performance and preservation; 
safety; quality of life; economic prosperity; environmental impacts; 
and sustainability and security . . . and technology transfer 
activities are critical to the successful implementation of research 
results. While we understand that in the current economic environment 
it may be difficult to increase surface transportation research and 
development funding, at a minimum, current R&T funding levels must be 
maintained and public-private partnerships, where appropriate, should 
be fostered.
    The Highway Trust Fund (HTF) has been an essential source of 
funding for surface transportation research and technology for decades, 
and research results have led to many benefits including: materials 
that improved the performance of pavements and structures; design 
methods that reduce scour (and the consequent threat of collapse) of 
bridges; intelligent transportation systems technologies that improve 
safety and reduce travel delay; methods and materials that radically 
improve our ability to keep roads safely open in severe winter weather; 
innovative management approaches that reduce environmental impacts and 
improve the cultural aspects of transportation facilities; and many 
more.
    One way to reduce the investment gap, that is, the difference 
between HTF revenues and the funding needed to improve the surface 
transportation system, is through research, as research outcomes can 
improve the performance and durability of our transportation 
infrastructure, resulting in reduced operations and maintenance costs 
and less frequent replacement of infrastructure elements. The 
Exploratory Research Program, funded in SAFETEA-LU, has the potential 
to be the lead program in providing improved materials, designs, and 
processes that can transform the performance of our surface 
transportation infrastructure.
    The ability of the HTF to continue to serve as a major funding 
source for transportation R&T is dependent upon the continued 
capability of the Highway Trust Fund revenue sources to generate 
adequate levels of funding. The latest projections indicate that 
Highway Trust Fund revenues will be insufficient to continue the 2009 
SAFETEA-LU authorized levels of funding in 2010. The result will be not 
only reduced investment in highway and transit infrastructure, but also 
reduced investment in research. To avoid reduced investment, Congress 
will need to address this problem by September 30, 2009. While in the 
short-term, an increase in user fees is clearly necessary, our national 
surface transportation policy must--in the longer-term--move toward a 
system that more directly aligns fees that a user is charged with the 
benefits that the user derives. Appropriate policy research can help 
identify solutions to the funding issue and what methods and 
technologies are best to provide revenue to the HTF. This type of 
research needs to be funded in the new authorization.
    Other research programs that can continue to contribute to the 
improvement of the highway system include the Federal Highway 
Administration's (FHWA) program, the National Cooperative Highway 
Research Program (NCHRP) and State department of transportation 
programs funded largely through State Planning and Research (SPR) 
funds. In the transit area, the main programs are those of the Federal 
Transit Administration (FTA) and the Transit Cooperative Research 
Program (TCRP). ASCE believes that the University Transportation 
Centers (UTC) program provides valuable research across most 
transportation modes.
    Designated programs and earmarks in SAFETEA-LU resulted in an over 
designation of funding in the research title. As a result, the FHWA has 
no discretionary research funding, causing some research products and 
services previously provided by FHWA to either be absorbed by State 
programs or to be discontinued altogether. Some of the earmarks also 
placed additional burdens on State research programs when these 
programs were identified as sources of matching funds for the earmarks. 
Therefore, as we go forward, we recommend that there be minimal 
earmarking and that free and open competition among non-federal 
entities performing research utilizing federal funds be promoted.
    Within the context of the general principles set out above, ASCE 
supports the following actions regarding specific R&T programs:

        <bullet>  The research and technology portion of the State 
        Planning and Research (SPR) program should be maintained to 
        help support state-specific activities while continuing to 
        encourage the states to pool these resources to address matters 
        of more general concern.

        <bullet>  University research should continue to be supported 
        through the University Transportation Centers (UTC) program 
        using a competitive selection process that guarantees quality 
        participants and fairness in the allocation of funds.

        <bullet>  The Federal Highway Administration's (FHWA) program 
        should be strengthened by giving it sufficient funding and 
        flexibility to implement the recommendations of TRB Special 
        Report 261, The Federal Role in Highway Research and 
        Technology, to focus on fundamental, long-term research; to 
        perform research on emerging national issues and on areas not 
        addressed by others; to engage stakeholders more consistently 
        in their program; and to employ open competition, merit review, 
        and systematic evaluation of outcomes.

        <bullet>  A continuation of the Strategic Highway Research 
        Program SHRP II beyond the life of SAFETEA-LU, ensuring that 
        critical research will be continued in key areas of surface 
        transportation.

        <bullet>  The Federal Transit Administration's (FTA) research 
        program should be given sufficient funding and flexibility to 
        work with its stakeholders to develop and pursue national 
        transit research priorities.

        <bullet>  The new Research and Innovative Technology 
        Administration (RITA) should have a well-defined scope and 
        responsibility and appropriate funding, in addition to 
        currently authorized research funding, so that it may 
        supplement and support the R&T programs of the modal 
        administrations.

    We also encourage the Subcommittee to review the findings and 
recommendations of TRB Special Report 295, ``The Federal Investment in 
Highway Research 2006-2009, Strengths and Weaknesses.''
    While the Federal Government plays a relatively minor role in the 
ownership and operations of the Nation's highways, it plays a critical 
and indispensable role in the research and innovation process, 
providing about two-thirds of the total amount spent on highway 
research and technology projects. It also plays a major role in 
training and technology transfer, and has traditionally been the sole 
source for higher-risk, potentially higher pay-off research.
    To bolster the U.S. Department of Transportation's (DOT) 
capabilities to improve research, development, technology coordination 
and evaluation, in 2004, Congress created DOT's Research and Innovative 
Technology Administration (RITA), to coordinate and review the 
Department's programs for purposes of reducing research duplication, 
enhancing opportunities for joint efforts and ensuring that research, 
development and technology activities are meeting their objectives. In 
2006, the U.S. Government Accountability Office (GAO) reported that 
while RITA had made progress toward these ends, more needed to be done. 
Specifically, GAO noted that RITA has not yet developed an overall 
strategy, evaluation plan, or performance measures which delineate how 
its activities ensure the effectiveness of the Department's research, 
development, technology investment. As a cost-effective coordinated 
research, development and technology program is vital to creating a 
world class, 21st century surface transportation program, we urge 
Congress to continue to monitor RITA's progress towards achieving these 
goals to ensure that the public receives a maximum return on every 
dollar invested.
    Rebuilding America's transportation infrastructure is a critical 
part of rebuilding our economy. And there can be little doubt that a 
highly focused and well coordinated R&T surface transportation 
investment program is necessary if we are to build a surface 
transportation system that is unparalleled in its safety, security, 
efficiency and effectiveness, one which provides long-term benefits and 
reinforces the economic foundation of our nation.
    ASCE looks forward to working with the Committee to create a strong 
transportation research program in the next surface transportation 
authorization bill.

</pre></body></html>
